<html>
<title> - WEATHERING THE STORM: A STATE AND LOCAL PERSPECTIVE ON EMERGENCY MANAGEMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   WEATHERING THE STORM: A STATE AND LOCAL PERSPECTIVE ON EMERGENCY 
                               MANAGEMENT

=======================================================================

                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2011

                               __________

                           Serial No. 112-30

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-240                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bfcebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>  



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Vacancy
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Hansen Clarke, a Representative in Congress From 
  the State of Michigan:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3

                               Witnesses

Mr. Bryan W. Koon, Director, Florida Division of Emergency 
  Management:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Ms. Nancy Dragani, Chair, Response and Recovery Committee, 
  National Emergency Management Association:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Gerald L. Smith, President, Florida Emergency Preparedness 
  Association:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. John E. ``Rusty'' Russell, Director Hunstville-Madison County 
  Emergency Management Agency, Testifying on Behalf of 
  International Association of Emergency Managers:
  Oral Statement.................................................    29
  Prepared Statement.............................................    30
Ms. Chauncia Willis, Emergency Coordinator, Office of Emergency 
  Management, City of Tampa, Florida:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Ms. Linda Jorge Carbone, Chief Executive Officer, Tampa Bay 
  Chapter & Florida West Coast Region, American Red Cross:
  Oral Statement.................................................    41
  Prepared Statement.............................................    43

 
   WEATHERING THE STORM: A STATE AND LOCAL PERSPECTIVE ON EMERGENCY 
                               MANAGEMENT

                              ----------                              


                         Friday, June 10, 2011

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Clearwater, FL.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
the City Council Chambers, Clearwater City Hall, 112 S. Osceola 
Avenue, Clearwater, Florida, Hon. Gus M. Bilirakis [Chairman of 
the subcommittee] presiding.
    Present: Representatives Bilirakis and Clarke of Michigan.
    Mr. Bilirakis. The Committee on Homeland Security 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order.
    The subcommittee is meeting today to receive testimony on 
the efforts of State, local, and non-governmental organizations 
to prepare for and respond to natural disasters, terrorist 
attacks, and other emergencies.
    I want to start by welcoming Congressman Clarke, my very 
good friend, and all of our witnesses to sparkling Clearwater, 
Florida, Florida's Ninth Congressional District. Thank you for 
coming.
    I appreciate the effort taken by all those involved to have 
this important field hearing--and it is very important. This is 
an official Congressional hearing as opposed to a town hall 
meeting, and as such, we must abide by certain rules of the 
Committee on Homeland Security and of the House of 
Representatives. I kindly wish to remind all guests today that 
demonstrations from the audience--I do not believe there will 
be any--including applause and verbal outbursts, as well as the 
use of signs and placards are a violation of the rules of the 
House of Representatives. It is important that we respect the 
decorum and the rules of this committee. I have also been 
requested to state that photography and cameras are limited to 
accredited press only.
    The Mayor is scheduled to be here. He has not arrived yet, 
but when he does arrive, I would like to recognize him, I 
believe he would like to formally welcome us.
    Now I recognize myself for an opening statement.
    I am pleased that we could convene this hearing at the 
start of what NOAA predicts to be an above-average hurricane 
season and during what can only be described as an active year 
for disasters, unfortunately. So far this year, communities 
throughout the United States have experienced thwarted terror 
plots, tornadoes, severe winter weather, flooding and, of 
course, the tsunami warning and wildfires.
    While disaster response is primarily a local 
responsibility, FEMA has an important role to play in 
supporting the State, local, and private sector, and of course, 
VOADs, which is the Volunteer Organizations Active in 
Disasters. Those are the partners such as the Red Cross--and we 
will hear from the Red Cross this morning.
    I look forward to hearing from our distinguished panel of 
witnesses about your experiences working with FEMA and your 
suggestions for changes that would further enhance the 
organization. In addition, I would like to hear about your 
response preparations for natural disasters and terrorist 
attacks, what successes you have had and what challenges you 
continue to face.
    I am also interested in your perspective on efforts to 
mitigate the consequences of a disaster through individual and 
community preparedness. I continuously stress the need for my 
constituents to enhance their preparedness by developing 
emergency plans and kits. It is so important that we work to 
build a culture of preparedness. All too often individuals do 
not prepare because they do not think a natural disaster or 
terrorist attack will impact them. But as the disasters that 
have occurred across the country this year illustrate, 
disasters can happen anywhere and often with little notice. We 
cannot afford to become complacent--that is the bottom line.
    In addition to efforts to enhance preparedness, I believe 
we must do more to enhance our resilience to disasters. That is 
why I have introduced the Hurricane and Tornado Mitigation 
Investment Act of 2011, which would provide a tax credit to 
individuals and businesses owners who make improvements to 
their property that will help mitigate hazards. These efforts, 
such as increasing the durability of roof coverings, or 
reinforcing the connections between roofs and walls, can help 
to reduce loss of life and property damage and speed recovery.
    Last, I would like to hear how we can help you as you work 
to meet the many challenges you face in preparing for and 
responding to natural disasters and terrorist attacks. We want 
to be your partners in preparedness.
    With that, I once again thank you for appearing before the 
subcommittee today and look forward to your valuable testimony.
    Now I recognize my good friend, the gentleman from 
Michigan, Mr. Hansen Clarke, for an opening statement.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you.
    Mr. Clarke of Michigan. My name is Hansen Clarke, a Member 
of Congress from Michigan's 13th District. That includes 
Detroit and surrounding suburbs. Our area has the busiest 
international border crossing of North America. We are at risk, 
great risk of a terrorist attack and, although we have not been 
hit by hurricanes, just recently, in the last couple of weeks, 
areas in the State of Michigan, urban areas, have been hit by 
tornadoes. That has been virtually without precedent in the 
area.
    While responding to a natural disaster or terrorist attack 
may involve similar activities and functions, we are aware that 
preparing for a natural disaster or human-caused accident is 
very different than preparing to guard against a terrorist 
attack. So that is why, for me, it is important to hear your 
point of view on how we could better improve our grant 
programs. Especially I would like to hear directly from you on 
your assessment of emergency management performance grants, 
your comments on the funding levels, how the matching 
requirements have been working.
    Also, I want to commend the Chairman. His focus today on 
this issue of being prepared against natural disasters, he is 
right on the mark. Just yesterday, I was in the lobby of a 
business and I saw this magazine cover, Newsweek, ``Weather 
Panic: Is this the new normal and we are hopelessly 
unprepared.''
    This article, if I can just read, it says, ``In a world of 
climate change, freak storms are the new normal. Why we are 
unprepared for the harrowing future.''
    So, you know, whether you agree with the premise that 
climate change could be a cause in much of the activity that we 
have received in terms of fires and floods and tornadoes, 
nonetheless, the Chairman is absolutely right. We are at risk 
of more natural disasters. We need to be prepared for them.
    My final note though in being here is I want to underscore 
something that has been really glossed over or not recognized 
at all by the National media, and that is how we in Congress, 
especially in the House, work together. If you turn on the 
news, all you hear about is the bickering and the divisiveness 
going on in Congress, the fact that members cannot communicate.
    I am honored to serve with your Chairman, Gus Bilirakis. He 
is a good man, he works with me, he listens to the needs of my 
district and he has me involved in the decision-making process 
of this very important subcommittee. He supported our efforts 
to remove that restriction on funding because he realized that 
Tampa and Detroit, we are in the same situation right now. We 
are at high risk for an emergency, but yet many of our 
political leaders around the country do not choose to fully 
recognize that.
    So in addition to the substance of this hearing, which is 
of absolute importance to this region and our country, I think 
it is also important for me to underscore the fact that your 
Chairman represents the type of leadership that will allow the 
House of Representatives and the Congress to move forward to 
really look and respond to the needs of our community because 
he is able to look beyond political concerns and look at the 
concerns of our people here. So it is an honor for me to be 
here, Mr. Chairman.
    [The statement of Hon. Clarke of Michigan follows:]

                Prepared Statement of Hon. Hansen Clarke
                             June 10, 2011

    Good morning. Thank you Chairman Bilirakis for convening this 
important hearing on the frontlines of hurricane response. It is good 
to get a feel for the situation on the ground and speak with citizens 
and State and local officials, who are really the ones who respond when 
disaster strikes.
    It is vitally important that we provide them with the support they 
need, so their testimony today will be very valuable in understanding 
that need. Thank you to all of those first responders here for your 
service in protecting our communities, and thanks especially to our 
witnesses for appearing to provide expert testimony here today.
    Each community faces its own challenges and the local responders 
there are best prepared to address and handle a disaster response.
    As the Representative of the 13th district of Michigan, I represent 
the city of Detroit, which has one of our Nation's busiest border 
crossings. Like this region, we have our own waterway (the Great 
Lakes), our own extreme weather conditions (floods and sub-zero 
temperatures), and our own infrastructure needs.
    While Tampa region emergency managers have to annually plan for an 
intense hurricane season, emergency managers in my district have to 
prepare for brutal winter storms.
    Both urban areas maintain a common bond in understanding the need 
to ensure constant readiness for man-made and natural disasters.

                        THE NEED IS STILL GREAT

    Unfortunately, over the last several years we have seen more 
intense and devastating natural disasters, internationally and here at 
home.
    These disasters have completely transformed whole communities sadly 
causing lives to be lost and the destruction of homes and businesses.
    Today, recovery activities continue in Alabama and Missouri, as 
well as in New Orleans and other Gulf Coast States where the Nation 
experienced its worst natural disaster over 5 years ago.
    As the emergency managers in Florida know, the National Oceanic and 
Atmospheric Administration has predicted another active hurricane 
season.
    In addition to natural disasters, homegrown and foreign terrorists 
are still committed to attacking the homeland in small and large cities 
across the country.
    The terrorist threat is at its highest level since 9/11 according 
to the Department of Homeland Security.
    The demise of Osama bin Laden does not provide an opportunity for 
us to rest and limit our preparedness.
    In fact, it requires that we reaffirm our commitment to 
preparedness, especially given terrorists' intent to expand their 
targets to include smaller cities, ports, and various modes of 
transportation.

                   CUTTING GRANT FUNDING IS DANGEROUS

    As I said last week on the floor of the House of Representatives, 
given the numerous threats we face, this is not the time to cut back on 
homeland security.
    The resources provided to State and local first responders are 
essential and ensure they have the equipment, staffing levels, and 
training needed to effectively respond.
    Unfortunately, some of my colleagues in Congress have questioned 
the usefulness of these grant funds.
    We can all agree that the Nation must pursue responsible fiscal 
policies, but we should not shortchange the Nation's preparedness.
    The fiscal year 2012 Homeland Security budget passed last week 
makes dramatic and devastating cuts to preparedness grants.
    Grant programs such as the Urban Area Security Initiative provide 
cities such as Detroit and the Tampa area with funds to safeguard 
against terrorist attack and plan for a host of catastrophic incidents.
    Last week, I was able to be a part of a group of legislators to 
amend the flawed budget to ensure that Detroit and Tampa weren't 
arbitrarily removed from the list of cities eligible for UASI funding.
    The erosion of State and local preparedness funding leaves us at 
risk of not being adequately prepared to respond to man-made and 
natural disasters.

                         CONCLUSION AND THANKS

    I look forward to hearing from the panel about what specific 
effects Federal cuts to funding will have on State and local response 
capabilities.
    Your insight will help inform Congress and hopefully reverse the 
recent trend of cutting homeland security grant programs.
    Additionally, I would like for you to provide an assessment of 
FEMA's progress since Hurricane Katrina and how the Federal Government 
can better partner with State and local emergency officials.
    Finally, I would like to hear how non-governmental organizations 
are working to fill the gaps in disaster preparedness and response and 
what support is needed to ensure all needs are met efficiently.
    Again, I thank you all for being here today and I look forward to 
your testimony.

    Mr. Bilirakis. Thank you. Thank you very much, I appreciate 
that. It is true we work together to solve a lot of problems. 
Even though Hansen is only a freshman, he has taken a lead on a 
lot of these issues and we have been working together to build 
a consensus, which is the way it should be. We will continue to 
work together for the best interests of our country.
    Thank you.
    We are pleased to have a very distinguished panel of 
witnesses before us today on this very important topic. Our 
first witness is Mr. Bryan Koon. Mr. Koon is the director of 
the Florida Division of Emergency Management. Prior to assuming 
this position, Mr. Koon was Director of Emergency Management at 
Wal-Mart. He has previously served in the United States Navy as 
a White House military officer. Mr. Koon has a BS of natural 
resources from Cornell University and an MBA and graduate 
certificate in emergency and crisis management from George 
Washington University.
    Our next witness is Ms. Nancy Dragani. Ms. Dragani has 
served as director of the State of Ohio Emergency Management 
Agency since January 2005. Ms. Dragani serves on the Federal 
Emergency Management Agency's National Advisory Council, the 
Memorial Institute for the Prevention of Terrorism Advisory 
Board and is the past president of the National Emergency 
Management Association. Ms. Dragani retired from the United 
States Army with 22 years of combined U.S. Army, Army National 
Guard and Air National Guard service. She holds a BA from Ohio 
Dominican College. Ms. Dragani is testifying on behalf of the 
National Emergency Management Association today. Welcome.
    Following Ms. Dragani we will hear from Mr. Gerald Smith. 
Mr. Gerald Smith is the Director of the Lake County Emergency 
Management Division, a position he has held since December 
2004. He is currently the president of the Florida Emergency 
Preparedness Association. Mr. Smith has also served more than 
27 years in the U.S. Air Force with assignments on active duty 
and in the reserves. He currently holds a rank of Senior Master 
Sergeant and serves as a First Sergeant. Mr. Smith holds a 
Bachelor's degree in organizational management from Warner 
Southern College.
    Our next witness will be John ``Rusty'' Russell. He has 
been the director of the Huntsville, Alabama, Madison County 
Emergency Operations Center since December 2001. He has 
previously served in several positions with the county relating 
to emergency preparedness. Mr. Russell has previously served as 
the president of the Alabama Association of Emergency Managers 
and the president of the Southeastern Region of the 
International Association of Emergency Managers. Mr. Russell 
retired from the U.S. Army in 1996 with 22 years of service in 
missile systems, operations, and Army Materiel Command. Mr. 
Russell is testifying on behalf of the International 
Association of Emergency Managers.
    Mr. Russell's area was heavily impacted, as you know, by 
the April tornadoes. Our thoughts and prayers continue to be 
with you and your fellow Madison County residents and all the 
residents of Alabama as they work to recover and rebuild.
    Our next witness is Ms. Chauncia Willis. Ms. Willis is the 
Emergency Coordinator for the City of Tampa's Office of 
Emergency Management. She has previously served in emergency 
management roles for the State of Georgia and the Atlanta-
Fulton County Emergency Management Office as well as various 
positions in the private sector. Ms. Willis has a Bachelor's 
degree in psychology from Loyola University in New Orleans, and 
a Masters of public administration from Georgia State 
University.
    Finally, we will receive testimony from Ms. Linda Carbone. 
Ms. Carbone serves as the chief executive officer of the Tampa 
Bay Chapter of the American Red Cross. In this capacity, she is 
responsible for ensuring Red Cross services are provided to 
Hillsborough, Pinellas, and Pasco Counties. Ms. Carbone also 
serves as the regional Red Cross executive for the chapters of 
Manatee County, Southwest Florida and Charlotte County. Ms. 
Carbone is a graduate of Boston College.
    Again, welcome to all of our witnesses. Your entire written 
testimony, your statements, will appear in the record. I ask 
that you summarize your testimony for approximately 5 minutes.
    Mr. Koon, you are now recognized to testify. Thank you 
again.

   STATEMENT OF BRYAN W. KOON, DIRECTOR, FLORIDA DIVISION OF 
                      EMERGENCY MANAGEMENT

    Mr. Koon. Thank you, Chairman. Good morning, Mr. Chairman, 
Ranking Member and distinguished Members of the committee. 
Thank you for the opportunity to appear before you today. My 
name is Bryan Koon, I am the Director of the Florida Division 
of Emergency Management.
    The Division of Emergency Management is Florida's lead 
disaster preparedness, response, recovery, and mitigation 
agency. Under the direction of the Executive Office of the 
Governor, the agency oversees the State's efforts to ensure 
Florida is prepared to respond to any emergency situation. We 
are not, however, alone in this effort.
    We are part of the State Emergency Response Team, which is 
comprised of our local emergency management agencies at both 
the county and city level; other State agencies, most notably 
including the Department of Health, the Department of 
Transportation and the Florida National Guard; our Federal 
partners at FEMA and DHS; non-Governmental organizations such 
as Red Cross, Salvation Army, and Volunteer Florida; and 
importantly our private sector partners through Florida and the 
United States.
    While Florida has not had a land-falling hurricane in the 
last few seasons, we have had the opportunity to remain active 
and respond to multiple events throughout the State, including 
the Deepwater Horizon oil spill, the Haiti earthquake, numerous 
floods, wildfires, and tornadoes in the State of Florida, as 
well as sending individuals to assist in flood and tornado 
efforts in other States around the country. We also conduct 
numerous and frequent exercises to ensure that our people 
remain well-trained and ready to respond to any emergency.
    We have numerous issues of importance to discuss today. The 
first of them is the Emergency Management Preparedness and 
Assistance Trust Fund. Florida is fortunate to have a strong 
and successful emergency management program. This is in part 
due to the Emergency Management Preparedness and Assistance 
Trust Fund, which is funded in the State of Florida by a 
surcharge on insurance policies. This fund allows counties to 
fund dedicated local programs which maintain standards of 
performance, particularly in smaller counties throughout the 
State which rely upon the EMPA fund to fund the majority of 
their programs.
    We also use the Emergency Management Performance Grant 
Program. This is used by county programs to sustain operational 
costs related to program staffing, emergency operation center 
and public shelter readiness, communication and notification 
systems, emergency planning, training and exercise projects and 
public information and education programs. It is important that 
FEMA and DHS maintain EMPG as a direct emergency management 
all-hazards funding source and that it is not combined with 
other homeland security-specific grant programs. EMPG funding 
levels are critical support for State and local programs and we 
encourage the funding levels to be sustained.
    We also encourage Congress to continue funding of the State 
Homeland Security Grant Program. This program is critical to 
the State's security readiness and funds programs in our fire, 
law enforcement, Department of Education, and emergency 
management community.
    With regards to the functional needs, support services and 
ADA requirements for sheltering, we are in full support of 
individual rights for access and absolutely opposed to any form 
of discrimination. Vulnerable populations have been and are an 
active part of our planning and we at the State are working 
diligently to find a way to implement the guidance in 
conjunction with our local emergency management partners.
    DEM supports FEMA's new system of Personal Localized 
Alerting Network, the PLAN system, which will allow us to reach 
citizens based on their location and a cell tower. This is 
particularly important in that it will allow us to reach the 
numerous tourists and travelers that are in Florida on any 
given day. We look forward to receiving additional details on 
the program and working with FEMA in its implementation and 
learn how it will integrate with the National Weather Service's 
watch and warning system.
    Finally, with regard to disaster housing, we encourage the 
broadest complement of disaster housing options to be 
considered post-event, with a primary focus being on existing 
housing stock in the impacted region.
    This concludes my remarks.
    [The statement of Mr. Koon follows:]

                  Prepared Statement of Bryan W. Koon
                             June 10, 2011

                              INTRODUCTION

    Mr. Chairman, Ranking Member Richardson, and distinguished Members 
of the committee thank you for allowing me the opportunity to speak 
before you today. The Division of Emergency Management (``the 
Division'') is Florida's lead disaster preparedness, response, 
recovery, and mitigation agency. Under the direction of the Executive 
Office of the Governor, the agency oversees the State's efforts to 
ensure Florida is prepared to respond to an emergency situation. The 
Division's primary mission is to maintain the operational readiness of 
Florida's emergency management systems, and to support disaster 
response efforts at the county and municipal level. The Division 
further facilitates the delivery of all Federal domestic security 
grants from the Department of Homeland Security and disaster recovery 
aid from the Federal Emergency Management Agency (FEMA).
    During emergency situations, the Governor may activate the State 
Emergency Response Team (``the SERT''); Florida's unified command body 
for emergency events. The SERT ensures communication with local 
authorities, coordinates State response efforts, and facilitates 
Federal disaster recovery funding for individuals and governments. The 
SERT is comprised of representatives from State agencies, Cabinet-level 
departments, the Florida National Guard, including a full-time National 
Guard Liaison housed within DEM, and non-profit organizations. The 
Governor serves as the head of the SERT, and is responsible for 
appointing the State Coordinating Officer to oversee emergency response 
activities. Division personnel, individual State agencies and Cabinet-
level departments staff the State Emergency Operations Center with 
support personnel to assist with the overall response efforts. During 
emergency events, the Governor typically designates the Director of the 
Division as the State Coordinating Officer. The State Coordinating 
Officer is the Governor's senior disaster advisor, and leads the SERT 
during State Emergency Operations Center activations. Per the Federal 
Stafford Act, Florida Statutes (Chapter 252), and Gubernatorial 
Executive Order, the State Coordinating Officer is granted authorities 
to ensure the safety of Floridians during disasters. With the 
Governor's approval and emergency authority, the State Coordinating 
Officer can order the full mobilization of the State's resources, 
including deploying personnel, expending funds from the Budget 
Stabilization Fund for response activities, directing the Florida 
National Guard, and opening evacuation routes. The State Coordinating 
Officer's role also includes ensuring the successful coordination of 
response efforts between Federal, State, county, and municipal 
governments. After disasters, the Director also fills the role as the 
Governor's Authorized Representative for the receipt of Federal 
disaster reimbursement funds.
    The foremost operational tenet of the SERT is that all disasters 
are local. Except when formally requested by county and municipal 
governments, the State serves only to coordinate State and Federal 
resources with affected local partners. Though the SERT provides 
necessary logistical, planning, operational, and financial support, 
elected and appointed county and municipal officials maintain complete 
operational control of their jurisdictions. The SERT conducts practice 
exercises throughout the year to train for events, as preparation for 
potential emergencies is crucial to the success of future response 
missions.
    Since the devastating 2004-2005 hurricane seasons, which saw seven 
hurricanes and two tropical storms make landfall in Florida, the SERT 
has responded to numerous major disasters. These Federally-declared 
disasters range from tropical storms, flooding events, wildfires, and 
tornadoes. Most recently, the SERT assisted the Federal response to the 
catastrophic earthquake in Haiti and the Deepwater Horizon oil spill. 
The potential natural and man-induced dangers to Florida are ever-
present, and require the entire State's emergency management team to 
maintain continuous operational readiness.
    I was appointed to serve as the Director of the Division in 
February 2011. Prior to this appointment, I served as the lead 
emergency manager of Walmart, a position that allowed me to help 
coordinate the company's response efforts to several disasters. I also 
previously served in the United States Navy as a Watch Officer in the 
White House Situation Room. In this capacity, I developed continuity of 
operations and continuity of government plans for Federal Government 
agencies.

            OVERVIEW OF THE DIVISION OF EMERGENCY MANAGEMENT

    Like the phases of the emergency management cycle (preparedness, 
response, recovery, and mitigation), the Division is divided into four 
bureaus: The Bureau of Preparedness, the Bureau of Response, the Bureau 
of Recovery, and the Bureau of Mitigation. There is also the Office of 
the Director, which administratively houses key senior staff and the 
Office of Policy and Financial Management. Division employees manage 
the State Watch Office, the 24-hour notification point for all State-
wide emergency, hazardous materials, and severe weather reports.
    Recent action by the Florida Legislature incorporated the Division 
into the Executive Office of the Governor. By law, the Governor is the 
final authority on all important disaster response decisions. Florida's 
Governor has the additional statutory and constitutional power to 
declare states of emergency and formally request assistance from the 
Federal Government.

Office of the Director
    The Director oversees the State's disaster preparedness, response, 
recovery, and mitigation activities. These responsibilities include 
coordinating efforts with the Federal Government, other State agencies, 
county and municipal governments, and private organizations that have a 
role in emergency management. The Director oversees the Division's 
extensive work with the private sector to prepare Floridians for 
emergencies and to respond to disaster situations. The Director also 
serves as the co-chair of the State Emergency Response Commission and 
the co-chair of the Domestic Security Oversight Council. As the State 
Administrative Agent, the Director reviews and approves all of 
Florida's applications for Department of Homeland Security Grants. 
After receipt of the grants, the Director also oversees the obligation 
of funds to State and local units of government.

Office of Policy and Financial Management
    The Office of Policy and Financial Management oversees the agency's 
daily fiscal operations, including: Division-wide operating budgets, 
travel expenses, and State and Federal grants. The Division's budget is 
primarily funded by Federal grants, of which approximately 95% passes 
through to local entities. Federal funds received as a result of open 
disaster declarations through the Public Assistance and Hazard 
Mitigation Grant Programs, in addition to domestic preparedness 
funding, non-disaster mitigation grant funding and emergency management 
performance and interoperable communications grant funding account for 
over 90 percent of the Division's budget. Excluding funding directly 
related to Federally-declared disasters and the requisite State match, 
which represents almost 90 percent of the fiscal year 2010-2011 
appropriations, the remaining State dollars in the Division's budget 
are derived from surcharges on residential and commercial insurance 
policies in the State, fees received from Florida facilities which use 
or store hazardous materials in the State, funds provided from 
Florida's nuclear power companies, and an annual Hurricane Catastrophe 
Fund (CAT Fund) allocation for statutorily-directed hurricane loss 
mitigation activities. The Division is appropriated no General Revenue. 
A large portion of the Division's State funding, and all recurring 
dollars, are dedicated as match for Federal awards.
    The Division's Domestic Preparedness section is responsible for all 
Department of Homeland Security grant programs in Florida. Since 2001, 
Florida has received over $1.4 billion from the Federal Government to 
enhance the State's domestic security and preparedness capabilities to 
prepare for, prevent, protect against, respond to, and recover from 
terrorist events and other disasters. In addition to disbursing funds 
designated for Florida's domestic preparedness, the Section monitors 
all programs and agencies that receive Department of Homeland Security 
funding. The Section also ensures that Florida is compliant with the 
National Incident Management System.

Bureau of Preparedness
    The Bureau of Preparedness oversees a variety of functions within 
the Division, including: Hazardous materials and nuclear facility 
oversight, Emergency Planning and Community Right-to-Know Act 
implementation, State Continuity of Operations and Continuity of 
Government planning, the updating of the State's Comprehensive 
Emergency Management Plan, and the review and certification of county 
Comprehensive Emergency Management Plans. The Bureau also coordinates 
the training, exercises, and support to county emergency management 
agencies in preparing to respond to disasters.
    The Technological Hazards Section serves as staff support to the 
State Emergency Response Commission, which administers the Federal 
Emergency Planning and Community Right-to-Know Act, Florida Hazardous 
Materials Emergency Response and Community Right-To-Know Act, and the 
Florida Accidental Release Prevention and Risk Management Planning Act. 
The Section also works to reduce and prevent accidental chemical 
releases, limit the severity and consequences of chemical releases, and 
improve the coordination, communication, and emergency response 
capabilities between regulated facilities and local emergency 
preparedness and response agencies. The Section has the further 
responsibility to prepare for and respond to any event at one of 
Florida's three nuclear power facilities and the nuclear facility in 
Alabama on the State border.
    Florida is home to five commercial nuclear reactors located at 
three sites. Two additional reactors are located in Alabama near the 
State line. The Division has the overall responsibility for 
coordination of the response to a nuclear power plant emergency. The 
Division also ensures that communities near nuclear power plants are 
prepared for an emergency, performing annual exercises that are 
conducted and designed to test each response organization's response 
capabilities. In addition, the Nuclear Regulatory Commission and the 
FEMA conduct evaluated exercises for each nuclear plant every 2 years. 
These evaluated exercises measure a response organization's efforts 
against an established list of criteria designed to ensure key response 
actions are met.
    The Natural Hazards Unit spearheads the updating and revision 
efforts of the State's Comprehensive Emergency Management Plan. In 
addition, the Unit is responsible for reviewing and certifying the 
Comprehensive Emergency Management Plans for all 67 counties, an action 
mandated by statute. During the review process, the Unit ensures that 
each county has policy initiatives compliant with all regulations and 
directives and, if not, assists the appropriate local personnel in 
ensuring their Comprehensive Emergency Management Plan is up to 
standard. The Unit is also responsible for Continuity of Operations 
Planning and Continuity of Government Planning for the Division and for 
reviewing and approving similar policies of State agencies. The unit 
also ensures that State-wide evacuation studies and data are accurate 
and up-to-date.
    The Bureau of Preparedness also oversees and delivers the State-
wide training and exercise program. The Training Unit coordinates the 
delivery of courses in the field for primarily county and municipal 
responders. The Exercise Unit serves the training needs of Division 
staff and members of the State Emergency Response Team (SERT) which 
includes representatives of the State agencies and other organizations 
that staff the State Emergency Operations Center (SEOC). It also 
maintains and coordinates the State Training and Exercise Planning Plan 
to coordinate efforts locally, regionally, and at the State level.

Bureau of Response
    The Bureau of Response provides swift, effective response during an 
emergency or catastrophic incident. During SERT activations, the Bureau 
is responsible for assisting the Governor, the State Coordinating 
Officer, and the Federal Coordinating Officer lead Florida's complex 
interagency response effort. There are four sections within the Bureau: 
The Operations Section which contains the State Watch Office and the 
Meteorological Support Unit, the Logistics section, the Infrastructure 
Section, and the Regional Coordination Section.
    The State Watch Office is the 24-hour notification point for all 
emergencies, hazardous materials, and severe weather reports that 
impact or occur within the State. It also serves as the initial point 
of contact for county agencies requesting State assistance for 
situations beyond their response capabilities. The primary mission of 
the State Watch Office is to provide warning to the appropriate 
individuals, local governments, and State agencies of impending danger 
or existing hazardous situations. The State Watch Office provides 
notifications and warnings to county dispatch centers, other State 
agencies, nuclear power plants, and Federal agencies regarding 
emergency situations and the relaying of official requests for outside 
assistance. The State Watch Office also coordinates with the National 
Response Center for petroleum-related incidents, per Federal Emergency 
Planning and Community Right-to-Know Act legislation and State 
regulations. The State Watch Office monitors open-source media (e.g. 
cable news networks, on-line publications, local newspapers) for any 
breaking news and incidents. The State Watch Office was recently 
renovated to enhance the Division's ability to respond to emergency 
events. Additional technological upgrades expanded the communications 
capabilities of the SERT, allowing interoperable communications between 
State, Federal, county, and municipal emergency management and first-
responder agencies. Also within the Operations Section, the State 
Meteorological Support Unit serves as liaisons between the Emergency 
Management community and atmospheric and physical science organizations 
to ensure that the Division and State Emergency Response Team has the 
weather data needed to make decisions and carry out missions. The 
Meteorology Unit provides a daily weather hazard threat analysis, 
briefing products, and coordinates training and outreach activities to 
promote hazardous weather awareness and safety.
    The Division established the Regional Coordination Section to 
ensure the timely presence of State personnel during emergency events 
outside of the Tallahassee area. The Regional Coordinators serve as the 
Division's liaisons to county and municipal governments for all phases 
of emergency management. Each Regional Coordinator lives and works in 
his or her respective region. There are seven total regions in the 
State, and the close proximity of Division staff to potentially 
affected communities provides a faster response time for the State to 
serve local requests for assistance during disasters. Regional 
Coordinators often guide field operations for response and recovery 
efforts and execute capability assessments of local emergency 
management programs.
    The Logistics Section facilitates the State-wide management of 
resources designated for disaster response and recovery. Florida's 
Unified Logistics system has been acclaimed as one the Nation's best 
practices in State Logistics Management. The State maintains 200,000 
square feet of emergency resources at the State Logistics Response 
Center in Central Florida amounting to over 980 semi-trailer loads of 
commodities and equipment for immediate response within 6 hours 
anywhere in the State. More importantly, the State maintains a State 
Resource Management System for total asset visibility on all resources 
ordered, shipped, received, cross-docked, and returned through near 
real-time satellite technology and a transportation management network 
managed by the State Movement Coordination Center. The Logistics 
Section also oversees the State-wide Communications Interoperability 
Program comprised of various State and local interoperable 
communications platforms and systems that can be deployed to address 
unique emergency communications missions.

Bureau of Recovery
    The Infrastructure Section staffs the Infrastructure Branch during 
activation of the State Emergency Operations Center. The Infrastructure 
Branch assists State and local government agencies and SERT private 
sector partners with access to State and special district agency 
transportation and public works response assets, telecommunications 
response assets and industry contacts, electric and natural gas 
industry response assets and contacts, and fuel industry response 
assets and contacts.
    The effects of natural and man-induced disasters can cripple a 
community's socioeconomic infrastructure. The Bureau of Recovery 
contributes to county and municipal efforts to rebuild communities 
through State and Federal grants. The Bureau is responsible for the 
management and administration of the Stafford Act relief programs. The 
Public Assistance (``PA'') Program provides Federal assistance on a 
cost-sharing basis to eligible State Agencies, local government 
applicants, Indian Tribal governments, and certain private non-profit 
organizations which suffer damages or costs for: (1) Debris removal; 
(2) emergency protective measures; and (3) permanent restoration of 
damaged public infrastructure. The Bureau coordinates with local, 
State, and Federal agencies to inform residents and businesses of 
disaster-recovery programs that are available for assistance to recover 
after a disaster.
    The Individual Assistance Section is Florida's first line of 
recovery assistance to affected individuals and families after a 
disaster. After performing preliminary damage assessments, the Section 
assists Florida's residents to understand and apply for State and 
Federal disaster-related assistance through the activation of Essential 
Service Centers, Disaster Recovery Centers and the Community Response 
Program. During a catastrophic event, the Section coordinates and 
supports direct housing missions through the Disaster Housing Program, 
which provides travel trailers or mobile homes to survivors when other 
housing sources are unavailable. The Individual Assistance Section 
assists survivors with unmet needs in the disaster assistance process 
by providing information and referrals to the appropriate disaster 
assistance resources and following through with cases to ensure 
critical needs are met.
    The Florida Recovery Office is a long-term recovery office in Lake 
Mary, Florida that is jointly administered by the Division and the 
FEMA, which created the facility after eight named storms made landfall 
in Florida during the 2004 and 2005 hurricane season. These events 
caused billions of dollars in damage throughout the State and required 
extensive Federal and State recovery assistance. As a result of the 
unprecedented impacts, Federal and State emergency management officials 
established a separate office located in Central Florida to coordinate 
Damage Assessment Teams on-site and to disburse Federal assistance 
grants, and conduct project closeouts for affected residents, county, 
and municipal governments.

Bureau of Mitigation
    The Bureau of Mitigation strives to fortify Florida's 
infrastructure against the effects of future disaster through proactive 
structural enhancement and policy initiatives. The Bureau works with 
county and municipal governments, non-profit organizations, other State 
agencies, and individuals throughout the State to enhance Florida's 
resistance to disasters. As a result of such proactive efforts, the 
Division is compliant with all Federal regulations regarding mitigation 
planning and procedures and has even received the Federal Government's 
highest mitigation designation for planning. This ``Enhanced'' 
recognition permits the State to receive additional post-disaster funds 
(20% rather than 15%) for mitigation activities. All of Florida's 67 
counties have State and FEMA-approved Local Mitigation Strategies, a 
necessary requirement to receive Federal Hazard Mitigation Grant 
Program and Pre-Disaster Mitigation Program funding.
    The Federal Hazard Mitigation Grant Program provides funding for 
the efforts of State, local, and Tribal governments, and non-profit 
organizations to implement long-term hazard mitigation measures 
following Presidentially-declared disasters. The Hazard Mitigation 
Grant Program can fund measures that protect public and private 
property by breaking the cycle of damage, reconstruction, and repeated 
damage caused by repairing and reconstructing property to pre-disaster 
conditions.
    The State implements the National Flood Insurance Program. The 
Program is a voluntary Federal program that pools the country's 
flooding risk to provide Americans with comprehensive flood insurance. 
In Florida, there are approximately 2.1 million National Flood 
Insurance Program policyholders, a figure representing 38% of all 
policies Nation-wide. So many homes and businesses are National Flood 
Insurance Program-insured in Florida because of the State's unique 
geographic and demographic circumstances, as over 80 percent of the 
State's 18 million residents live or conduct business near the 
coastline. Moreover, the State's flat agricultural lands and inland 
populations are primarily located near rivers and floodplains that have 
historically flooded after moderate-to-severe rainfall. To qualify for 
the National Flood Insurance Program, communities must adopt, 
implement, and enforce FEMA-approved regulations for floodplain 
construction and development.

                      RECENT INNOVATIVE PRACTICES

Adoption of Social Media Accounts
    To help keep Florida's residents and visitors up-to-date on 
disaster-related operations, DEM provides a variety of information 
through several social media accounts, including three Twitter accounts 
and a Facebook page. The Division's three twitter accounts offer users 
different perspectives on important emergency management-related 
topics. DEM's main account, @FLSERT, gives general program and 
emergency information, news releases, interesting facts, videos, and 
photos of current events; @FLSERTWeather retransmits significant severe 
weather alerts and statements issued by the National Weather Service 
and the National Hurricane Center that are specific to Florida, as well 
as links to weather-related press releases and Florida hazardous 
weather awareness information; @FLStateWatch provides a daily feed of 
breaking news and alerts from the Florida State Watch Office Operations 
Team for all 67 Florida counties. Facebook, another popular social 
media forum, provides users with another option to readily access 
disaster information in a manner that suits them.

Development of State Logistics Response Center
    In 2007, the Division established the State Logistics Response 
Center in Orlando, Florida. The facility is home to the State/Federal 
Unified Logistics Section, which represents the union of State, 
Federal, voluntary agencies, and contract vendors that mobilize during 
declared emergencies to facilitate the acquisition, management, and 
distribution of Florida's disaster logistics resources. The 200,000 
square foot warehouse, complete with the latest tracking software and 
communications technology, is among the largest State disaster resource 
facilities in the Nation. The facility maintains sufficient resources 
to support over 500,000 disaster-affected people for the first 3 days 
after a catastrophic incident and is capable of distributing these 
items quickly and efficiently. Most supplies stored at the State 
Logistics Response Center cost nothing to taxpayers until they are 
deployed by the SERT, since commodities are maintained under vendor-
managed inventory contracts with private entities.
    The State Logistics Response Center is strategically located in 
Central Florida to minimize the average response time throughout the 
State. The State Logistics Response Center is adjacent to major 
interstates and highways, reducing the possibility that debris or other 
obstacles might inhibit semi-trucks from arriving at the supply depot. 
The cache is also highly storm-resistant and located outside of all 
documented flood zones and storm surge areas.

State Disability Coordinator
    The State Disability Coordinator works with Florida's county-level 
emergency management offices, the American Red Cross and other shelter 
management groups to ensure that each county has accessible special-
needs and general population shelters. The Disability Coordinator also 
helps persons with disabilities develop evacuation plans prior to a 
declared emergency. The Disability Coordinator maintains a constant 
dialogue with Division policy makers, which ensures that any new 
directive or program suitably takes into account the unique position of 
members of the disabled community during emergencies. The Full-Time 
Equivalent position is provided by the Agency for Persons with 
Disabilities, funded through a Federal grant allocated by the Florida 
Department of Health, and housed in the Division. The Disability 
Coordinator also works with the FEMA's Disability Coordinator and the 
FEMA Administrator's Senior Advisor on Disabilities to harmonize 
Federal and State information and resources regarding persons with 
special needs and persons with disabilities during emergencies.

Private Sector Coordination
    After the 2004-2005 hurricane seasons, the Division recognized that 
Florida needed to further incorporate the private sector into the 
State's strategic disaster response planning. To accomplish this goal, 
the Division created Emergency Support Function 18: Business, Industry 
and Economic Stabilization (ESF 18). ESF 18 has the lead responsibility 
to coordinate local, State, and Federal agency actions that provide 
immediate and short-term assistance to businesses and industries 
affected by a disaster. Such assistance may include providing access to 
the financial, workforce, technical, and community resources that may 
affect a community's ability to restore business operations and resume 
focus on long-term business strategies. The Division also hired a 
private sector coordinator to assist Florida's business community 
ensure that they are prepared for a disaster response. This work is 
critical, since 40% off all small businesses that close during a 
disaster never resume business operations.

                               CONCLUSION

    Natural disasters are certain and often anticipated. Every State 
must be able to plan for disasters as well as build and sustain the 
capability to respond. EMPG is the backbone of the Nation's all-hazards 
emergency management system and the only source of direct Federal 
funding to State and local governments for emergency management 
capacity building. EMPG is used for personnel, planning, training, and 
exercises at both the State and local levels. EMPG is primarily used to 
support State and local emergency management personnel who are 
responsible for writing plans; conducting training, exercises and 
corrective action; educating the public on disaster readiness; and 
maintaining the Nation's emergency response system. EMPG is being used 
to help States create and update plans for receiving and distribution 
plans for emergency supplies such as water, ice, and food after a 
disaster; debris removal plans; and plans for receiving or evacuating 
people--all of these critical issues identified in the aftermath of 
Hurricane Katrina and in the recent outbreak of tornados and flooding 
across the south and Midwest.
    EMPG is the only all-hazards preparedness program within the 
Department of Homeland Security that requires a match at the State and 
local level. The match is evidence of the commitment by State and local 
governments to address the urgent need for all-hazards emergency 
planning. Because of this commitment at the State and local level it is 
vital to the mission of DEM and our local partners that this funding 
remain intact and funding levels be maintained or increased.
    The Division is prepared to respond to any disaster that affects 
Florida. As the hurricane capital of the United States and being 
susceptible to several types of other disasters, the importance of 
strong State and local emergency management systems is critical. The 
Division will continue to work with Federal, State, local, and private-
sector partners to ensure that Florida's emergency management systems 
remain among the best in the Nation.

    Mr. Bilirakis. Thank you very much for your testimony.
    Now I would like to ask Ms. Dragani to testify. You are 
recognized for 5 minutes or so.

   STATEMENT OF NANCY DRAGANI, CHAIR, RESPONSE AND RECOVERY 
      COMMITTEE, NATIONAL EMERGENCY MANAGEMENT ASSOCIATION

    Ms. Dragani. Thank you. Good morning, Chairman Bilirakis 
and Representative Clarke; thank you for giving me the 
opportunity to testify today on behalf of the National 
Emergency Management Association. Because I am testifying on 
behalf of NEMA, my remarks will address a National perspective 
on achievements and accomplishments.
    I submitted a full statement for the record, so I will be 
brief in my comments this morning. In putting together the 
testimony, it was interesting to have an opportunity to step 
back from day-to-day emergency management and look back at what 
we have done over the last several years.
    As I looked back on the past 6 years, it is amazing to see 
how far we have come as an organization and as a profession 
since Hurricanes Katrina and Rita as well as the major changes 
that have been driven by the Post-Katrina Emergency Management 
Reform Act. In addition to the National improvements in 
planning, exercise training, and equipment, other significant 
changes have been influenced through the evolving technologies 
that have impacted not only our profession but our society at 
large.
    One of the key lessons of 2005 was that the relationship 
with our private sector partners must be improved. We learned 
that a successful cooperative relationship means an integrated 
relationship. An example of where this transformation is 
happening can be seen in Louisiana. The Louisiana Business 
Emergency Operations Center is a stand-alone facility that 
works hand-in-hand with the State operations center. This 
relationship allows State officials access to real-time 
information from their private sector partners who have 
available assets and it helps coordinate with our non-
Governmental partners like the volunteer organizations after a 
disaster. The private sector in turn, and it is an integrated 
cooperative relationship, has better access to State and local 
response, allowing them to get their businesses up and running 
faster, which ultimately helps the community recover faster. 
Louisiana's Business EOC has been so effective that many 
States, mine included, are looking at it as a model for our own 
business integration operations.
    Another award-winning innovation is the Virginia Inter-
Operability Picture for Emergency Response, or VIPER. This 
computer-based tool allows Virginia the opportunity to visually 
assess the State-wide emergency management operations, again, 
in real time. It also offers instant access to essential local 
information using those traditional geographic information 
system, or GIS layers.
    VIPER can monitor traffic patterns, provide data about 
local pieces of critical infrastructure and track environmental 
sensors. All of this information is then analyzed by the tool 
and fed back to the Virginia Department of Emergency Management 
so that they can make the best, most effective decisions on 
behalf of their State and local response partners.
    VIPER is another example of a best practice being used by 
other States. The program is currently in use throughout 
agencies in 7 different States and localities and has won 
awards from the Council of State Government and Harvard Kennedy 
School of Government.
    No discussion regarding technology and public outreach in 
the past 6 years would be productive or complete without 
discussion of social media. Consider that in 2005 Facebook and 
YouTube had been around for about 3 months, and no one would 
know what Twitter meant for another year. I would suggest that 
some people still don't know what Twitter means.
    [Laughter.]
    Ms. Dragani. Myself included, of course.
    Times have certainly changed and the use of social media, 
especially in emergency management, continues to an organic, 
evolving process.
    Smartphones have put the power of social media in the 
pockets and hands of our citizens we are serving, allowing them 
to now be active partners in disaster preparedness, response, 
and recovery.
    Within the emergency management and homeland security 
community, social media has been met with various amounts of 
support and opinions. But even though some may not fully 
understand how to use the tool, nearly every State emergency 
management now has a presence on Twitter and almost half have a 
presence on Facebook. Even FEMA has numerous social media 
accounts.
    During the recent storms in Alabama and Missouri, FEMA 
relied on on-line databases to track the status of missing 
people, and in partnership with State and local government, 
used social media to push out vital recovery information to 
their citizens.
    Technology in social media constantly changes and we in the 
emergency management community must continue to change along 
with it so that we can effectively harness the power of social 
media.
    Mutual aid and technology and State resources can only go 
so far. Sometimes we need physical help from our partners. 
Mutual aid, specifically through the Emergency Management 
Systems Compact, or EMAC, has evolved into one of the best 
supporting mechanisms for State and local emergency managers to 
obtain assistance throughout the Nation.
    EMAC has been around since 1996, but a mainstay of 
emergency management since about 1994. For example, on 
September 11, 2001, 26 emergency management personnel responded 
to the impacted areas through EMAC. Just 4 years later, EMAC 
provided 66,000 people for responses to Hurricanes Katrina and 
Rita. EMAC provided another 12,000 people in Hurricanes Gustav 
and Ike. So a comparison--2001, 26 people; 2004, 66,000 people.
    The quality and sustainability of EMAC continues to grow as 
the compact evolves to meet our needs. It stands as an example 
of a program that well serves our communities, our States, and 
our Nation.
    Of course, the examples I outlined here are really just the 
tip of the iceberg. My statement for the record goes into far 
more detail on numerous other efforts, including state-of-the-
art alert and warning systems, improved exercise programs, and 
other programs. These efforts touch every State across the 
country.
    One of the most valuable lessons we have learned in the 
last 6 years is that each of the States has the opportunity to 
act as a test lab for technology and programs from which other 
States can learn. We help each other daily so that when a 
disaster does occur, we can work together to save lives and 
protect property.
    Thank you again for the opportunity to testify before this 
field hearing and I look forward to taking any questions you 
may have.
    [The statement of Ms. Dragani follows:]

                  Prepared Statement of Nancy Dragani
                             June 10, 2011

                              INTRODUCTION

    Thank you Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the subcommittee for the opportunity to 
testify today on behalf of the National Emergency Management 
Association (NEMA). Reflection on the events of the past 6 years, since 
some of the most significant natural disasters of our time, allows us 
to learn from the past and properly assess where we currently stand as 
a Nation and a profession. As disasters continue to challenge our 
Nation's emergency managers, we seldom have time to look back and 
reflect on how far we have come.
    Many of the most significant changes in emergency management have 
been influenced through evolving technology and its impact on our 
society. In the past 6 years, we have witnessed better integration of 
the private sector in emergency management preparedness, response, and 
recovery. Improved technologies and more effective use of social media 
impacts every aspect of public engagement. Exercise programs and public 
warning and communications systems continue to evolve to meet ever-
changing threats.

                       PRIVATE SECTOR INTEGRATION

    Working with the private sector has always been a priority in 
emergency management, but after Hurricanes Katrina and Rita in 2005, we 
realized improvements could be made and ``cooperation'' must become 
``integration.'' An example of this integration comes from Louisiana 
which is bringing the private sector closer to the center of the entire 
decision-making process.
    Through a Cooperative Endeavour Agreement, Louisiana used EMPG 
funds to begin developing the Louisiana Business Emergency Operations 
Center (LABEOC). A stand-alone facility, the LABEOC is interconnected 
with the State EOC in Baton Rouge. It is designed to improve disaster 
preparedness and response by:
    (1) Improving communications to and from business and industry 
        before, during, and after a disaster,
    (2) Utilizing a business model when more efficient and cost-
        effective to respond to resource and other requests; and
    (3) Leveraging the critical infrastructure representatives in the 
        LABEOC to help bring communities back on-line while receiving 
        real-time economic impact information important in determining 
        level of State and Federal assistance.
    The LABEOC also facilitates better communication and coordination 
with the private sector and the requests and needs of nonprofits 
through National and State Volunteer Organizations Active in Disasters 
(VOAD). This model has gained the attention of DHS and neighboring Gulf 
States, which have expressed interest in establishing Business 
Emergency Operations Centers within their own States.

                       ALERT AND WARNING SYSTEMS

    The public-private relationship is also linking advances in 
technology with alert and warning systems. One of the basic lessons 
learned from Katrina was the need to effectively reach out to the 
broadest audiences possible during a disaster.
    The Washington State Emergency Management Division (WEMD) and its 
technical contractor, Federal Signal Corporation, developed the All-
Hazard Alert Broadcasting (AHAB) siren network to provide State and 
local officials with the capability to effectively alert the public to 
any hazardous situation that may arise. While the system is designed to 
provide timely warning for any hazard, its primary function in the 
State is to conduct notification to outdoor populations of impending 
tsunamis. This joint effort between WEMD and Federal Signal represents 
the power of public-private partnerships to meet the unique needs of 
public alert and notification requirements for multiple hazards.
    To increase the effectiveness and coverage of this key 
communication network, the AHAB system provides both tone and voice 
alert capability to State and local emergency management authorities. 
Social science research indicated citizens often remain unaware of what 
to do when they hear sirens. To alleviate potential confusion, this 
system was designed not only to provide an audible alert, but also play 
pre-scripted digital directions which give at-risk individuals critical 
and timely information on how to respond appropriately to the 
emergency. The system produces 360-degree coverage and has a distinct 
blue strobe light which provides a visual extension of the warning 
signal for the hearing-impaired and in areas with high ambient noise.
    AHAB sirens are capable of being activated from the State EOC Alert 
and Warning Center via satellite or from the local emergency management 
agency using Radio Frequency technology and both activation pathways 
are tested regularly. This siren network now covers the outer coast and 
Strait of Juan de Fuca shorelines of Washington State and supplements 
indoor alert and notification provided through the Emergency Alert 
System (EAS) and National Oceanic and Atmospheric Administration 
weather radio. The deployment strategy has focused on first installing 
sirens in population centers and at high-risk or critical facilities. 
Initial sound studies indicate 96 sirens are necessary for full warning 
coverage and 50 sirens have been deployed as of May 2011.
    Since the creation of this system, AHAB has become the de-facto 
standard for tsunami alert and notification for outdoor populations. 
Based on the successful implementation of the AHAB siren network in 
Washington, similar systems have been installed in Alaska and Puerto 
Rico. Pierce County, Washington has also deployed AHAB sirens as part 
of the volcano warning system for Mount Rainier.

                          ENHANCING TECHNOLOGY

    Technological advancements in the past 6 years go far beyond 
traditional alert and warning systems. Virginia Department of Emergency 
Management (VDEM) maintains a system marking true innovation through 
the Virginia Interoperability Picture for Emergency Response, or VIPER.
    This tool not only allows the Virginia Emergency Operations Center 
staff the ability to visually assess State-wide emergency management 
operations in real time but also automatically offers users instant 
access to essential local information through traditional Geographic 
Information Systems layers.
    VIPER can work in various emergency scenarios. If a locality 
experiences a rapidly escalating traffic incident, VIPER will provide 
information about nearby hospitals; in the case of a hazardous 
materials spill, VIPER will offer data about area schools; during a 
flood, VIPER will alert users to low-lying areas which could be 
affected. VIPER monitors environmental sensors and gathers data from 
VDEM's crisis management system as well as external systems, such as 
Computer Aided Dispatch, the National Weather Service and the 
Integrated Flood Observation and Warning System. VIPER then performs an 
analysis of all available information and alerts VDEM to potential 
impacts on critical infrastructure.
    VIPER stands as an example of how each of the States can be 
utilized as unique and distinct test beds of innovation. This has 
already occurred for VIPER, as several State agencies across the 
country have begun to incorporate elements of the tool into their 
operations, including the Florida Division of Emergency Management, 
Mississippi Fusion Center, North Carolina State Police, the South 
Carolina Emergency Management Division, Texas Border Control, and local 
government agencies in Beverly Hills, California; Clarke County, 
Nevada; and Virginia Beach, Virginia. VIPER also helped DHS, FEMA, the 
U.S. Secret Service, and VDEM monitor the 56th Presidential 
Inauguration, and Tampa officials used VIPER to monitor Super Bowl 
XLIII.
    VIPER has received numerous honors, including those from the 
Council of State Governments and the Ash Center for Democratic 
Governance and Innovation at Harvard University's John F. Kennedy 
School of Government which acknowledges creative Government initiatives 
around the country.

                                 #SMEM

    No discussion regarding technology and public outreach in the past 
6 years is complete without acknowledging the vast impacts of social 
media. While many of the innovations in emergency management stemmed 
from lessons learned during the response and recovery from Hurricane 
Katrina, one of the most influential changes evolved naturally and has 
recently proven to be a critical resource for emergency responders and 
others in a disaster situation. The onset of the social media wave in 
our personal lives occurred rapidly. It is often hard to remember that 
in 2005 Facebook and YouTube could only measure their existence in 
months while Twitter would not be created until a year after Katrina 
altered the Gulf Coast forever.
    The use of social media in disasters seems like a natural 
progression. The public uses new media platforms to document their 
daily activities and express opinions about current events. Smartphones 
have put the power of social media in to the pockets of citizens we 
serve, allowing them to be a partner in the disaster preparedness, 
response, and recovery process. On twitter, hashtags are often used to 
coordinate discussion. These hashtags help people communicate and 
discuss issues of importance. Social media in emergency management (or 
``smem'') has become a hashtag utilized by people around the world to 
engage emergency management stakeholders from various disciplines and 
has proven to be a vital forum for discussion of the evolution of this 
emerging technology.
    Within the emergency management and homeland security community, 
the introduction of social media has been met with varied opinions. 
Skepticism and doubt were natural reactions for some, while many worked 
from the outset to integrate this new technology into their existing 
structures. Incredibly, nearly every State Emergency Management agency 
has a presence on Twitter and half also have a presence on Facebook. 
FEMA has a number of accounts on Twitter, Facebook, and YouTube; and 
has encouraged partnerships between FEMA and the States. During the 
Tennessee floods of 2010, FEMA partnered with the Tennessee Emergency 
Management Agency to encourage information and picture sharing of the 
response and recovery. Many challenges exist in adoption, but FEMA has 
encouraged State and local officials to address challenges or barriers 
in their own agencies prior to a disaster so social media use is not a 
burden, but rather another tool in a comprehensive toolbox.
    FEMA leadership has been challenging the emergency management 
community to innovate faster than the speed of government. Instead of 
trying to make systems fit the traditional emergency management 
structure, and make the public fit how we communicate now, we must meet 
the needs for accurate information following a disaster by figuring out 
how best to engage the public. We continue to experiment with new 
platforms and technologies and as State emergency managers we work with 
our own staffs to bring these efforts down to a community level.
    During the recent storms in Alabama and Missouri, as well as the 
flooding in Louisiana, the evolution of a social media workforce has 
continued. FEMA has come to rely on on-line databases to track the 
status of missing people, and it now uses digital mapping to allow 
search-and-rescue teams to deliver resources to areas of highest need. 
The agency has started to see the emergence of a new group of 
volunteers from around the world who are able to apply technology in 
real-time situations to ``crowd source,'' a method of using large 
numbers of people to work on common problems and share information and 
solutions. These volunteers cull the internet for open source 
information and put this into databases or on maps to provide first 
responders and local officials with a clear picture of an incident 
without impeding the immediate response work being done on the ground.
    Technology continues to evolve and while current social media 
platforms may seem like they are going to be around forever, we must 
constantly remain aware of how our citizens communicate. Limited 
resources on the State and local level make leveraging existing models 
and platforms key factors in success before, during, and after a 
disaster. Social media is constantly changing and harnessing the power 
of this revolution can help the emergency management community be more 
effective in serving our citizens in their time of need.

                               MUTUAL AID

    Mutual aid, specifically through the Emergency Management 
Assistance Compact (EMAC), has evolved into one of the best supporting 
mechanisms for State emergency managers to obtain assistance throughout 
the country. This assistance occurs rapidly with arrangements pre-
determined for reimbursement and deployment.
    When States and the U.S. Territories joined together and Congress 
ratified EMAC (Pub. L. 104-321) in 1996, the legal and procedural 
mechanism was created whereby emergency response resources such as 
Urban Search and Rescue Teams can quickly move throughout the country 
to meet disaster needs. All 50 States, the District of Columbia, and 
three territories are members of EMAC and have committed their 
emergency resources in helping neighboring States and territories.
    EMAC has grown significantly in size, volume, and the type of 
resources provided over the years. Since 2004, the volume and types of 
resources requested under EMAC has grown considerably. For example, 26 
emergency management personnel responded to the September 11, 2001, 
terrorist attacks. Conversely, over 66,000 personnel from a variety of 
disciplines deployed to the Gulf Coast in response to Hurricanes 
Katrina and Rita and 12,279 personnel to Texas and Louisiana during 
Hurricanes Gustav and Ike. The response lasted 63 continuous days with 
a total of 265 completed missions. The 2009 Spring Flooding in North 
Dakota and Minnesota resulted in States deploying equipment, sandbags, 
and 1,029 personnel to North Dakota. In all, 727 National Guard 
personnel and 302 civilians were sent to assist via the compact.

                           EXERCISE PROGRAMS

    While we must always be ready to harness innovations in emergency 
management and the society in which we work to protect, strides must be 
taken to ensure our agencies remain robust from within as well. Such 
improvements are often ensured through the use of effective exercise 
and training doctrines which have realized vast improvements in the 
past decade. More recently, these exercise programs work to involve the 
public more and become rolling assessments of where we stand 
operationally.
    California's annual State-wide Golden Guardian Exercise Series was 
first implemented in 2004 and is managed by the California Emergency 
Management Agency (CalEMA). The purpose of Golden Guardian is to 
enhance the all-hazards emergency management readiness of regional and 
State responders, including private sector and volunteer organizations. 
The goal is to build upon the lessons learned to improve California's 
ability to prevent, protect, respond, and recover from catastrophic 
natural and man-made disasters. Golden Guardian is currently the 
largest State-wide exercise program of its kind in the country.
    But California does not stop with Golden Guardian in assessing the 
State's level of readiness. The third Thursday of each October, 
millions of Californians practice how to protect themselves during an 
earthquake. The Great California ShakeOut begins with the ``Drop Cover 
and Hold On'' drill, however, the campaign reaches beyond to inspire 
Californians to become more earthquake-resilient at work, school, home, 
and in their communities. ShakeOut began as a southern California 
regional event in 2008, providing a public participation element to 
California's Golden Guardian annual exercise. It was the largest 
earthquake drill in U.S. history at the time with a total of 5.4 
million participants. The success of the exercise led to a State-wide 
event in 2009, with more than 6.9 million participants, and is now 
annual California event that included nearly 8 million drill 
participants in 2010.

                               CONCLUSION

    As you can see, the emergency management profession has changed 
dramatically since 2005 and will continue to do so as the relationships 
between homeland security and emergency management, public and private 
sector representatives, and Government officials with the public 
evolve. By engaging diverse stakeholder groups, the emergency 
management community will benefit from enhancements and overhauls while 
leveraging the innovative nature of professionals and community 
members. Some changes in the community have been reactions to specific 
disasters, while others developed organically; answering questions many 
of us never thought to ask. The best way to continue this pattern of 
innovation is to be confident in past accomplishments and open to 
future changes that will make the profession more effective, efficient, 
and ultimately, more meaningful for the citizens that we serve.

    Mr. Bilirakis. Thank you for being here.
    Now, I will recognize Mr. Smith for 5 minutes or so.

  STATEMENT OF GERALD L. SMITH, PRESIDENT, FLORIDA EMERGENCY 
                    PREPAREDNESS ASSOCIATION

    Mr. Smith. Thank you, Mr. Chairman. Mr. Chairman and 
Congressman Clarke, thank you for having us here today.
    As you said, I am the director for Lake County. Lake County 
is in central Florida, it has approximately 300,000 residents 
and has 1,100 square miles. I am also the president of the 
Florida Emergency Preparedness Association, which is the only 
State-wide emergency management association. I am also here as 
the president of our association. Unfortunately my county has 
had two major Presidential declarations since the passing of 
the Post-Katrina Emergency Management Reform Act, so I have a 
little bit of personal knowledge into the things that have 
occurred.
    As Mr. Koon indicated, Florida has a strong emergency 
management program. Our position is that strong counties make a 
strong State. This is done through collaboration with the 
Florida Division of Emergency Management. We also, as was 
mentioned, benefit from the Emergency Management Preparedness 
Assistance Grant Trust Fund and also a strong Florida Statute 
252 and Administrative Code 9G, which allows us to work with 
other agencies and gives the Florida agencies responsibilities 
that we utilize.
    In the past several years, as I mentioned, I have had 
experience with FEMA from the disaster response, the success 
that we had there at we believe the first FEMA-supported 
volunteer camp, which allowed us to rapidly assist our citizens 
in the recovery process. We have also been involved with 
catastrophic planning as a host community. That was a planning 
initiative between FEMA and Florida DEM and brought us I think 
a lot more preparedness for hurricanes in the State of Florida.
    We deeply appreciate the support of the subcommittee by 
having this hearing here in Florida today. While I understand 
the focus here is on the Post-Katrina Emergency Management 
Reform Act, we believe that FEMA is complying with a lot of 
those issues. However, there are some unique local perspectives 
that we would like to provide.
    One of the issues is on the Emergency Management 
Performance Grant. That is the backbone of emergency management 
in this country. In Florida, we would have not been as prepared 
in the 2004, 2005 storms, the H1N1, the Haitian repatriation, 
which was a massive effort in Florida, and then again the 
Deepwater Horizon. That grant was significant to our 
preparedness. That is also matched dollar-for-dollar at the 
local level.
    The issue we have a concern with is on the fiscal year 2012 
budget, there is an initiative for a 10 percent holdback from 
FEMA on that. While it would look like though there is an 
increase in the EMPG, this would actually be a decrease to the 
States and local governments.
    As far as the State Homeland Security Grant Program, we are 
very grateful for that program. However, with some of the 
changes in Congress, it has put the law enforcement into the 
mix with the other--the prevention issues into the mix with 
everything else, it has created an unintended competition 
between prevention and preparedness. So that is one of the 
issues we would like to discuss.
    As far as the coordinating with Federal agencies, during 
Deepwater Horizon and H1N1 and with the Haitian repatriation, 
Florida experienced--was exposed to different Federal agencies 
that we had not routinely dealt with before. They obviously had 
some lack of knowledge in dealing with the sovereignty of local 
and State government and our issues. In my written testimony, I 
have a lot of issues in there, the main theme being that we 
need to develop local relationships now and also the local 
teams need to be involved in the decision-making process of 
policy and resource development.
    As far the FNSS with the ADA, one of our frustrations with 
that is that was done, from our understanding, without local 
input. The challenge with that is that the local governments 
have the actual fiduciary responsibility of providing shelter. 
So we are looking forward to being able to work with the 
disability advocates, we want to hold a summit, pull them 
together, educate them on the dynamics of risk sheltering. 
Hurricane risk sheltering is completely different than any 
other type of sheltering. So we need to look at the facts where 
are talking about sheltering from Collier County all the way up 
to Citrus County on the west coast of Florida or from Volusia 
County all the way down to Monroe County, which is in the Keys. 
We are talking three-quarters of the State so we need to 
explain that issue to them.
    We have no desire or have any inclination of depriving 
anyone of their individual rights; however, we need to make 
sure that they understand that the law needs to apply and to be 
understood during different situations that occur during a 
hurricane.
    The other is that the Department of Justice, their 
settlements are completely inconsistent. That is driving a 
major issue and a roadblock for Florida to be able to be 
prepared for that. Also, in Florida, we are watching what legal 
discussions are going on between Broward County and DOJ on this 
issue, and we cannot move completely forward until that is 
resolved.
    As far as the Stafford Act duplication of benefits, one of 
the issues that we saw during the Groundhog Day tornadoes is 
that the local government was not allowed to know what 
individuals received, what level of individual assistance from 
FEMA. This can create our inability to prevent duplication of 
services and it also prevents the local elected officials from 
being able to provide for their constituents.
    As has been mentioned about FEMA and the FCC planned 
program for cell phone usage, we are in full support of that. 
We also though want to make sure that the NOAA weather radio 
program is continued to be funded and utilized as it is today.
    Recently FEMA also is going through a recoupment process 
for individual assistance and public assistance. While we 
recognize there is a need to prevent waste, fraud, and abuse 
and to prosecute any type of those violations, we also need to 
understand that during a disaster, typically the administrative 
processes change and also, the staff that has been applying 
this administrative process is changed, and that over the 
years, once an audit has occurred, there is confusion about how 
the rules were applied at that specific time.
    The Florida Emergency Preparedness Association works on a 
lot of different initiatives. We have a private-public 
partnership committee and work with Florida DEM on bringing in 
our private vendor constituents and be able to work some issues 
there. We have a higher education committee, which we are 
working to establish what levels of topics that a college would 
provide for our students. One of the things we are seeing is 
they are real good on the theory, but the actual practicality 
is some of the challenges that we are working with our local 
State colleges.
    We also have an instruction recognition program where we 
establish recognition of instructor credentials within the 
State. We also provide a certification for our membership, and 
we are also working to establish an emergency management--well, 
we have an emergency management academy, but we are working to 
establish standards and we look forward to working with FEMA on 
their new emergency management academy, particularly in 
Florida.
    So in closing, we really appreciate the fact of being able 
to be here today and provide our input into these specific 
issues. As the Chairman mentioned, while we have not probably 
gone through all the issues with the Post-Katrina Act, we 
imagine that this summer we are going to get that opportunity.
    Thank you.
    [The statement of Mr. Smith follows:]

          Prepared Statement of Gerald L. ``Jerry'' Smith, II
                             June 10, 2011

    Chairman Bilirakis, Ranking Member Richardson, and distinguished 
Members of the subcommittee, I am Jerry Smith, the Director of 
Emergency Management for Lake County, Florida. I currently serve as the 
President of the Florida Emergency Preparedness Association, and I am 
providing this statement on critical local and State Emergency 
Management issues on behalf of the Association and the numerous 
agencies and members it represents. I have been a local government 
emergency manager for nearly 7 years, during which I managed two major 
Presidential declarations, Tropical Storm Fay in 2008 and the Groundhog 
Day tornadoes in 2007. Much like the recent horrific experiences of my 
colleagues across the Nation, my community experienced loss of life, 
multiple injuries, significant damages and disruption of life as we 
knew it from an outbreak of multiple tornadoes. It is perhaps this 
experience that has most shaped my current emergency management career 
and perspective. In addition to these, there were also numerous other 
Lake County Emergency Operations Center (EOC) activations. My 
experience also includes being the State Emergency Response Team Deputy 
Chief in June, 2010, during the Deepwater Horizon activation in 
Tallahassee, Florida. Prior to my Emergency Management career, I 
dedicated 15 years to Emergency Medical Services, and over 27 years 
with the Air Force, active duty, and reserves. I am currently assigned 
to the 920th Rescue Wing, Patrick AFB, Florida.
    The Florida Emergency Preparedness Association (FEPA) is Florida's 
only State-wide organization dedicated to serving and enhancing all 
hazards emergency management activities at all levels. Membership is 
comprised of representatives from local government emergency management 
agencies, emergency response disciplines, industrial, commercial, 
educational, military, private, non-profit, Tribal, and volunteer 
organizations, and professionals in all career fields who perform 
emergency management functions.
    The primary mission of FEPA is to provide an information and 
support network among county emergency management directors and 
partners at the municipal, county, regional, Tribal, State and Federal 
Government levels. FEPA also ensures coordination and information 
dissemination to those responsible for emergency preparedness in 
volunteer and private industry organizations on a host of critical 
issues.
    Florida is fortunate to have a strong and successful Emergency 
Management program. This is in part due to the Emergency Management, 
Preparedness, and Assistance (EMPA) Trust Fund which was established by 
the 1994 Florida Legislature to fund State and local emergency 
management programs and responsibilities outlined in Chapter 252, 
Florida Statutes, and Florida Administrative Code 9G.
    The EMPA Trust Fund allows counties to fund dedicated local 
programs which maintain standards of performance. While Florida Statute 
252 and Florida Administrative Code 9G outline specific State and local 
governments' emergency management authorities and responsibilities, we 
also benefit from numerous other forms of legislation and rules that 
require all aspects of government in Florida to be engaged in emergency 
management. Our position is strong counties make a strong State through 
positive collaboration and coordination with the Florida Division of 
Emergency Management (FDEM).
    Over the past several years I have had several experiences with the 
Federal Emergency Management Agency (FEMA), from assisting Lake County 
during a disaster, to working through various planning processes. 
During the Groundhog Day tornadoes, FEMA funded and supported the first 
specifically designated camp for volunteers who came from across the 
country. Establishing a camp for the volunteers was critical to 
providing assistance to our impacted citizens and greatly expedited our 
relief operations.
    I have been involved in the catastrophic event planning effort that 
FEMA provided for the State of Florida, from a ``Host Community'' 
perspective. The experience was very useful and it has improved 
Florida's hurricane preparedness.
    After the attacks on 9/11, it was understandable that the focus of 
the Country would be for terrorism; however, the events which created 
the need for the Post Katrina Emergency Management Reform Act (PKEMRA) 
clearly indicated the need for a comprehensive emergency management 
system across the Nation. I believe FEMA is and has been pursuing this 
goal and is making positive gains. One of these is the requirement for 
senior FEMA positions to be filled by qualified, experienced emergency 
managers. This standard should never be altered.
    We deeply appreciate the support this subcommittee provides to 
Florida's emergency management community, and the opportunity to speak 
before you today. I recognize that the committee's focus during the 
hearing today is on the PKEMRA, and I intend to present general 
testimony associated with that and related topics. It is my assessment 
that the Federal Emergency Management Agency is complying with the 
PKEMRA; however, there are some areas that need further collaboration 
with local emergency management practitioners. My comments are intended 
to present the local perspective toward that collaboration.

             EMERGENCY MANAGEMENT PERFORMANCE GRANTS (EMPG)

    Florida receives Emergency Management Performance Grant funding 
from the Department of Homeland Security (DHS), FEMA, based on an 
annual Congressional appropriation and Federal funding formula. FEPA 
greatly appreciates the support to maintain the funding levels of EMPG 
this year, in spite of great pressures to reduce the Federal budget.
    EMPG, which has been called ``the backbone of the Nation's 
emergency management system'', constitutes the only source of direct 
Federal funding for State and local governments, to provide basic 
emergency coordination and planning capabilities for all hazards 
including those related to homeland security. These funds are used to 
support and enhance State and local emergency management programs. In 
Florida, the Division of Emergency Management passes Federal EMPG funds 
through to county governments to sustain personnel and basic 
operational expenses. These funds are matched at the local level 
``dollar for dollar'' with non-Federal revenues.
    EMPG funding is used by county programs to sustain operational 
costs related to program staffing, Emergency Operation Center and 
Public Shelter readiness, critical communications and notification 
systems, emergency planning, training and exercise projects, and public 
information and education programs. Together these funds (Federal and 
non-Federal match) support the ``first line of defense'' at the local 
level, for a broad range of hazards and emergencies faced by Florida 
communities.
    As the responsibilities placed on local emergency management 
programs and personnel continue to expand, Federal EMPG dollars are a 
critical component of Florida's State-wide emergency management system. 
Without this on-going Federal funding stream, Florida's emergency 
management programs would not have been able to develop or maintain the 
local capacity needed for the extended emergency operations required by 
the unprecedented 2004 and 2005 Hurricane Seasons or the more recent 
2010 Haiti Repatriation, H1N1, and Deepwater Horizon events.
    The House Appropriations Subcommittee and Full Committee action on 
the fiscal year 2012 budget for the Department of Homeland Security 
allowed the Emergency Management Performance Grant to receive the 
President's request of $350 million, a $10 million increase over fiscal 
year 2011. This action is significant in the protection of the local 
programs. However, the bill increased the Administrative Fee that FEMA 
can keep for program administration to ``not to exceed 10 percent''.
    If the budget remains at the $350 million level, and if the 10% 
Administrative Fee language remains, $35 million could be retained by 
FEMA for Management and Administration. This means only $315,000,000 
would be awarded. Although the $350 million level appears to sustain 
critical support for State and local programs, in practice it would be 
a decrease of about $14 million from the award amounts in fiscal year 
2010 and fiscal year 2011. It has become practice for the funding for 
FEMA's Grant Program Directorate and other programs to be funded by the 
Administrative Fee on the grant programs. We respectfully request that 
this practice be discontinued or the funding level be adjusted to 
accommodate it without compromising State and local programs.
    It is important that FEMA and DHS maintain EMPG as a direct 
emergency management, all-hazards funding source and it is not combined 
with other homeland security-specific grant funding. EMPG must maintain 
its own unique identity. Please remain vigilant in your protection of 
this funding and its intended purpose.

                 STATE HOMELAND SECURITY GRANT PROGRAM

    The post-9/11 Federal funding provided to Florida under the State 
Homeland Security Grant Program (SHSGP) allowed the State to escalate 
its preparedness and prevention capabilities and capacities. Florida 
continues to implement and refine its State Homeland Security Strategy 
and county emergency management programs are a critical component of 
the State strategy. For the last several years, under the Congressional 
appropriation, funding for law enforcement prevention activities has 
become a subset of the overall SHSGP, rather than a unique grant 
funding stream. In Florida, this has created an unintended 
``competition'' between preparedness and prevention priorities for 
scarce SHSGP funds. Florida's emergency managers support the current 
requirement that the majority of SHSGP funds be made available to local 
programs and projects.
    The recent reductions in the Federal budget that have resulted in 
reducing Florida's UASI funding will make this competition more 
intense.

          COORDINATION OF FEDERAL RESPONSE TO EMERGENCY EVENTS

    Even without a direct hurricane impact, 2010 proved to be an 
extremely busy year for the State's local emergency management 
programs. Florida coordinated a massive repatriation effort in response 
to the devastating earthquake in Haiti. This effort relied on the 
expertise and experience of county emergency management programs to 
directly support Federal activities in their jurisdiction. The 
Deepwater Horizon explosion and resulting oil spill directly threatened 
Florida's fragile environment and economy and its impacts continue to 
affect the State today. Each of these events resulted in extended 
interaction with Federal agencies and officials, who have limited 
experience with the emergency authorities and responsibilities of 
Florida's sovereign State and local governments, and emergency 
management programs. To be effective during disaster events, Federal 
agencies and programs and their personnel must become much more engaged 
in local emergency planning, projects, and procedures before emergency 
events occur. The relationships between Federal and local agencies need 
to be developed.
    In addition to encouraging more direct interaction and 
understanding of local conditions, Congress must review the current 
statutory and regulatory requirements of Federal agencies and entities, 
to develop and maintain separate emergency response plans and 
procedures. Florida's emergency managers recognize and value the need 
for a specialized response capability for specific hazards. However, 
the overall direction, control, and implementation of emergency 
protective measures must be designed to recognize and respect local 
authorities and jurisdictions, and be clearly and consistently 
communicated across Federal agencies. While the procedures to do so are 
in the National Response Framework, confusion results when a Principle 
Federal Official for ``incidents of national significance'' is 
appointed, such as in the Deepwater Horizon spill, and a Federal 
Coordinating Officer is used for Stafford Act events. Our position is 
all events should follow the Stafford Act model. This will provide 
consistency and more control at the local level.
    Several recurring tenets for coordinated emergency response were 
made evident during Florida's experience with the Deepwater Horizon 
incident and the massive repatriation effort in Haiti. I list them here 
briefly as ``Lessons Learned'' as Congress considers amendments and 
revisions to existing laws and regulations.
    1. Local governments must retain control of protective action 
        decisions made for their jurisdictions.
    2. The responsible party, State, and Federal response officials 
        must respect local government protective action decision 
        making.
    3. Local governments must have an ``equal'' voice in prioritization 
        and allocation of scarce resources.
    4. Local government objectives may be very different than 
        Responsible Party or Federal objectives. As an example--capping 
        the well or recovering product vs. protecting the beaches.
    5. As I mentioned earlier, the Federal response systems must better 
        align with the processes and systems used for other emergencies 
        and disasters.
    6. All incidents should follow the Stafford Act model, which would 
        allow the National Response Framework to eliminate the 
        unnecessary position of Principle Federal Official.
    Florida has a rich history of providing support for Federal 
disaster responses across the Nation, both as a direct asset tasked by 
Federal authorities and as part of coordinated State-to-State mutual 
aid. This tradition has the full support of local emergency management 
programs and personnel and is sure to be continued.

ADA REQUIREMENTS FOR SHELTERS/FNSS (FUNCTIONAL NEEDS SUPPORT SERVICES) 
                                DOCUMENT

    A major theme throughout the PKEMRA was direction to FEMA to 
provide for persons with disabilities and other factors. Unfortunately 
there was not clear direction to include local Emergency Management 
practitioners in the development of guidelines. The current ``Guidance 
on Planning for the Integration of Functional Needs Support Services in 
General Population Shelters'' was developed predominantly by staff from 
FEMA, the Department of Justice (DOJ) and disability advocacy groups. 
None of these agencies are responsible or have experience with shelter 
operations. While I recognize the American Red Cross (ARC) was 
involved, they do not have the fiduciary responsibility to shelter like 
local emergency managers. I acknowledge the efforts of the FDEM 
Disability Coordinator in contributing to the document. I also respect 
and find his involvement with the counties extremely beneficial. 
However, it is important to note the position is funded by another 
State agency and is not filled by an emergency management practitioner. 
A saying utilized by the disability advocacy community is ``Nothing 
about us, without us'', but it seems they produced a document without 
local emergency management practitioners. It is interesting that the 
PKEMRA was passed in 2006, yet the FNSS document was not distributed 
until October 2010, over 4 years later.
    Local emergency managers are in full support of individual rights 
for access and absolutely opposed to any form of discrimination. A 
major aspect of our planning for disasters is to identify and protect 
vulnerable populations. This is why we are so frustrated that FEMA did 
not follow the standard practice of asking for local comments before 
issuing the FNSS document. There is also mass confusion on the 
authority of the document. FEMA staff state that it is a guidance 
document, but also state that DOJ may use it as a compliance document. 
When FEMA staff were asked to intervene with DOJ for clarification, the 
request was rejected.
    Florida is working diligently to find a way to implement the 
guidance, but there is inconsistency in the Department of Justice 
settlements. Current examples of conflicting settlements are City of 
Fort Myers, FL, Fairfax County, VA, Town of Swansea, MA, and the City 
of Los Angeles, CA. FEPA is most concerned with the on-going legal 
actions in Broward County, Florida which until resolved we will not 
have clear direction and cannot move forward significantly until the 
findings are released.
    Recent DOJ actions to strictly apply Americans with Disabilities 
Act requirements to facilities designated as hurricane evacuation 
shelters have caused great concern regarding our ability to open, 
staff, and supply shelters in emergency situations. Florida's geography 
and susceptibility to hurricane-related storm surge and extreme winds 
result in a high demand for shelters with a limited supply of 
structurally suitable locations. Implementation of recently released 
FNSS guidance will critically exacerbate Florida's local sheltering 
capability challenges. Many of the accommodations compiled in the 
guidance cannot be implemented due to local budget cuts, layoffs, and 
exhausted resources. The service level expectations are unrealistic in 
a disaster environment, especially in the immediate pre-disaster hours 
in an event such as a hurricane. Personal responsibility should remain 
at the forefront for all individuals, members of the disabled 
community, those with medical needs and caregivers.
    The ADA laws were designed to assist individuals with access to 
facilities and services during their daily lives. Disaster situations 
and the need for an altered standard of care were never considered when 
these laws were created. However, they are being applied without 
consideration of this fact.
    We as local emergency managers would like to see a collaborative 
process established to develop realistic solutions that can be 
developed and applied to Florida emergency management practices, based 
upon the realities faced during disasters. It recently became evident 
at the 2011 Governor's Hurricane Conference (GHC) that the FEMA 
representative, the DOJ representative, and contractor responsible for 
assembling the document have no concept of hurricane risk sheltering 
operations at the local level. A comment shared by the DOJ staffer 
during the training was to eliminate the term ``Special Needs''. This 
was very frustrating, as Florida law specifies the Special Needs 
program and even the PKEMRA utilizes the term with direction to FEMA. 
Also, at the 2011 GHC, a ``round-table'' was held with the FEMA 
Disability Coordinator, an American Red Cross representative and local 
emergency management practitioners. During the meeting, the efforts in 
Alabama to utilize the FNSS guidelines after the recent devastating 
tornadoes were highlighted as a success. A very important distinction 
is that those shelters are post-event shelters. Florida emergency 
managers do not dispute the practicality of post shelters utilizing 
FNSS guidelines. Our major concern is ``hurricane risk sheltering'', 
and it seems that disability advocates and DOJ do not understand the 
importance of this distinction.
    Florida's emergency managers remain committed to doing the right 
thing, but the right thing has to be doable. Accommodations are 
necessary for certain citizens during disasters, and Florida is very 
successful in doing this. The law however, must take into account the 
realities that exist during these events, and modify the expectations 
during the hours prior to a disaster, and the early hours and days 
following a disaster. Our goal now is to hold a summit to educate the 
disability advocates on the complexities of Hurricane Risk Sheltering, 
and work with them to find acceptable accommodation methods.
    This is not just a Florida issue. Recently, in the International 
Association of Emergency Managers (IAEM) newsletter, Ms. Lyn Gross, 
CEM, IAEM-USA Region 10 President, and Director of Emergency Services 
Coordinating Agency for Brier, Washington, wrote an article relating 
the numerous challenges all local emergency management programs face. I 
have had the opportunity to speak with Ms. Gross and I am including 
that article at the conclusion of my testimony. In discussion with Ms. 
Gross, she pointed out that in areas with earthquakes, it may not be 
possible to find a shelter building that is structurally sound 
following an earthquake, which will comply with ADA requirements.

                  STAFFORD ACT DUPLICATION OF BENEFITS

    Current Federal regulations restrict FEMA from releasing Individual 
Assistance Program client benefit information to local Government 
entities. Without specific information on the amounts, types, and 
characteristics of assistance provided by Federal authorities, local, 
and State governments cannot evaluate or verify requests for assistance 
through their programs to protect against duplication of benefits. At 
the local level, we ask for access to client information only to assist 
our Federal partners to reduce potential waste and fraud.
    The restriction inhibits the ability of local government officials 
to effectively and properly meet the needs of their citizens and 
disperse services to the affected constituents.

           EMERGENCY NOTIFICATIONS USING CELLULAR TECHNOLOGY

    FEPA supports the Personal Localized Alerting Network (PLAN) which 
is to be implemented by the FCC and FEMA at the Federal level through 
broadcasters and other media service providers. This new public safety 
system will allow customers who own an enabled mobile device to receive 
geographically-targeted, text-like messages alerting them of imminent 
threats to safety in their area. Authorized National, State, or local 
government officials will be able to send alerts regarding public 
safety emergencies, such as a tornado or a terrorist threat, to PLAN-
enabled phones. We are anxious to receive additional details on the 
program and how it will integrate with National Weather Service's (NWS) 
watch and warning system.
    We also support the continued Congressional funding of the National 
Oceanic Atmospheric Administration's (NOAA) Weather Radio program, 
which is a vital component for notifying the public of all variety of 
incidents and what protective measures are to be taken to protect 
themselves.

                            DISASTER HOUSING

    FEPA recognizes the significant challenges poised by disaster 
events that result in major damages or destruction of a community's 
existing housing stock. Florida's experience with the widespread 
damages during the 2004 and 2005 hurricane season reminded us that the 
broadest complement of disaster housing options must be considered 
post-event. My personal experience was with the Groundhog Day tornadoes 
of 2007.
    While the PKEMRA did add utilities to the assistance program in 
many local areas, rental housing options are extremely limited. Moving 
survivors great distances from their neighborhoods severely disrupts 
individuals' ties to employment, schools, health care, houses of 
worship and other local services, both formal and informal, that 
sustain them day-to-day. Housing options that appear untenable during 
``blue skies'' may be viable in a post-disaster environment. These 
decisions must be made collectively with local officials and must 
reflect the individual characteristics of the events and the 
communities affected.
    The more recent experience in Alabama and Mississippi are evidence 
that all disaster housing options must be brought to that table to 
enable neighbors to remain with their neighbors to regroup, to recover 
what is left of their possessions, to mourn and comfort collectively to 
begin to regain some sense of normalcy.
    Florida emergency managers support the use of disaster housing 
trailers on personal properties. However in catastrophic circumstances, 
we understand it may be necessary to deploy trailers collectively 
instead of on an individual level.
    individual assistance (ia) and public assistance (pa) recoupment
    FEPA recognizes that FEMA has an important responsibility to be a 
good steward of public funds and this responsibility includes audits of 
disaster assistance provided to public entities and individuals. These 
financial assessments, however, must recognize the circumstances that 
existed at the time that the funds were provided. Disasters will always 
present situations that require a balance of getting relief funds to 
individuals and communities quickly, to help them recover with the 
requirement to protect against waste, misuse, and fraud. As a disaster 
event progresses, FEMA payment and reimbursement policies often are 
reviewed, revised, and re-tooled. FEPA recognizes that many of these 
refinements are designed to address the characteristics of the event 
and often benefit individuals and communities. At a minimum, Federal 
decisions, advice, and recommendations made during the early stages of 
an event must be better documented, communicated, and utilized for 
audits and evaluations that may take place years after funding is 
provided.
    FEMA is sending out ``Notice of Debt'' letters to disaster 
assistance applicants who received Federal disaster assistance 
payments. Letters are being sent from the most recent disasters first. 
These letters will inform applicants of the amount and reason for their 
debt, and provide information on how to repay the debt or appeal FEMA's 
determination.
    We understand the pressure to reduce waste and fraud, but spending 
more time and money to have consistent policies rather than recoupment 
on the back end would be more practical. It is important to the program 
and processes to have consistent staffing, and rely less on disaster 
assistance employees.

         FLORIDA EMERGENCY PREPAREDNESS ASSOCIATION INITIATIVES

  <bullet> Private Public Partnership Committee.--This is a new 
        committee in partnership with FDEM's Private Sector Coordinator 
        that will enable the engagement of the large number of private 
        entities in our membership with public sector emergency 
        management programs. The focus is to explore innovative methods 
        to meet the challenges in the current economic environment.
  <bullet> Technology Committee.--This committee is working to educate 
        FEPA membership on utilization of social media such as Facebook 
        and Twitter along with being available to assess new 
        technological services available to our membership.
  <bullet> Higher Education Committee.--This committee is responsible 
        for establishing a process in which Florida college and 
        university Emergency Management academic programs that meet an 
        established criteria receive an endorsement from FEPA. The 
        concept is to provide students with a recognized program which 
        will properly prepare them to be emergency management 
        professionals.
  <bullet> Certification Commission.--The Certification Commission 
        administers the Association's Certification Program. The 
        committee is responsible for promoting and managing the 
        Associations' Certification Program, the only Florida-specific 
        credentialing program for Emergency Management professionals. 
        FEPA offers three certification levels Florida Emergency 
        Management Volunteer (FEMV), Florida Associate Emergency 
        Manager (FAEM), and Florida Professional Emergency Manager 
        (FPEM).
  <bullet> Training and Development Committee.--This committee is 
        responsible for the training and development programs and 
        initiatives of the Association. The Training and Development 
        Committee has established three subcommittees: Training 
        Subcommittee for curriculum development and training 
        initiatives, Instructor Subcommittee for instructor credentials 
        and program monitoring, and the FEPA Academy Subcommittee for 
        planning, administration, and implementation of the Emergency 
        Management Basic and Intermediate Academies.

                               CONCLUSION

    In closing, I would like to thank you again for the opportunity to 
share my views and experiences with you at this important event. 
Florida is fortunate to have been spared the devastation of a direct 
hit of a hurricane for 6 years. The 2011 Hurricane Season is predicted 
to be an extremely active one and will more than likely test Florida's 
emergency management system, perhaps multiple times and in multiple 
locations. Should we experience an event it will provide us the 
opportunity to evaluate more aspects of the PKEMRA. With your continued 
support and our collective capabilities, capacities, and resources, 
Florida's emergency management professionals stand ready to serve our 
communities.

                  Attachment.--IAEM Bulletin May 2011

          AMERICANS WITH DISABILITIES ACT: THE NEXT EM HURDLE

By Lyn Gross, CEM, IAEM-USA Region 10 President, and Director, 
        Emergency Services Coordinating Agency, Brier, Washington
    Recent litigation over the application of the requirements of the 
Americans with Disabilities Act (ADA) in disasters has brought into 
focus the next administrative disaster awaiting emergency management 
practitioners in the United States. It appears that Title 2 of the ADA 
is being aggressively applied to emergency management without regard to 
the reality that an altered standard of care applies across the board 
when disaster strikes. There is a grave potential for real damage to 
occur if left unaddressed.
    This is one issue that is causing emergency managers across the 
country to lose sleep. In the midst of reduced staffing and budget 
cuts, we are at a loss, not only because of the complexity of the issue 
itself, but also because the ability to meet these standards is so far 
out of reach during a disaster. The ADA laws were designed to assist 
individuals with access to facilities and services during their daily 
lives. Having spent a period of time on the physically disabled list 
myself a few years ago, I can appreciate the effort and the intent. 
Clearly, disaster situations and the resulting altered standard of care 
were never considered in these laws, yet they are currently being 
applied in this arena for lack of anything more realistic having been 
developed. Surely common sense must kick in somewhere.
    While FEMA's Guidance on Planning for Integration of Functional 
Needs Support Services in General Population Shelters (FNSS) provides 
guidance, the service level expectations remain unrealistic in the 
disaster environment. Unfortunately, the FNSS Guidance appears to have 
been developed in a vacuum without a comment period, and without input 
from the practitioners who are expected to implement the program. The 
general practice of including the emergency management community at the 
State and local level in the development process seems to have been 
entirely overlooked.
    A staff member in my office has a disabled child and participates 
in the IAEM-USA Special Needs Caucus. As the parent of a disabled 
person, she believes that while attention to the matter is important, 
the expectations of the disability community must be realistic, and 
personal responsibility should remain at the forefront for individuals 
and caregivers.
            From Awareness to Operations
    The current work of the Special Needs Caucus is focused on 
increasing the awareness of emergency managers regarding the wide scope 
of ``access and functional needs.'' However, current efforts have not 
yet attempted to address the operational and logistical issues 
encountered by local emergency managers. In order to address the issue 
at hand, we must get past ``awareness'' and move resolutely into the 
``operations'' required for the task.
    What are the basic questions that need to be answered in order to 
move forward in a meaningful way? What are the minimum standards? If 
they are the same as day-to-day laws and regulations, then we have no 
hope of ever being compliant. Perhaps if we can get past the awareness 
level and obtain answers to some basic questions, we can accomplish the 
necessary tasks to meet minimal needs.
    Across the United States, there are task forces, committees, and 
work groups attempting to address this difficult problem. Yet as an 
educated and experienced practitioner with many disasters behind me, 
I've seen much idealism and not much pragmatism applied to the issue. 
Though my connections are good at the National level, I've not seen 
even one completed plan in place that addresses this need to the level 
the FNSS Guidance suggests we should. I suggest that this guidance is 
unattainable in the midst of the logistical challenges and overwhelming 
resource shortages we face during a disaster event. As an emergency 
manager looking at the scope of this issue, I want to know if I am 
going to face legal action for trying, yet missing the mark. If so, why 
try? We have an ``altered standard of care'' at every level and in 
every function in disaster response--why not here?
    A solution requires adequate resources and reasonable policy. We 
all want to do the right thing, but the right thing has to be doable. 
We support the concept and idea that some special accommodations are 
necessary during emergencies and disasters. The law however, also must 
take into account the realities that exist during these events, and 
modify the requirements and expectations during the early hours and 
days following a disaster. A glimmer of hope comes from the recent 
Department of Justice changes to the definition of service animals. 
Perhaps common sense is coming into play?
    I suggest a need to identify the questions and to address 
legislative clarification, or even change if necessary, to support the 
accomplishment of this monumental task. Thus far we have grumbled about 
the lack of focus on reality in the laws that apply during a disaster 
event. Yet we as emergency managers have not made an effort to address 
the issue at the National level. We must shake off the shock effect 
we've encountered by recent events and insert ourselves, invited or 
not, into this process to address this issue head on. It is essential 
that we bring together organizations, agencies, and partners to 
realistically address this issue, both legally and practically, with 
responsibility, pragmatism, and good judgment.

    Mr. Bilirakis. Thank you very much.
    Now, I would like to recognize Mr. Russell for 5 minutes or 
so. Thanks for making the trip.

  STATEMENT OF JOHN E. ``RUSTY'' RUSSELL, DIRECTOR HUNSTVILLE-
MADISON COUNTY EMERGENCY MANAGEMENT AGENCY TESTIFYING ON BEHALF 
       OF INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGERS

    Mr. Russell. Thank you for allowing us to testify. Chairman 
Bilirakis, Representative Clarke, we appreciate being here. 
Thank you for your comments about Alabama, it is deeply 
appreciated.
    I have been an emergency manager for 16 years in my county 
and I have been active in the International Association of 
Emergency Managers and I am here to represent them this 
morning. IAEM, as you know, is our largest association of 
emergency managers with over 5,000 members.
    My jurisdiction is Madison County in north Alabama, north 
central Alabama, population 360,000. We have the largest 
population of engineers and scientists and we have the second-
largest research park, all to support the space and missile 
industry.
    The tornado outbreak in 1974 had 148 tornadoes in 13 
States. In comparison, in April we had 103 tornadoes in Alabama 
alone. On April 27, 221 people were killed, 13,000 buildings 
and homes were destroyed. In north Alabama, we lost power for 
in some places 7 days. We had to use generators to keep the 
infrastructure going and we found out the problems generators 
cause and the problems they solve and we are going to be better 
prepared next time. This is Alabama's largest disaster ever. We 
estimate more than $4.2 billion in damages as of now.
    I have got to say, FEMA did a good job this time. They came 
in, they responded to our needs in an efficient way that we 
have not seen before in other disasters. FEMA assumed a more 
proactive stance up front and worked actively to address our 
issues. In my county, over 16,000 residents have been 
registered by FEMA already. The disaster recovery center we set 
up was expanded to include all the other agencies that could 
possibly give help. We appreciate FEMA's willingness to help us 
do that.
    There is a new program called Operation Clean Sweep that is 
being introduced by FEMA and the Corps of Engineers. Basically 
this allows the Corps of Engineers to go on private property 
but the property owner must sign a right of entry form.
    Another thing they are doing that is new and that is good 
is the disaster mitigation funding. It normally takes about a 
year to be available. FEMA has come in and with us are trying 
to make those funds available faster so that we can go ahead 
and start to build back safer. Instead of waiting a year or 2, 
we would be able to start in a couple of months.
    There are FEMA issues with EMAC reimbursement and I agree 
with Ms. Dragani that EMAC is a wonderful program. It gets the 
resources on the ground where they need to be in an efficient 
manner, within the first 48 hours being able to do the rescue 
mission. However, even though we respond fast, the 
reimbursement can take up to 30 months in some instances. We 
would like to see that reimbursement process streamlined.
    FEMA's Emergency Management Institute has greatly increased 
the quality and availability of training in recent years. In 
our after-action review, we saw the benefit of several courses 
we had attended. We also identified courses to be taken in the 
future. We strongly recommend continued support of EMI.
    The Emergency Management Performance Grant has a history 
stretching back 5 decades. This assistance program is 
fundamentally different than the Homeland Security Grants. The 
required 50 percent cost-share demonstrates the partnership 
between local, State, and Federal governments. Without EMPG, 
some counties in Alabama would not even have an emergency 
management program. Continued support of EMPG is essential for 
the preparedness of communities across the Nation.
    We cannot have a good emergency management program without 
the involvement of the entire community, including volunteers 
and their organizations. In addition to traditional 
responders--fire, police, and EMS--volunteer organizations 
enhance and complete the communities' response to disasters. 
Alabama has embraced these volunteer programs and has trained 
hundreds of volunteers.
    The Metropolitan Medical Response System has been a 
cornerstone of our medical and responder team building since 
2002. With this funding, we have developed plans and enhanced 
medical response capabilities in 14 counties across north 
Alabama. Our Medical Reserve Corps and other aspects of our 
health and medical infrastructure have benefitted greatly from 
MMR's funding. I provide some examples in my written testimony.
    In conclusion, there seems to be a revitalization of 
attitude and purpose in the folks at FEMA. If the proven 
Federal, State, and local partnership programs--EMPG, MMRS, and 
CERT--can be maintained or enhanced and the innovative Clean 
Sweep and HMGP program changes I have mentioned become a 
reality, disaster survivors will be further down the road to 
their ``new normal'' more quickly than any time in the past 
decade. It seems that reduction of red tape and striving to do 
the right thing because it is the right thing will actually 
work after all.
    I will be happy to answer any questions.
    [The statement of Mr. Russell follows:]

              Prepared Statement of John ``Rusty'' Russell
                             June 10, 2011

    Chairman Bilirakis, Ranking Member Richardson, and distinguished 
Members of the subcommittee thank you for this opportunity to share 
ideas and provide testimony on this vital topic. I am John ``Rusty'' 
Russell, the Director of Emergency Management for Madison County, 
Alabama. I have been a local government emergency manager for 16 years 
after serving in the U.S. Army for 22 years, and retiring as a Master 
Sergeant.
    I have also served as the president of Region IV of the U.S. 
Council of the International Association of Emergency Managers (IAEM-
USA) and as president of the Alabama Association of Emergency Managers. 
I am providing this statement on behalf of IAEM-USA on the disaster 
response in Alabama and how the Federal Emergency Management Agency 
(FEMA) is responding.
    IAEM is our Nation's largest association of emergency management 
professionals, with 5,000 members including emergency managers at the 
State and local government levels, Tribal nations, the military, 
colleges and universities, private business and the nonprofit sector. 
Most of our members are U.S. city and county emergency managers who 
perform the crucial function of coordinating and integrating the 
efforts at the local level to prepare for, mitigate the effects of, 
respond to, and recover from all types of disasters including terrorist 
attacks. We deeply appreciate the subcommittee's interest in 
strengthening emergency management and particularly your outreach to 
local emergency managers.
    My jurisdiction is Madison County in north central Alabama, which 
has a population of 360,000. We have a major concentration of highly 
technological industry to support the National Aeronautic and Space 
Administration (NASA), the Army's aviation and missile programs and 
other high-tech government initiatives. The city of Huntsville has the 
second-largest research park and the largest population of scientists 
and engineers in the country. The Tennessee River forms the southern 
border of the county and is a major river transportation corridor. We 
are served by an international airport, two railroads, and an 
interstate highway.
    Madison County has a history of being pro-active in community 
preparedness. Since 1971, 16 counties in north Alabama have been 
members of the North Alabama Mutual Aid Association. The association 
consists of local Emergency Management Agencies (EMA) and the extended 
community of response and public safety organizations such as the 
Alabama Department of Environmental Resources, Department of Public 
Health, National Weather Service, and local, State, and Congressional 
elected official's staff members. Every county and city government has 
signed our mutual aid agreement. Coordination and response from county-
to-county has become almost automatic and is encouraged by the State. 
The majority of emergency incidents are coordinated locally without 
help from the State or Federal agencies. It is the practice of our 
association that local resources should be used first. We are very 
supportive of planning for the ``Whole Community''; in fact we have 
been planning as a whole community at the local level since the Civil 
Defense days.
    Almost anyone in Emergency Management has studied the great tornado 
outbreak of 1974. On April 3, 1974, 148 tornadoes struck 13 States. In 
comparison, on April 15, 2011, there were 48 tornadoes and on April 27, 
55 more in Alabama alone.
    The April 27 tornadoes trained across the northern two-thirds of 
the State for nearly 18 hours. In some areas as many as four storm 
tracks overlapped each other.
    The swarm of tornadoes killed 241 people across Alabama and 
destroyed or heavily damaged more than 13,000 buildings State-wide. The 
American Red Cross said its State-wide assessment of damaged residences 
showed that twisters destroyed 6,237 single-family homes across Alabama 
and heavily damaged another 5,039 homes. Of these, 1,890 were mobile 
homes.
    To add insult to injury, electrical power was lost to most of North 
Alabama for 5 to 7 days. Not only were we facing the devastation from 
the tornadoes but we now had an energy crisis as well. North Alabama is 
serviced by the Tennessee Valley Authority (TVA). A large section of 
their major transmission line system was destroyed. Large generators 
had to be brought in to keep water systems and other critical 
infrastructure from failing. County-wide curfews were initiated to stem 
looting and to keep people safely away from the damaged areas during 
the night. In the night sky, without the lights of the city, there were 
more visible stars than I had ever imagined. You could actually see 
tiny satellites moving if you looked carefully.
    Power was restored slowly and incrementally as they rebuilt the 
system. A significant area did not get power back until 7 days after 
the storm. As you can imagine, this greatly compounded the emergency as 
the local utility companies could not begin their repairs until the TVA 
lines were rebuilt. We had spent hours and hours discussing generators 
in our National Incident Management System (NIMS) resource typing 
workshops, but we still learned more about generators, the problems 
they solve and the problems they cause than I ever wanted to know.
    This is expected to be the most costly disaster our State has ever 
faced. The event caused an estimated $4.2 billion in damages with 
insured losses between $2 and $3 billion.
    I am pleased to report that FEMA has responded to Alabama's needs 
in a much more efficient way than in past disasters. The affected 
counties were assigned a FEMA liaison during the initial response which 
greatly enhanced the flow of information and coordination. During a 
discussion with our county's FEMA liaison, he said the mindset of FEMA 
has changed over the past few years from preparing to respond 3 days 
after the disaster to preparing for immediate response in the affected 
State or 5 days prior to landfall for a hurricane. I can speak first-
hand to the response during Hurricane Ivan and Hurricane Katrina and 
the difference between then and now, is night and day. Anyone working 
in response activities across Alabama will quickly realize that there 
is a true partnership between local, State, and Federal organizations. 
The much-needed resources are being efficiently delivered on time and 
where they are most needed.
    In my county, over 16,000 residents have already been registered by 
FEMA for disaster assistance. We were able to expand the Disaster 
Recovery Center (DRC) to include not only FEMA and the Small Business 
Administration (SBA) but also Social Security Administration (SSA), 
Veteran's Administration (VA), local builders association, local real-
estate association, Better Business Bureau (BBB), crisis counseling, 
and Faith Based and Volunteer Organizations Active in Disasters (VOAD) 
representatives. The FEMA folks were actively engaged in providing one-
stop service for the affected families.
    FEMA and the Army Corps of Engineers have begun to initiate a new 
program called ``Operation Clean Sweep''. This program will enable 
property owners in the worst impacted areas to apply for assistance to 
remove debris from their private property. They must submit a right of 
entry form to the Corps. This program when proven successful will be a 
major leap towards the recovery of communities during future disasters.
    Another example of FEMA's new nimbleness could be a change in the 
Hazard Mitigation Grant Program which provides post-disaster 
assistance. The availability of post-disaster mitigation funds normally 
takes 8 months to a year after the disaster. Currently, at the request 
of the local communities, Alabama, and FEMA are trying to coordinate 
for the immediate availability of a significant portion of the 
anticipated post-disaster mitigation funding for Alabama's tornadoes. 
This will be the biggest rebuild effort Alabama has ever faced. People 
want to start rebuilding now and may not take protective measures like 
in-home safe rooms and community shelters if mitigation funds are not 
readily available for another year. If this first time ``early'' 
funding becomes a reality, we can start planning and building back for 
a safer community after only 1 or 2 months instead of 1 or 2 years. It 
would be a substantial benefit to disaster survivors Nation-wide if the 
post-disaster mitigation program was streamlined similarly for future 
disasters.
    I can faithfully say, based on the response I have witnessed in 
Alabama, and the willingness to tailor their efforts to our needs, FEMA 
has come a long way from years past.
    While the Emergency Management Assistance Compact (EMAC) is not a 
FEMA-run program, there are FEMA reimbursement issues associated with 
it. EMAC is the agreement between all 50 States ratified by Congress 
that provides form and structure to interstate mutual aid. EMAC works 
well to get the right resources to the right place in time to conduct 
emergency rescue and response in the impacted area. However, some 
States have had problems with the reimbursement process. Alabama's 
counties and cities were able to provide resources to other gulf States 
through EMAC within 48 hours and some counties were still not 
reimbursed after 30 months or longer.
    The Madison Fire Department's heavy rescue unit was deployed during 
Hurricane Katrina in September 2006. While the response was immediate 
and the mission only lasted a couple of weeks, it took until June 2008 
to get them fully reimbursed.
    The Madison Fire Department's Heavy Rescue Unit was deployed again 
along with a Team of Madison County Sherriff's Deputies during the 
Hurricane Gustav response in September 2008. Once again, the response 
was immediate and the mission was completed within a couple of weeks, 
however, it took until January 2010 to get them reimbursed.
    Cullman County opened a shelter under EMAC to house evacuees from 
Hurricane Gustav. Since Cullman County has a relatively small police 
department, off-duty officers were brought in to provide security at 
the shelter. The reimbursement claim for approximately $40,000 was paid 
in January 2011. It would seem that $40,000 is not such a large amount; 
but to a small police department, it was a budget buster.
    It is our fear that slow reimbursement will eventually result in 
reluctance to lend critical resources under EMAC due to the adverse 
economic impact on local budgets.
    Over the past few years, FEMA's Emergency Management Institute 
(EMI) in Emmitsburg, Maryland has greatly increased the training that 
is available to emergency managers and responders. Increasingly 
frequent delivery of these courses in State and local venues as well as 
the development and update of many new on-line courses has lead to a 
stronger more robust emergency management community in Alabama. Last 
year our staff was able to attend both debris management and volunteer 
management training. During our internal after-action review, we were 
discussing how relevant the training is and reviewing the course list 
to see what else we could have benefitted from in the aftermath of the 
storm. There were several new courses since the last time I reviewed 
the list. Recommended training will be part of our after-action review 
and we will be even better prepared next time.
    For the last few years, the State of Alabama has passed through a 
substantial percentage of Emergency Management Program Grant (EMPG) 
funding to local EMAs. Building strong local programs and fostering 
State-wide mutual aid agreements enabled counties to quickly assess the 
extent of and begin the response to a truly catastrophic disaster 
before the wind stopped blowing. Counties were helping each other 
during the initial response and are still providing mutual aid as we 
speak. EMPG with its history stretching over 5 decades continues to 
allow local and State governments to develop basic emergency management 
capability even in these difficult economic times. In the absence of 
EMPG funding, there are counties in Alabama that would not have full-
time emergency managers. It is fundamentally different than the post-
September 11, 2001 homeland security grants, and symbolizes the true 
partnership between local and State governments with its 50 percent 
cost share. EMPG has enabled Alabama to develop a well-trained and 
experienced cadre of emergency managers and is demonstrated by our 
rapid transition from response to recovery in light of the severity of 
the event.
    Through strong county programs in Alabama, we were able to build 
partnerships with Government, volunteer, non-profit, and private sector 
organizations. These partnerships resulted in some remarkable 
accomplishments.
    Our local Volunteer Organizations Active in Disaster (VOAD) has 
been recruiting member organizations for the past 7 years. The various 
faith-based and volunteer groups have developed internal guidance which 
helps to minimize duplication of effort and improve efficiency in 
resource allocation within the community. On a regular basis, they 
sponsor training events and participate in the county's exercise 
program. As an Emergency Management Director, I am blessed to have one-
stop shopping for the management of volunteer and donated resources 
during an emergency. The utilization of volunteer reception centers and 
the ability to match volunteer resources with the unmet needs in the 
community, greatly improved our ability to respond and recover. The 
credentialing of volunteers also helped provide controlled access to 
the impacted areas during the response.
    Alabama has actively embraced the Community Emergency Response Team 
(CERT) program from its inception. With a portion of our EMPG and 
Citizen Corps funding, our county has trained more than 540 people and 
30 teams including employee groups at local businesses such as Teledyne 
Brown, SAIC, Dynetics Corporation, The U.S. Space and Rocket Center as 
well as many neighborhoods. During the recent disaster, they served in 
the volunteer reception centers as coordinators and as leaders for 
groups of untrained spontaneous volunteers in the field. Some counties 
used CERT teams to distribute ice, water, food, and tarps in the 
affected areas. Others had their CERT teams active in the immediate 
response. Billy Green, Assistant Director for Tuscaloosa EMA, writes:

``I guess my biggest highlight is on Saturday April 23 I graduated my 
first all Hispanic CERT Team. They were members of the Knights of 
Columbus from Holy Spirit. Who would have ever known that on Wednesday 
they would be putting all their skills to use? Several of them lived in 
the Alberta City area that was affected. They came together and first 
began search and rescue. I was actually unaware of them getting out 
until we took the tour with the Governor and I look up and there is a 
truck load of Hispanic guys wearing CERT vests and helmets. Those were 
my guys!!!! I actually got a call from Indiana about their use of Urban 
Search and Rescue (USAR) markings. They would later assist the 
Tuscaloosa Police Department as translators. They would go on to staff 
a shelter at Holy Spirit Catholic Church. I'm really proud of them. I 
also had several individuals from my Campus CERT Class that helped out 
in the areas where they lived. They however, acted individually and not 
as a group. But they used the training to take care of themselves which 
allowed them to help their neighbor. One of them has volunteered at our 
Volunteer Reception Center and is now working for the City of 
Tuscaloosa as part of the disaster response.''

    The Metropolitan Medical Response System (MMRS) funding has been 
the cornerstone of our medical and responder team building since 2002. 
We have been able to develop plans and build medical response 
capability in 14 counties across north Alabama. We were able to provide 
training and exercises that have added cohesion to the way traditional 
responders and medical professionals work together during emergencies.
    In November, 2007, a Huntsville City School bus with a driver and 
41 students plunged 75 feet from an interstate overpass in Huntsville. 
The bus landed vertically and toppled over killing three students and 
injuring several others. The response was immediate and working within 
the MMRS plan 40 students were transported to our two major hospitals 
within the first 50 minutes after the accident. The actual emergency 
part of the response was quickly and definitively over after 1 hour 
although the media frenzy and the investigation lasted for months. The 
very same responders and hospital personnel had participated in an 
eerily similar exercise just days before which involved a simulated 
airplane crash.
    During and after the 18-hour onslaught of the recent tornadoes, 
responders, and medical teams were activated and the emergency medical 
equipment and supplies provided through the MMRS program were deployed 
and used in the impacted areas of even the most rural counties. The 
planning and training paid off and surely helped save many lives as 
trauma victims were quickly triaged and cared for. In my county, 49 
patients were dug out of the debris and transported during the first 24 
hours. Hundreds self-presented to the emergency rooms over the next few 
days. Responders and hospital staff were readily able to coordinate and 
communicate and provide efficient patient tracking.
    The North Alabama Medical Reserve Corp (MRC), now more than 300 
members strong, was developed as an MMRS initiative in 2006. Our MRC is 
comprised of retired and active medical and non-medical professionals 
and serves 16 counties. On a daily basis, they staff the county's free 
clinic and assist with medical and health-related outreach programs in 
schools and senior centers. They man booths at community events to give 
out brochures, answer questions, and even check blood pressure. They 
provide comfort stations during sporting events in our summer heat. 
They assist the Health Department in the fall with the flu vaccines. In 
partnership with the Alabama Department of Public Health, we provided 
continuing education opportunities so retired professionals could 
maintain their certifications. The MRC is also a member of our VOAD.
    During the storms, MRC teams were deployed immediately. They 
staffed 211 lines and medical hot lines which handled thousands of 
calls from confused and anxious citizens. They also established and 
staffed temporary clinics in the impacted areas to administer tetanus 
vaccine and treatment of minor injuries.
    Cullman County's State Mortuary Team (SMORT) that was partially 
funded by MMRS was deployed in north east Alabama. Twenty-six victims 
were respectfully processed there during the initial response.
    Each year there is a proposal to severely cut or do away with the 
MMRS program. Loss of MMRS funding will result in degradation of the 
ability to maintain and coordinate these essential capabilities. MMRS 
needs to be maintained as a separate program.
    In conclusion, while FEMA has been sluggish and bogged down by 
bureaucratic oversight in the past, there seems to be a revitalization 
of the attitude and purpose in the FEMA folks I have dealt with during 
this event. If the long-established and proven Federal, State, and 
local partnership programs, EMPG, MMRS, and CERT can be maintained or 
enhanced and the innovative Clean Sweep and HMGP program changes I have 
discussed become reality, disaster survivors will be further down the 
road to their ``new normal'' more quickly than any time in the past 
decade. It seems that reduction of red tape and striving to do the 
right thing because it is the right thing will actually work after all. 
I would be happy to answer any questions at this time.

    Mr. Bilirakis. Thank you, sir, appreciate very much.
    Ms. Willis, you are recognized for 5 minutes or so.

STATEMENT OF CHAUNCIA WILLIS, EMERGENCY COORDINATOR, OFFICE OF 
          EMERGENCY MANAGEMENT, CITY OF TAMPA, FLORIDA

    Ms. Willis. Okay, thank you, sir. Chairman Bilirakis and 
Ranking Member Clarke, thank you for having me today. I am the 
emergency coordinator for the City of Tampa and also the 
Medical Response System Program Manager and a member of the 
Urban Area Security Initiative working group. It is an honor 
for me to be with you today; thank you very much.
    Today, I am here to highlight the enormous benefits that 
this area has received from Federal grant funding and programs 
and to clearly outline the detrimental effect that would be 
evident if Federal money is cut. I believe this open discussion 
will be extremely beneficial and provide us with new 
opportunities and other options to consider. Terrorists 
hijacking planes and attacking buildings in New York City and 
Washington, DC; hijackers boarding planes in Los Angeles with 
destruction in mind, and so forth--true, these super-sized 
larger cities have experienced the tragic results of sadistic 
planning. But we find consistently that the majority of 
planning for these attacks is done in the medium- to large-
sized cities, cities like the ones that make up Tampa Bay, 
Florida. This region is target-rich. Tampa Bay is home to over 
5,000 catalogued critical infrastructure targets. The Bay area 
is a major banking center, home to numerous backup facilities 
for the Nation's largest banks; MacDill Air Force Base, which 
is home for the war being fought in Iraq and Afghanistan; the 
Port of Tampa, the State's largest port which brings in 50 
percent of the fuel to the State of Florida and also houses 
massive tanks filled with sulphur, gasoline, and ammonia.
    The Tampa Bay region is vulnerable to a wide variety of 
natural and man-made threats. It is also host to a number of 
special events to include Super Bowl championships and National 
conventions, not to mention our famous Gasparilla pirates. How 
is it then that anyone would think it appropriate to reduce 
funding to a location that is so rife with high-risk targets?
    These grants have been critical to the lives and well-being 
of our residents and the Nation as a whole. The truth of the 
matter is that we cannot afford to cut funding that has been so 
useful, so vital for our region and if funds are cut, we will 
have no way to protect our citizens who live amongst these 
high-risk threats. Does a life in New York have more value than 
a life in Tampa Bay? No.
    In the event of a disaster, emergency responders and 
emergency managers from all disciplines must have the resources 
they need to execute an effective and coordinated response. 
These programs and grants are critical to this process by 
providing the resources to train, equip, and integrate the 
necessary responders. Without Federal grant funding, a major 
disruptive event in this region is likely to take on a life of 
its own, crippling our first responders and depriving our 
residents, businesses, and visitors of a quick well-coordinated 
response. Such an outcome will most certainly have negative 
consequences that far exceed the region and will negatively 
impact the State of Florida and potentially this Nation as a 
whole.
    The Tampa Bay Region is one of the Nation's success stories 
for a multitude of reasons. This funding means more than just 
more assets and more technology. Our Federal funding has 
allowed us to come together as a team and an 8-county regional 
partnership. We are not like other areas where the police and 
fire do not work well together or where the city will not speak 
to the county. We were made stronger because everyone was given 
a seat at the table and told to pull up a chair. That is 
remarkable and it means something. Tampa Bay is doing it right.
    Before making the decision on funding cuts, I would like to 
encourage you to do three things. First, put together a peer 
review of funding justifications. Establish a group of subject 
matter experts that will conduct an analysis of each State's 
funding versus positive regional impacts. Have each one verify 
success. This process will be considered to be a very fair and 
judicious process for determining funding. A peer review also 
takes away the waste of lobbyists who push for more funding in 
cities that cannot and will not ever demonstrate that they have 
spent past money appropriately.
    Second, I would like to encourage you to conduct a hazard-
based analysis. Ninety years ago, the Tampa Bay metro area had 
a population of less than 150,000, when it experienced the 
hurricane. Only 10 people were killed, most due to a storm 
surge of 10 feet. Today, over 3 million people live in that 
area, roughly 20 times more than in 1921.
    Now consider the unpredictable weather patterns that we are 
experiencing today. What if a hurricane of a similar track were 
to strike today and what if it was even stronger? Without the 
Federal funds that have allowed us to invest in preparedness 
programs to plan, train, purchase equipment, et cetera, would 
we be in a position to help ourselves or would we need to wait 
for help from the larger cities who received grant funding and 
program assistance?
    Last, I recommend holding these larger cities to the same 
standards that we are held to. Here, over 50 percent of the 
funds are spent on establishing inter-operable communications, 
cataloguing and assessing critical infrastructure, and using 
the funding to spur innovation and progress for the area.
    Every State, each one, every one needs to be responsible 
and prudent with the funding that it receives.
    In conclusion, these three alternative options--instituting 
a peer review process, conducting a hazard analysis, and 
demonstrating equity in funding--should, in my view, be the top 
priority as Congress considers how to properly distribute 
funding without--as Homeland Security Committee Chairman Peter 
King said, without giving our Nation's enemies an invitation to 
attack us.
    Thank you so much.
    [The statement of Ms. Willis follows:]
                 Prepared Statement of Chauncia Willis
                             June 10, 2011

                           EXECUTIVE SUMMARY

    It is imperative that the Tampa Bay Region retain its Federally-
funded emergency management programs and grants. In these uncertain 
times, it is especially important that this region is prepared for all 
threats and disasters. In the event of a disaster, emergency responders 
from all disciplines must have the resources they need to execute an 
effective and coordinated response. These programs and grants are 
critical to this process by providing resources to train, equip, and 
integrate the necessary responders. Without Federal grant funding, a 
major disruptive event in this region is likely to take on a life of 
its own, crippling our first responders and depriving our residents, 
businesses, and visitors of a quick, well-coordinated response. Such an 
outcome will most certainly have negative consequences that far exceed 
the Region, and will negatively impact the State of Florida and this 
Nation as a whole.
    The Tampa Bay Region consists of eight counties and is located 
centrally on Florida's west coast. The region includes the counties of 
Pinellas, Hillsborough, Pasco, Polk, Hernando, Hardee, Citrus, and 
Sumter. The region consists of over 7,024 square miles and has an 
estimated population of 3,494,869 people. The region includes the Tampa 
Bay Metropolitan Statistical Area (MSA). The area is the second-largest 
populated MSA in Florida and the nineteenth-largest MSA in the United 
States.
    What many people do not know about the Tampa Bay Region is that it 
is home to over 5,000 cataloged critical infrastructure targets, many 
of which have National impact. Tampa Bay is a major banking center, 
host to numerous backup facilities for the Nation's largest banks; 
MacDill Air Force Base, home base for the wars in Iraq and Afghanistan; 
the Tampa Port which brings in 50% of fuel brought into the State of 
Florida and houses Chemical Formulators; the Tampa International 
Airport, one of the Nation's busiest airports; biological research 
laboratories at the University of South Florida, and the list goes on.
    Before making the decision to withhold Federal funding and in 
effect cripple this region and its ability to positively respond to 
major threats, an assessment of the known threats that have been 
cataloged and the potential threats that exist for the Tampa Bay Region 
should be considered. Furthermore, the benefits that have already been 
made evident by the efficient use of Federal grant dollars should be 
considered. This region operates using a variety of grant programs, 
each mission-specific. Two grant programs in particular will be 
described in detail: The Urban Area Security Initiative and 
Metropolitan Medical Response System grant. These grant programs 
clearly demonstrate the urgent need for sustained funding.

                     URBAN AREA SECURITY INITIATIVE

    The Urban Area Security Initiative (UASI) Grant Program provides 
funding to address the unique planning, organization, equipment, 
training, and exercise needs of high-threat, high-density urban areas, 
and assists them in building an enhanced and sustainable capacity to 
prevent, protect against, respond to, and recover from acts of 
terrorism. Per the 9/11 Act, States are required to ensure that at 
least 25 percent of UASI-appropriated funds are dedicated towards law 
enforcement terrorism prevention activities. The Tampa Bay Area began 
receiving UASI funding in 2003. Since that time, this region has been 
able to purchase and successfully implement over 39 programs and 
projects that have made tremendous positive impacts to the region.
Cop Link
    Cop Link is a system that organizes data to provide tactical, 
strategic, and command-level users with access to shared data in single 
or multiple consolidated repositories. It is an analytical tool that 
pulls data from many police databases from the City of Tampa, 
Hillsborough County and other surrounding agencies, and then puts it in 
a common language. The data is then merged together based on many 
different factors and gives law enforcement personnel intelligence that 
would normally not be shared among police departments. It pulls in 
Person, Vehicle, Gun, Pawn, Locations, and Phone Number info and 
relates it to Arrest, Offense, and Calls for Service, Citation, and 
Street Check data. All this data is coupled with Crime Analysis tools.
    By crossing this data between jurisdictions, it allows an officer 
or detective to get information that normally would take weeks to put 
together in a matter of seconds. The system can be accessed by multiple 
jurisdictions and detectives can electronically share information on 
cases at all times. The system has transformed the crime fight because 
now officers on the street are able to conduct complete investigations 
from their cars. Detectives are solving crimes in record time.

Avalex Technologies
    Avalex is an airborne system that provides street maps, electronic 
markers, tracking systems, and infra-red television/video recordings 
for Airborne Law Enforcement. A flight crew needs several things to 
happen to make the mission successful. They have no time to search 
through stacks of maps while working an incident or call for police 
service. They have no time to ask officers on the ground for directions 
so that they can perform their duties as Airborne Law Enforcement. They 
must know where they are, and where they are going at all times. In 
order to perform their functions properly and safely, Airborne Law 
Enforcement use the moving map systems found in Avalex Technologies.
    The powerful mapping system works by using a 2.65+ GHZ Pentium 4 
processor and Windows XP. It provides real-time GPS moving map data to 
the flight crew. They can choose between street maps, marine charts, 
and topographical maps anywhere in the State of Florida. Recorded 
digital ortho quads provide aerial digital photographs for the City of 
Tampa, all of Hillsborough and Pinellas Counties. Avalex also provides 
both FAA VFR charts and IFR charts for navigation. This system will 
help in situational awareness and flight safety.

E-Sponder
    E-Sponder is a web-based incident management and collaboration 
portal. The incident management provides multi-jurisdictional/multi-
agency collaboration, planning, recovery, and mitigation of emergency 
and special events, whether man-made or natural. Since its installation 
in 2006, it has been used to manage over 675 emergencies, events, and 
exercises throughout Hillsborough, Pasco, and Pinellas County. 
Collaboration sites such as E-Sponder allow information to be shared 
across agency boundaries in a secure environment. Collaboration sites 
have been created for the Regional Tampa Bay Intel Unit to share 
bulletins, Regional Preventive Radiological and Nuclear Detection 
(PRND), to track all radiological detections, and Regional School 
Resource Deputy/Officer Site share Intel between schools, districts, 
and agencies. Sites to be added are a Regional Mutual-Aid site to track 
available resources and a Regional Explosive Ordnance Disposal (EOD) 
site to share and track intel.

Interoperable Communications Technology
    The horrific events of on 9/11 demonstrated the need for 
interoperable communications among first responders. Interoperable 
communications systems and technology are critical to saving the lives 
of first responders and our citizens. As such, the UASI program 
partnered with the Interoperable Communications Technical Assistance 
Program (ICTAP) through DHS and performed an assessment of 
communications assets throughout the region, which made short-term and 
long-term recommendations for changes. The short-term recommendations 
specifically addressed the Tampa Police Department moving from an 
antiquated UHF system to an 800 MHz System, which was completed in 
2009. Long-term recommendations are to implement standards-based 
regional P25 communications systems. The interoperable radio system is 
a collection of voice-over programmable technologies with ``open 
architecture'' for the entire Tampa Bay UASI.
    Pinellas County agencies began a multi-year year project in 2006 
with the goal of migrating the existing infrastructure to P25 
technology. Hillsborough County followed in 2007 with a multi-year 
strategy for their countywide communications system. The Tampa Bay Area 
strategy aligns with the goals in the State-wide Communications 
Interoperability Plan (SCIP), and the National Emergency Communications 
Plan (NECP). Since 2006, the Tampa Bay Region has made significant 
strides in the system infrastructure migration to P25 technology for 
interoperability; however there is still a $20 million shortfall to 
complete the implementation of the standards-based technology 
throughout the 8-county Region.

ETeam
    Maintaining situational awareness is vital for a hazard-rich 
community such as Tampa Bay. Tampa Bay UASI and its associated agencies 
have taken the most appropriate and cost-effective steps necessary to 
mitigate the risks. One of the most important steps toward mitigating 
regional risks was purchasing a shared information management system, 
ETeam. The overall goal of having an information-sharing system is to 
enhance the ability of Tampa Bay's local emergency management agencies 
to prepare, prevent, respond, and recover from catastrophic events and 
incidents spanning jurisdictional boundaries. ETeam was selected by the 
region as the solution for situational awareness because it has 
demonstrated its ability to put multiple agencies in the best position 
to save lives, reduce injuries, and protect property and the 
environment. This system has served as a force multiplier by enhancing 
the efficient use of multi-jurisdictional resources.

Risk Analysis Center
    The Risk Analysis Center (RAC) software platform provides the 
foundation for homeland security risk management solutions, through its 
integration, analysis, and visualization of risk data. Digital Sandbox 
has created a suite of applications and services that enable critical 
infrastructure planners and stakeholders analyze their risks, 
understand their capabilities, and allocate resources based on risk.
    RAC is a web-based application tool that is utilized to gather 
information about critical infrastructure in the Tampa Bay area. To 
date, 5,174 assets have been identified and catalogued in the RAC. In 
addition, full field assessments have been completed on hundreds of 
infrastructures throughout the 8-county Tampa Bay Area. Intelligence 
data collection and assessment features enable users to gather asset 
information in a single location, establish asset priority, and 
systematically assess vulnerability to and consequences of a 
jurisdiction's threats and hazards. A detailed report, complete with 
security options to consider, is then provided to the asset owner. This 
approach promotes security awareness which leads to planning and 
implementation of enhancements, designed to help prevent, deter, and/or 
respond to major incidents, whether natural or man-made. This type of 
effort strongly encourages continued regional collaboration and 
information sharing among community stakeholders.

               APPLICATION OF FUNDING WITH LOCAL IMPACTS

    Cop Link, Avalex, E-Sponder, and Interoperable Communications. Why 
are these systems and processes critical to the region, to core cities 
like Tampa? These very systems were used to manage one of the city's 
most horrendous local tragedies to ever occur in the Tampa Bay Area. On 
June 29, 2010, Officers Jeffrey Kocab and David Curtis were shot and 
killed while attempting to make an arrest at a traffic stop. Officer 
Curtis stopped a vehicle because it did not have a visible license 
plate. He called for an additional unit to assist him because a male 
passenger in the car was wanted on a misdemeanor charge for writing a 
worthless check. When Officer Curtis arrived, he and Officer Kocab 
attempted to arrest the suspect. The suspect drew a weapon and shot 
both officers at close range. A witness called 9-1-1 to report the 
shooting. Officer Kocab died shortly after arriving at the hospital and 
Officer Curtis was pronounced dead a few hours later. After a 4-day 
manhunt, the suspect was arrested and taken into custody.
    Cop Link, Avalex, E-Sponder, and Interoperable Communications. Each 
of these systems and many more like it were in full use in the Command 
Post, where law enforcement from the city, county, State, and Federal 
government spent 4 days searching for the murderer that left two wives 
without their husbands and small children without their fathers. Cop 
Link was used in the Command Post to perform Crime Analysis and share 
information with the multitude of law enforcement agencies there to 
assist. Avalex was used to perform airborne search and tracking. E-
Sponder was used for incident management, resource tracking and multi-
agency collaboration. Interoperable Communications were vital as 
communications was coordinated on common systems, mutual aid channels, 
and console patches between local, State, and Federal law enforcement 
agencies. UASI funding made it possible. The investment in technology, 
communications, and training provided the foundation from which TPD 
could provide a joint, well-coordinated structure to manage an 
unspeakable tragedy. This incident demonstrated the success of 
Federally-funded grant programs as applied to a local incident.

              APPLICATION OF FUNDING WITH NATIONAL IMPACTS

    The Tampa Bay Region has benefited from grant funding tremendously. 
This area has been extremely successful in applying grant-funded 
resources to real-life scenarios. The regional capacity-building that 
has taken place has required local, regional, State, and Federal law 
enforcement to provide common operating policies, exercise together, 
and develop a strong sense of mutual respect and appreciation for 
integrated emergency management in accordance with the National 
Incident Management System (NIMS).
    Tampa has hosted four Super Bowls: Super Bowl XVIII (1984), Super 
Bowl XXV (1991), Super Bowl XXXV (2001), and Super Bowl XLIII (2009). 
In March 2005, the National Football League (NFL) awarded Super Bowl 
XLIII to the City of Tampa, Florida. Due to the magnitude of the event, 
the U.S. Department of Homeland Security (DHS) designated Super Bowl 
XLIII as a Level I special event. The City of Tampa and regional 
partners undertook a range of measures to ensure that the Super Bowl 
event and its festivities were safe and secure.
    The planning and execution of Super Bowl XLIII is notable for a 
variety of reasons, most importantly for its use of current assets and 
relationships to provide adequate security for a National event. Due to 
the unexpected economic downturn that occurred in 2009, the Mayor of 
Tampa mandated that no additional funds could be expended for Super 
Bowl XLIII. Considering that previous Super Bowl venues such as 
Glendale, Arizona spent nearly $12 million on Super Bowl purchases, 
this funding constraint could have presented an astronomical challenge. 
However, because of the 6 years of UASI funding that had been invested 
in the Tampa Bay region, the Tampa Police Department was able to lead 
the region in the push to use only grant-funded, available regional 
resources towards the Super Bowl event. As such, the City spent less 
than $1 million on the Super Bowl, and the majority of that amount was 
spent on overtime pay for law enforcement officers. The Tampa Bay Area 
was able to effectively utilize the grant-funded equipment and assets 
already in place within the region to the extent that new purchases 
were not made.
    In today's world, hospitals play a major role in consequence 
management and are an important piece of Critical Infrastructure.
  <bullet> Tampa General Hospital is the only Level I Trauma Center on 
        the West Coast of Florida.
  <bullet> St Joseph's Hospital and Bay Front Hospital are Level II 
        Trauma Centers.
  <bullet> All facilities are Tier 1 Response facilities.
    Primarily the security upgrades included enhanced closed circuit 
television (CCTV) coverage and upgrading the existing systems to 
digital with alarm and event triggering. These upgrades were identified 
as a result of vulnerability assessments conducted by UASI in 2006.
    These upgrades have allowed these facilities to have greater 
surveillance of their particular campuses. Strategically placing the 
cameras helps to help to prevent crimes and break-ins and also allow 
operators to watch for troubled patients and monitor for unauthorized 
visitors in restricted areas from centralized stations. Surveillance 
cameras can provide invaluable visual evidence for investigations of 
criminal activity and other specific events that have taken place 
within or around health care facilities.
    Should a mass casualty event occur, the surge of patients could be 
overwhelming to a facility and require restricted access to allow for 
timely treatment of victims as well as additional protection measures. 
CCTV systems allow our trauma centers to quickly lockdown a facility 
and reduce the number of manpower necessary to monitor external 
entrances and other critical areas. By pinpointing exact locations of 
an incident security protocol response time is dramatically reduced and 
patient/staff safety greatly enhanced.
    As the Tampa Bay area hosts many major National events that draw 
very large crowds, the use of the CCTV systems has become a major 
factor in response and recovery plans for the health and medical system 
of the area. Major sporting, political, and entertainment events that 
attract large crowds all have the potential to become major mass 
casualty events. Planning for protection of our medical facilities is a 
key component of all response plans. These systems are used to monitor 
medical assets which have been permanently placed at some facilities as 
well as those that are temporarily staged in the area for a specific 
venue. For example, these systems received extensive use during the 
Super Bowl XLIII to monitor Federal medical assets from the Strategic 
National Stockpile at TGH and St Joseph's hospitals.

                  METROPOLITAN MEDICAL RESPONSE SYSTEM

    The Metropolitan Medical Response System (MMRS) Grant Program 
provides funding to support the integration of emergency management, 
health, and medical systems into a coordinated response to mass 
casualty incidents caused by any hazard. Successful MMRS grantees 
reduce the consequences of a mass casualty incident during the initial 
period of a response by having augmented existing local operational 
response systems before an incident occurs.
    The Tampa Bay MMRS and St. Petersburg MMRS were established within 
the region in 2000. The MMRS is an operational system at the local 
level that was put in place to respond to terrorist incidents and/or 
other public health emergencies that create mass casualties or 
casualties requiring unique care capabilities. The Tampa Bay and St. 
Petersburg MMRS Programs are fully integrated within their respective 
communities and provide the hospitals, public health responders and 
other emergency management personnel with critical training and 
pharmaceuticals. Because of the MMRS funding this region has received, 
health care providers, both individual and institutions, have become 
more organized and work cooperatively in planning, training, and 
exercises. This program has funded critical pharmaceutical stockpiles 
for emergency responders, standardized decontamination equipment, and 
training for all hospitals and continues to provide hospital training 
for Weapons of Mass Destruction.
    The Tampa Bay Region recently sponsored a State-wide tabletop 
exercise for air medical resources. During the crisis that ensued 
during and after Hurricane Katrina, it was recognized that aeromedical 
resources were not efficiently and effectively integrated into the 
regional and Federal medical response for a disaster. This State-wide 
tabletop exercise was the first of its kind to address these critical 
issues, while paving the way for a coordinated medical response in our 
State. Meaningful collaborative training sessions would not have been 
possible without the much needed MMRS funding from the Federal 
Government.
    The MMRS also supports the Medical Reserve Corps (MRC) by providing 
qualified medical personnel from the throughout the State with the 
opportunity to volunteer during a disaster. Tampa has the largest MRC 
Program in the State of Florida. This dynamic program actively recruits 
current and retired medical professionals, as well as resident 
physicians from the University of South Florida. This program has 
received National recognition for their benchmark performance in to the 
Haiti Medical Refugee Mission. Without the MMRS Program, the 
coordinated response of all of the public and private health care 
partners could not individually accomplish what they can collectively 
as whole. By conducting a valid needs assessment, this area has been 
able to build a strong response system and team for the continuum of 
medical care. The support of the MMRS is critical to this region's 
medical response.

                               CONCLUSION

    Homeland Security Committee Chairman Peter King put it very 
eloquently when he bluntly warned that new proposed cuts from port, 
transit, and urban security assistance amount to an ``invitation to an 
attack.'' After all, are we trying to protect our citizens or hurt 
them? To cut grant funding to major cities is a horrible decision, but 
to cut grant funding to major cities before you even conduct a 
qualified threat assessment or analysis on use of past funding, is pure 
folly. Tampa Bay is a region that has a multitude of targets and 
vulnerabilities that if targeted, will have catastrophic impacts for a 
large sector of our population.
    Super-sized, larger cities like New York and Washington, DC have 
experienced the horrible result of sadistic planning by terror cells, 
but we find consistently that the majority of planning is done in the 
medium- to large-sized cities, such as those that make up Tampa Bay, 
Florida. The truth of the matter is that we cannot to cut the funding 
that has been so useful, so vital for this entire region. If funding is 
cut, then we will have no way to protect our residents who live, work 
and play among some of the country's most high-risk hazards and 
threats. Does a life in New York have more value than a life in Tampa 
Bay? No.
    We recognize that we are not the size of a New York City or a Los 
Angeles, but we are just as inclined to protect our citizens. We do not 
feel the same sense of undignified entitlement that other cities do, so 
we put our heads together and work extra hard to make certain that 
every dime, every penny in grant funds that we receive is well 
accounted for and put to good use. It is our sincere hope and 
expectation, that the members of Congress will continue the efforts of 
Congressman Hansen Clarke by pushing forward the amendment to preserve 
grant funding for urban areas such as Tampa Bay, Florida.

    Mr. Bilirakis. Thank you very much, appreciate it, thanks 
for the testimony.
    Now we will call on Ms. Carbone. You are recognized for 5 
minutes or so.

  STATEMENT OF LINDA JORGE CARBONE, CHIEF EXECUTIVE OFFICER, 
  TAMPA BAY CHAPTER & FLORIDA WEST COAST REGION, AMERICAN RED 
                             CROSS

    Ms. Carbone. Thank you, Mr. Chairman. Chairman Bilirakis 
and Ranking Member Clarke, thank you so much for having me 
today. I am honored to appear before you on behalf of the 
American Red Cross. My name is Linda Carbone, I am the chief 
executive officer of the Tampa Bay Chapter and Florida's West 
Coast Region of the American Red Cross.
    For more than 130 years, our Nation has relied on the 
American Red Cross in emergency situations. The Red Cross 
provides shelter, food, clothing, emotional, and other support 
to those impacted by disasters in communities across the 
country and around the world. We supply nearly half of the 
Nation's blood. We teach lifesaving skills to hundreds of 
thousands of people each year, and we provide support and 
invaluable resources to the members of the military and their 
families. Whether it is a hurricane or a heart attack, a call 
for blood or a call for help, the Red Cross is there when 
America needs us.
    The issue we are discussing today, ``Weathering the Storm: 
A State and Local Perspective on Emergency Management,'' is 
very important to the Red Cross and particularly important to 
me and my colleagues serving around the State of Florida. As we 
marked the beginning of the 2011 hurricane season last week, we 
especially appreciate your attention to this subject and are 
very grateful to those colleagues and partners working together 
to help Florida prepare for this hurricane season.
    I am sure you have read my remarks, so I will not go into 
them in detail, there is quite a bit of detail in there. But I 
would like to touch on some of the things that my colleagues 
have already talked about and in particular talk to you a 
little bit about the shelter situation and how important our 
community partnerships are in that and maybe some of the unique 
technologies that we use in social media and that type of 
thing.
    The American Red Cross is chief in sheltering our citizens 
in these times of disaster. Shelters often become a focal point 
for the interaction between disaster victims and the community 
at large. Certainly my colleague from Alabama can agree with 
that. They are a place of safety, often a place of refuge and 
comfort. When a family or an individual walks through the door 
of a shelter either operated or supported by the American Red 
Cross, they can expect food, a safe place to sleep, mental 
health support, functional and access services, and basic needs 
of health care and first aid. We do this in conjunction with 
our partners. It is very important that the Red Cross never 
does this alone, we do this in conjunction with our partners 
from FEMA, we do this in conjunction with our emergency 
partners. One of the things we are focusing on at that time is 
making sure that we are meeting all of the needs with regard to 
functional activities.
    As we look at this issue with our partners across the 
State, we are doing things like making sure we are reviewing 
our shelters for accessibility, making sure our staff, our 
shelter staff--mostly comprised of volunteers, 90 percent of 
what the Red Cross does is actually done by volunteers--get the 
proper training so that we can make sure people are safe and 
comfortable in our shelters. It might be a small thing such as 
access points and how our shelters are actually set up that can 
make a really big difference to a community in making sure that 
they actually feel comfortable in our shelters. We are focused 
on training and we are focused on working with our community 
partners to make sure that these needs are met.
    As my colleagues talked about, one of the many things that 
we are doing in a disaster, and really an important step, is 
using social media. What we have seen in our recent disasters, 
and certainly even in small disasters--we had nine tornadoes 
come through Florida on the 31st of March. What an important 
role social media can play. It is not just about getting our 
message out to the community, but it is also about listening. 
It is listening to what is happening in the community. One of 
the things we found is we need to make sure there is someone in 
our disaster operations center who is in fact listening to the 
social media channels, to the tweets that are going out, to 
Facebook sites and those types of things, so that when they are 
reporting areas of damage, we are sending our disaster 
assessment teams out there to make sure and to cover that as 
well.
    We certainly saw the impact of social media first in the 
Haiti situation. Social media was the very first place where 
that information about what had happened went viral. It helped 
us certainly raise significant awareness and funds to help us 
be able to fund the response in Haiti and we are still there 
today.
    Beyond that, social media is what the public expects of us 
in emergency response--69 percent of the public said they 
expect emergency responders to be monitoring social media sites 
and 74 percent said they expected people to come in less than 
an hour after they tweet or post a Facebook message about an 
emergency situation. Those numbers are staggering, and that 
means that we at the American Red Cross, a 130-year old 
organization, need to be very active in changes and very active 
in what we are doing to make sure that we are following it.
    Certainly, in Haiti, we experienced a very heartbreaking 
situation where people were sending messages about needing 
assistance and we were able to communicate that to some of the 
responders first on the scene, but we are working hard with our 
emergency managers locally, through FEMA, we are working hard 
with an organization called Tweak the Tweet to make sure we are 
able to share information with the State emergency operations 
centers and connect crisis social data with decision-makers who 
can act on it.
    My closing remarks--my fellow Floridians and I are 
privileged to live in one of the most beautiful places in the 
world. But because our waterways can turn to destructive surge 
zones, because our winds can blow awfully hard, we also know it 
is an awesome responsibility to ensure that Florida is one of 
the most prepared places on the planet. I am confident that the 
plans, processes, and most importantly the partnerships, the 
people that are here today, that we have in place with our 
Federal, State, local, non-profit, and private sector partners 
will result in a proud and strong response from Red Crossers in 
this region and around the country.
    Thank you so much for your time and attention. I would be 
happy to answer any questions.
    [The statement of Ms. Carbone follows:]

               Prepared Statement of Linda Jorge Carbone
                             June 10, 2011

    Chairman Bilirakis and distinguished Members of the subcommittee, I 
am honored to appear today on behalf of the American Red Cross. My name 
is Linda Carbone and I serve as the Chief Executive Officer of the 
Tampa Bay Chapter and Florida's West Coast Region of the American Red 
Cross.
    For more than 130 years, our Nation has relied on the American Red 
Cross in emergency situations. The Red Cross provides shelter, food, 
clothing, emotional, and other support to those impacted by disasters 
in communities across the country and around the world. We supply 
nearly half of the Nation's blood. We teach lifesaving skills to 
hundreds of thousands of people each year, and we support and provide 
invaluable resources to the members of the military and their families. 
Whether it is a hurricane or a heart attack, a call for blood or a call 
for help, the Red Cross is there when America needs us.
    The issue we are discussing today, ``Weathering the Storm: A State 
and Local Perspective on Emergency Management,'' is very important to 
the American Red Cross and particularly important to me and my 
colleagues serving in the State of Florida. As we mark the beginning of 
the 2011 Hurricane season last week, we especially appreciate your 
attention to this subject and are grateful to those colleagues and 
partners working together to help prepare Florida for this hurricane 
season.
    Allow me to begin by saying this: The American Red Cross stands 
ready to respond to the 2011 hurricane season. We have reviewed and 
studied what we did well in the recent seasons, addressed any 
challenges, and improved upon our successes. Although we've been 
fortunate to avoid the impact of a tropical system on our soil in the 
past few years, we've gained valuable experience for our paid and 
volunteer staff by deploying them to disasters around the country, most 
especially the recent spring storms across much of the southeast. We 
have also taken a hard look at those areas where we must continue to 
improve our response and we've identified and addressed shortcomings. 
From a Florida tropics perspective, Tropical Storm Fay affected the 
majority of Florida counties in the 2008 hurricane season. Over 1,400 
Red Crossers came to the aid of affected Floridians and the vast 
majority of those volunteers came from our Florida Red Cross Chapters. 
We opened 118 shelters with 21,224 overnight stays and 372,919 meals 
and snacks.
    The American people can continue to rely upon the Red Cross to 
deliver our promise of neighbor helping neighbor. Our legendary corps 
of volunteers is well-trained and ready to help America. We are working 
closer than ever with our colleagues in the nonprofit, charitable, and 
faith-based communities to bring the message of preparedness to our 
communities and partner to coordinate the best response in times of 
emergency. We continue to improve our coordination with Federal, State, 
and local officials. Here in Florida, the partnership with State and 
County Emergency Management is very strong. From responding to single 
family fires to a major hurricane response, we keep our Emergency 
Management Partners informed and work alongside of them to serve 
disaster survivors.
    We have been participating with our Federal, State, community, and 
faith-based partners in State-wide and risk area planning. Red Cross 
representatives at all levels have been involved in planning with 
concentration on mass care, sheltering, and feeding, as well as family 
notification and reunification, post-disaster relocation, repatriation, 
update of the CEMP (Comprehensive Emergency Management Plan), case 
management, and evacuation workgroups.
    I am very pleased to share with you today our perspective on 
emergency management, our plans for the coming season and our 
rejuvenated sense of urgency as we address our goals. The next disaster 
may occur with little or no warning, as we have seen too often these 
past few months with the terrible tornadoes throughout the South, the 
Midwest, and even Massachusetts last week. Florida has deployed over 
450 trained volunteers and staff to these disasters since March 1, 
2011. These folks not only serve their fellow man, they come back to 
Florida better prepared to respond to Florida events. I want you to 
know that we do not wait each year for June 1 and the start of 
hurricane season to be ready for disaster response. The American Red 
Cross remains on guard each day, every day.

      AMERICAN RED CROSS SERVICES--WHAT WE DO IN TIMES OF DISASTER

    Our citizens rely on the American Red Cross to provide comfort and 
care during an emergency. Floridians in particular know that the 
American Red Cross will be there to provide the basics of food, 
shelter, and a shoulder to lean on in times of disaster. But it is 
important to know the details of these services and I would like to 
take a moment to expand on them.
    Sheltering.--Shelters often become a focal point for the 
interaction between disaster victims and the community at large. They 
are a place of safety, refuge, and comfort for many. When a family or 
individual walks through the door of a shelter operated or supported by 
the Red Cross, they can expect food, a safe place to sleep, mental 
health support, functional and access services, and basic first aid and 
health care. The Red Cross often uses congregate sheltering in 
facilities such as schools, churches, or other large facilities as 
shelters for individuals or families. Those shelters may be opened in 
anticipation of a disaster, during an evacuation, or after a disaster 
occurs. The Red Cross usually initiates sheltering activities in 
coordination with Government and/or emergency management or with other 
community organizations.
    In Florida, we are prepared to support and manage safe Hurricane 
Evacuation Centers, which really serve as a lifeboat, bringing bring 
people out of harm's way as well as shelters where we provide the types 
of services listed above.
    We coordinate our shelter operations with our Government partners. 
The State of Florida has adopted the American Red Cross National 
Shelter System as their official State Shelter Database. Subsequently, 
during a tropical event, through the Division of Emergency Management's 
website: floridadisaster.org, we are able to provide both responders 
and Floridians with a public site that can direct people to open 
shelters. In partnership with the Florida Department of Health, we also 
indicate any open Medical Needs shelters. We are committed to the 
important work of moving people out of the shelter environment and into 
transitional and long-term housing. This is where our communities truly 
depend on our partnerships with Federal, State, and local government.
    Feeding.--In addition to feeding efforts at shelters, the Red Cross 
also meets this basic need through mobile distribution and fixed 
feeding sites in affected areas for people who cannot travel to a 
shelter, those who choose to stay in their homes, or those cleaning up 
after a storm. Emergency workers or other groups providing disaster 
relief need meals as well and the local chapter or disaster relief 
operation can provide feeding services to those groups. Mobile feeding 
is critical to meeting the immediate needs of affected communities and 
establishing the presence of Red Cross relief efforts. Red Cross 
workers drive through damaged neighborhoods delivering meals, snacks, 
and beverages to people returning to and cleaning up damaged homes.
    Bulk Distribution.--In many disasters, essential items clients need 
to assist their recovery might not be immediately available in the 
local area. In such cases, the Red Cross distributes clean-up kits, 
shovels, insect repellant, sunscreen, toiletry items, or other things 
that may be needed. This may be accomplished through the establishment 
of fixed Emergency Aid Stations or mobile bulk distribution.
    Disaster Mental Health Services.--Red Cross workers provide mental 
health services wherever a client is in need. Our mental health workers 
are present at shelters, feeding sites, and emergency aid stations. 
They also travel with our Integrated Care Teams including caseworkers, 
and console families at hospitals and in disaster-affected 
neighborhoods where clean up and rebuilding is taking place. Red Cross 
mental health volunteers are licensed mental health professionals and 
often work with practitioners in the community.
    Client Casework.--Disaster victims often need the type of one-on-
one advocacy our caseworkers can provide. In the complex world of 
disasters, it is often hard to know where to get help and how to start 
on the road to recovery. Red Cross caseworkers are skilled in matching 
a client's needs with the resources available in the community and then 
advocating on behalf of the client to access those resources. 
Caseworkers can also help their clients with wellness issues such as 
replacing lost medication or damaged medical equipment.
    Safe and Well Information.--Red Cross workers help concerned family 
members communicate with their loved ones during an emergency. Within 
the disaster-affected area and through the use of tools like our Safe 
and Well website, the Red Cross helps individuals and family members to 
communicate with family and friends outside of the affected area.
    Outreach to People With Disabilities.--In developing mass care and 
sheltering capacity throughout the community, the American Red Cross 
has made it a priority Nation-wide to ensure that services and shelters 
are as accessible as possible to people with disabilities, as well as 
functional and access needs. Our Red Cross chapters work closely with 
their local Centers for Independent Living offices on disability issues 
as well other expert organizations. To that end we have been taking a 
number of steps including:
  <bullet> Reviewing all our shelters for accessibility.
  <bullet> Participating on the Policy and Analysis working groups with 
        our State partners to plan for Functional Needs Support 
        Services in shelters.
  <bullet> Working with other subject matter experts (including experts 
        from FEMA, State Emergency Management, our State Disability 
        Coordinator, and the State Department of Health) to identify 
        specific items that need to be available in shelters to make 
        them more accessible to people with disabilities. Based on 
        those recommendations, we have pre-stocked accessible cots, 
        shower stools, and commode chairs in some of our warehouses.
  <bullet> Focus on Training.--
    <bullet> Providing training developed by the American Red Cross in 
            conjunction with our State Disability Coordinator to Red 
            Cross chapters, the Florida Association of Centers for 
            Independent Living and local Emergency Management in order 
            that they might be able to survey a building for 
            accessibility and compliance with all ADA regulations.
    <bullet> With the Department of Health, Emergency Management, and 
            Florida State University we are developing training for 
            shelter workers on how to provide functional and access 
            services to shelter residents. This training will be out in 
            the next few months.

                            DIVERSITY ISSUES

    We carefully analyze the demographics of our very diverse State in 
our response planning. From our training to our casework to public 
messaging, we offer materials in Spanish and much of it also in Creole. 
With our other chapter partners, we are working to coordinate and 
expand our language bank and other diverse language resources to be 
sure that we have the capacity to effectively communicate with those 
with limited skills in English.

         GOVERNMENT, NONPROFIT, AND OTHER PARTNER COLLABORATION

    In Florida, as is the case across the country, the American Red 
Cross staffs the State and local Emergency Operation Center(s) (EOC) 
with Red Cross Government Liaisons who collaborate with their 
Government and non-profit agency counterparts. This staffing provides a 
direct link between the Government agency most directly responsible for 
the event and the Red Cross and the resources that we can bring to 
support that Government agency.
    The Red Cross takes a lead role in actively working with the local 
VOADs (Voluntary Organizations Active in Disaster), which are 
coalitions of voluntary agencies that meet regularly to ensure a 
coordinated community response that addresses the needs of victims and 
minimizes overlap of services in the event of a disaster.
    To ensure effective disaster readiness and response, the Red Cross 
has established relationships with partner community agencies. While 
our National headquarters seeks out and negotiates partnerships with 
National-level agencies and organizations, our local chapters make 
those partnerships come alive by establishing and nurturing local 
relationships. Besides the VOAD partnerships, we look to AmeriCorps, 
CERT (Community Emergency Response Teams), the Florida General Baptist 
Association, the NAACP, and many other faith-based groups in times of 
disaster.

     SOCIAL MEDIA: A NEW TOOL IN DISASTER PREPAREDNESS AND RESPONSE

    The American Red Cross is a 130-year-old organization, and the 
tools we use to respond to disasters have evolved over the years. 
Perhaps the most exciting innovations are social technologies because 
they allow us to listen to and engage with the public as never before.
    We saw this with our fundraising efforts during Haiti. When we 
rolled out our mobile giving campaign, Text HAITI to 90999, it was the 
social media community who took it viral. In the first 48 hours, there 
were 2.3 million re-tweets of our Text number as people sent it to 
their networks of followers. Before long, we had raised $32 million 
dollars via text--$10 at a time. And 42 percent of our text donors were 
under the age of 34.
    We saw the same phenomenon with Japan. The earthquake happened at 
2:47 a.m. east coast time in the United States, and in hours, our text 
number was trending on Twitter. Social media communities were already 
way ahead of us.
    But new technologies are not just helping us fundraise; they are 
becoming part of our operational DNA.
    In Haiti, we sent out 4 million text messages to Haitians about the 
symptoms of cholera and how to prevent and treat it.
    Here at home, we have built a dynamic shelter map using Google maps 
to update our open shelter information. We provide this information to 
the public on our website and have built an iPhone app so people can 
find a shelter on their mobile phone.
    We are also helping families connect in those first hours after 
disaster strikes through our Safe and Well website, where people can 
post their whereabouts and update their Facebook and Twitter status.
    We are training Red Cross volunteers who deploy to disasters to use 
their smart phones and social media to let people know where they can 
go to find shelter, food, and other services. And we are creating a new 
digital volunteer role where volunteers can help us monitor, 
authenticate, and route incoming disaster requests without ever leaving 
their homes.
    We know that in a crisis, people turn to the communications tools 
they are familiar with every day, and disaster response and relief 
agencies must do the same.
    An American Red Cross survey last year found that more web users 
get emergency information from social media than from a NOAA weather 
radio, Government website, or emergency text message system. And not 
only are they seeking information, they are sharing it. One in five 
social media users report posting eyewitness accounts of emergency 
events. If someone else is in need, they are enlisting their social 
networks to help or using Facebook and Twitter to notify response 
agencies.
    And, they expect us to be listening and responding.
  <bullet> 69% said that emergency responders should be monitoring 
        social media sites.
  <bullet> 74% expected help to come less than an hour after their 
        tweet or Facebook post.
    These are very high expectations. But today, they don't match 
reality. Most disaster responders are still not staffed to monitor or 
respond to requests via social media during major events.
    At the Red Cross, we experienced a heartbreaking situation after 
the earthquake in Haiti when we began receiving tweets from people 
trapped under collapsed buildings. We didn't have a good way to handle 
those pleas for help. We had to go through the messages manually and 
try to route them to the right places. In some cases, it was too late.
    While we won't solve these issues today, we are making progress in 
collaboration with our partners as we're seeing in the spring storms. 
People affected by recent tornadoes are posting urgent needs at an on-
line gathering point. Working with an organization called Tweak the 
Tweet, as well as with FEMA and Crisis Commons, we are able to share 
this information with the State Emergency Operations Centers and 
connect crisis social data with decision-makers who can act on it.

                   AMERICAN RED CROSS: READY FOR 2011

    In our efforts to continuously prepare for the coming season, I am 
pleased to share our on-going efforts with you:
  <bullet> Supplies.--We have expanded pre-positioning supply inventory 
        to support feeding and sheltering for 500,000 people.
  <bullet> Technological Improvements.--We have upgraded our IT systems 
        to improve greater controls over financial management and can 
        more easily share shelter and client information with our 
        partners.
  <bullet> Improved Relationships.--Our Disaster Field Structure is 
        aligned by State and provides a point of contact and 
        integration of plans with other Federal and State officials 
        across the country. We rely upon this robust network to provide 
        field support, performance improvement, strategic project 
        management, and Federal disaster relations.
  <bullet> Communications.--We have pre-positioned communications 
        equipment and supplies in 48 cities in high-risk States 
        including Florida.
  <bullet> Logistics.--We have built a more effective logistics supply 
        chain and inventory control system and are more engaged with 
        NORTHCOM, the Defense Logistics Agency (DLA) and FEMA's 
        logistics teams.
  <bullet> Volunteers.--We have more than 80,000 people in disaster 
        response database, 93% of which are volunteers.
  <bullet> There are other improvements post-Katrina that will ensure 
        improved response from the Red Cross to those we serve, 
        including:
    <bullet> Creation of the National Shelter System;
    <bullet> Enhancements to the Coordinated Assistance Network (CAN);
    <bullet> Better coordination with other non-profit partners and 
            agencies;
    <bullet> Refinements to the Safe and Well website;
    <bullet> Redesign of the Shelter Intake Form in conjunction with 
            DHS to better evaluate health needs of shelter residents.

                            CLOSING REMARKS

    My fellow Floridians and I are privileged to live in one of the 
most beautiful places in the world. But because our beautiful waterways 
can turn into destructive surge zones and our winds can be some of the 
hard and fastest in the country, we also know it is an awesome 
responsibility to ensure that Florida is one the most prepared places 
on the planet. I am confident that the plans, processes, and 
partnerships that we have in place with our Federal, State, local, non-
profit, and private sector partners will result in a proud and strong 
response from Red Crossers in this region and around the country.
    Thank you for your time and attention. I would be happy to answer 
any questions you may have.

    Mr. Bilirakis. Thank you very much, Ms. Carbone. You do 
wonderful work.
    Ms. Carbone. Thank you.
    Mr. Bilirakis. All right, my first question--I will 
recognize myself for 5 minutes or so for questions. We will go 
back and forth, if that is okay with you.
    Mr. Clarke of Michigan. Yes.
    Mr. Bilirakis. October marks--this is for all the 
witnesses, anyone that wants to respond--October marks the 5-
year anniversary of the enactment of the Post-Katrina Emergency 
Management Reform Act. By all accounts, FEMA has made great 
strides--that is what I hear--since Hurricane Katrina, and 
today's FEMA is far more nimble and forward-thinking. I am 
interested in your assessment on FEMA's current capabilities. 
What is working well with FEMA, what is not working? How can we 
do better?
    We are going to have a hearing this fall and I am going to 
question FEMA on these particular issues, so I welcome your 
input. What changes do you believe are necessary to further 
enhance FEMA's disaster preparedness on the response 
capabilities side?
    Why don't we go ahead and start right here with Ms. Willis, 
if you would like to respond.
    Ms. Willis. Well, here in the Tampa Bay area, we have not 
had to experience what the gentleman from Alabama has had to 
experience with FEMA. However, that being said, we rely on 
their support to be there should the need occur.
    Mr. Bilirakis. Absolutely.
    Ms. Willis. We know that there have been a lot of changes 
to FEMA as a result primarily of Katrina, but several other 
instances where they were perceived as performing very poorly. 
Because of their willingness to listen, a lot of great strides 
have been made and we anticipate that should anything occur in 
the Tampa Bay area, we can rely on their support.
    We have been interacting with FEMA recently. They are going 
to provide us with technical support for any consequence 
management issues and hopefully we will not have the amount of 
casualties such as has been experienced in Alabama. 
Unfortunately, we are entering the hurricane season, so we are 
relying on FEMA to provide their expertise in that area as 
well.
    Mr. Bilirakis. Thank you.
    Ms. Carbone.
    Ms. Carbone. Mr. Chairman, you asked what FEMA is doing 
right, and I think one of the things they are really doing 
right is the partnership aspect. None of us stands alone in 
helping our communities recover and helping our communities 
when they need a safe place to stay. It is all about the 
partnerships. It is about the discussions you have before the 
storms, before they come, and it is about how you partner 
together. Certainly one of the things that the Red Cross has 
done in Alabama that has been very successful is a very close 
partnership with FEMA in sending a care team out to the 
community, so you have one place to go or that the people come 
to you, and it is getting them mental health assistance at the 
same time maybe that we are sending food out into a community 
or that type of thing. It is really about our citizens and the 
people who have been impacted by disasters getting the most 
assistance in the shortest amount of time. I think that is one 
place that we have really seen FEMA step up to the plate and 
improve. It is about those partnerships and the discussions 
that we have ahead of time about what everyone's role is, about 
what our capabilities are, about how we can meet the needs of 
citizens in their stressful time.
    So I have very high confidence in FEMA's assistance in 
Alabama, and what I hear from my colleagues across the country 
as well.
    Mr. Bilirakis. Yeah, I noticed, Mr. Russell, you said that 
in your testimony as well. Can you elaborate on that? What was 
done well, can we learn from your experience?
    Mr. Russell. Yes, sir. One thing that we found right off 
the bat, 3 days into the storm, I had a FEMA liaison in my 
county and things started happening. That had not happened for 
a long time.
    Mr. Bilirakis. That made a huge difference, is that 
correct?
    Mr. Russell. It absolutely did.
    Mr. Bilirakis. FEMA did not have a liaison in New Orleans, 
did they?
    Mr. Russell. Not in 3 days.
    Mr. Bilirakis. Go ahead, I am sorry.
    Mr. Russell. I worked Hurricane Ivan, Hurricane Katrina, 
Hurricane Rita, Hurricane Gustav. This is the best response I 
have seen from FEMA. Seems like FEMA has a little bit more 
autonomy than they have had in the past. The people that came 
in were not inexperienced, they knew what they were doing, they 
knew what they needed to do. They are working well with the 
Corps of Engineers, something we had not seen before. I am 
really just impressed with them.
    Mr. Bilirakis. Thank you, sir.
    Mr. Smith, would you like to respond?
    Mr. Smith. Yes, sir. I will echo what everyone said, I do 
believe that they are making the changes that are necessary, 
that were requested, and why we had to have this legislation to 
reform. I do like the fact that they have qualified emergency 
managers and senior leadership. That is key, so that when I am 
talking to somebody, they understand exactly what I am talking 
about. It is not an appointment-type thing, political 
appointment. It is somebody that is actually qualified and has 
had some experiences in dealing with it.
    On that point, the National response framework talks about 
having a principal Federal official for Incidents of National 
Significance and then you have the Federal coordinating officer 
under the Stafford Act. We saw significant challenges with that 
principal Federal official concept with Deepwater Horizon. Now, 
that is not FEMA's fault, that is the DHS' philosophy about how 
they wanted to go about doing that. We also recognize that some 
of these laws, some of the HHS things for the Haitian 
repatriation are not FEMA. FEMA does get involved with trying 
to help us coordinate things a little bit. But like the 
Deepwater Horizon, they were nowhere near. We were not dealing 
with the Stafford Act, so we were not dealing with that type of 
reimbursement philosophy, and that created some real 
challenges, specifically for all of us. FEMA is making those 
changes in the Stafford Act. I was very interested in what Mr. 
Russell was talking about, speeding up the Hazard Mitigation 
Grant Program. We had to wait a year to get funding for a new 
emergency notification system. So we are excited about that, 
that is very good news.
    I am glad to hear that he is talking about that they are 
leaving people in there, because one of the practices that FEMA 
had been using was disaster assistance employees. That I think 
goes back to a lot of the stuff about recoupment, where you had 
one person coming in and telling you one piece of policy and 
they were not trained as well as the next one that came in and 
said oh, no, you cannot do it that way. When you put the train 
in motion, it is kind of difficult to stop it. So being able to 
do that.
    Like I mentioned before, I am very happy with the new 
training, I am excited to hear about the EM Academy, Emergency 
Management Academy. I would like to see how we can duplicate 
some of that and hoping that that will be duplicated at the 
local level. EMI is kind of far away for us to go and they are 
offering it over the summer, which there is not really anybody 
in Florida that can take the time off to complete that, but 
there are--I see progress.
    Working with volunteers, their emphasis on the volunteers 
and the whole community. That is something that Craig had 
worked with us here in Florida on. You know, he had a strong 
relationship with Volunteer Florida and the VOAD here. So we 
have incorporated a lot of that already in Florida about how we 
are working that and working with our non-Governmental agencies 
and faith-based to pull them in, so I am happy to see that.
    From the staff that I dealt with--Mr. Russell talks about a 
liaison in your county. I had Linda Lowe, she showed up that 
Friday--no, excuse me, it happened on Friday morning, she 
showed up Saturday. That was phenomenal. So bringing that 
person in and being able to talk directly to that FEMA liaison 
is very important.
    Mr. Bilirakis. Okay, thank you very much.
    Does anyone else wish to respond here?
    Ms. Dragani. I have a couple of comments I want to make 
about positive changes, but also a couple of cautions as well.
    A couple of things FEMA has done recently that I think are 
very productive is they are really trying to get at how we 
measure outcome, how do we measure improvement, both with the 
Emergency Management Performance Grant and the Homeland 
Security Grant Program. That is not an easy task because how we 
do it in Ohio works in Ohio. It is going to be entirely 
different in Florida and it is going to be different at the 
local level. They are working very hard collectively on how do 
we get at measuring improvement and what does Congress, what 
does the American citizenry get for the dollars that we are 
spending in this program. I applaud FEMA for really diligently 
working on how we get there.
    A couple of other things. We talked kind of around about 
this focus on bringing everyone to the table. Craig would say 
the whole of community, but bringing everyone to the table and 
making everyone part of the solution. One of the most important 
areas is bringing the private sector to the table as a true 
partner. Not as a ``Wal-Mart, what can you give us?'' but 
``Wal-Mart, what can we give back to you so that you can get 
your doors open faster and we get the community to recover 
faster?'' It is a real sea change in the way historically the 
emergency management community has worked with our private 
sector partners.
    They are leaning forward, I think that is evident in what 
we heard from Mr. Russell. They are really engaged in being 
there early and go big, go fast, get the boots on the ground, 
and then we can pull back--deploy fast and then correct as 
needed. That is also an important change I think in the speed 
of their response and the effectiveness of their response.
    Then one last improvement that I think goes to what Mr. 
Smith said, for years the system of emergency management, the 
profession of emergency management kind of languished. 
Universities and colleges really view emergency management as a 
system, but internally to FEMA, EMI was not really a priority, 
training of both FEMA professionals as well as State and local 
professionals was also not a priority. FEMA is really 
intentionally taking a look at that. How can we grow the 
profession at all levels? They are looking at EMI, they are 
looking at embedding some of their own staff in State and local 
programs, because when you live it and you work it at the local 
level and State level, you will go back to Washington with a 
much better understanding of how you operate.
    Final improvement, and then I do have a couple of cautions, 
the National Advisory Council, I am on my second 3-year 
appointment. The first 3 years were a little bit tough, we 
really did not know what the goal was, what the purpose was. 
But I just came back from Los Angeles from a meeting with the 
National Advisory Council and between FEMA's engagement and the 
Council itself, I think we are positioned now to really provide 
some advice and counsel to the Federal Emergency Management 
Agency.
    Two quick cautions. In the effort to lean forward, FEMA 
needs to be careful about the down-range impact. Some of the 
effects that Mr. Smith's constituents are facing, that my 
constituents are facing, are the result of an effort to get 
money out fast post-disaster, which is great until you are 
audited 6 years later and somebody determines that the money 
did not go out correctly and now we have to recoup the money 
from either Government or citizens. So making sure that we are 
looking at the entire effects of a program decision and not 
just how it will benefit us this year, but how it will affect 
us in 5 or 6 years, I think is a caution that I would have as 
we look at revamping these programs.
    The final caution I would have, and I think Mr. Smith 
brought this up, is encouraging FEMA to continue to make sure 
that they are engaging State and local partners as they relook 
at these programs. Sometimes there is a motivation to get it 
done and we appreciate that, but they need to get it done in 
concert with their partners. They are good at that, but it is 
just a continuing request I think.
    Thank you.
    Mr. Bilirakis. Mr. Koon, what improvements can FEMA make?
    Mr. Koon. I think, first of all, they do have an excellent 
core of individuals there, qualified emergency managers, who 
are forward leaning and changing the paradigm from what we saw 
prior to Hurricane Katrina, ensuring that the right partners 
are engaged.
    I think one recommendation I would have for improvement is 
something they have already embarked upon, which is ensuring 
that the processes that they utilize are appropriate. They have 
begun a bottom-up review of their recovery programs and some 
other programs as well, to ensure that they are meeting the 
needs without being overly bureaucratic or cumbersome.
    While they have streamlined many of their processes on the 
response phase, we still have a way to go on the blue sky 
portions of the administration. They are in recovery and 
mitigation. Sometimes the appearance during audits and other 
program closeouts is that they are spending a dollar to track 
down a dime in those cases, and so we might want to take a look 
at those as well, to ensure that we are utilizing our scarce 
human resources appropriately in the agency.
    Mr. Bilirakis. Very good, thank you.
    Next question and then I will turn to Hansen. Well, the 
Mayor is here, Mayor Hibbard from the City of Clearwater. Do 
you want to say a couple of words?

   STATEMENT OF THE HONORABLE FRANK HIBBARD, MAYOR, CITY OF 
                      CLEARWATER, FLORIDA

    Mr. Hibbard. Thank you, Congressman. It is our great 
pleasure to have you here in the City of Clearwater. Nice to 
see you again. We appreciate you coming here.
    Obviously we are at heightened awareness right now as we 
have entered hurricane season here. We are always trying to 
make certain that our citizens are prepared. We get a little 
bit lax when we have not had landfall of a storm in so many 
years. So that is always a challenge for us, but we have 
wonderful emergency managers in our area and also in our State.
    So I appreciate the fact that you are having this hearing 
and continuing to focus on best practices. I can tell you in 
2004, we did have a very positive experience with FEMA as we 
were being reimbursed for much of the clean-up from Charlie 
that we experienced. But I think it is critically important 
that we keep our eye on the ball and not just for hurricanes 
but all natural disasters.
    Sorry I was not here to greet you at the beginning of the 
meeting, we had a groundbreaking for our aquarium, which is a 
big deal for our city. You will be seeing it in a major motion 
picture called ``Dolphin's Tale,'' about a dolphin and if you 
have kids, you are going to be going to the movie, I can 
guarantee it. But it will be coming out in September starring 
Harry Connick, Jr. and Kris Kristofferson and Morgan Freeman, 
Ashley Judd. So it is going to be a great hit and it is going--
unfortunately, Clearwater is featured in it and there is a 
hurricane in the movie, which we have not had one here, a 
direct hit, since 1921, but we will deal with the rest of the 
publicity. We think it is a great thing.
    But thank you for all your work, we certainly appreciate 
your diligence and are appreciative of you having this hearing 
here in Clearwater.
    Mr. Bilirakis. Thank you for all your good work as well.
    Mr. Hibbard. God bless.
    Mr. Bilirakis. God bless you.
    On that topic, how can we better engage the public in 
developing a culture of preparedness? Why don't we start on 
this side, please.
    Ms. Dragani. I had an epiphany watching the former FEMA 
administrator, watching a YouTube video that Dave Paulison did 
and some of you may have seen it, where he walked around his 
house and showed a full pantry and talked about how his wife 
restocked the pantry on a regular basis so that he had 3 days 
worth of food. He showed the hurricane shutters in his garage 
and where he kept the duct tape and the plastic and all of the 
things that he needed to prepare. It caused me personally to 
rethink some of the messages we give our public. I think we 
need to take a look at what we are telling the public to do and 
determine whether or not we are asking them to do things that 
make sense in today's culture, that people can afford to do, 
that people can do realistically and legitimately so that we 
can actually move the needle on how people are preparing and 
how many people are preparing.
    Mr. Bilirakis. Thank you very much. Anyone else want to 
comment on that? Yes, sir.
    Mr. Koon. Mr. Chairman, there are several things we can do. 
I think one of the primary things that we can do to help 
encourage a more prepared public is to help, as Ms. Dragani 
said, set the expectations. Help them understand what is 
actually going to occur or what could occur during a disaster. 
Help them understand the process that goes on in getting food, 
water, other lifesaving commodities to an area. Also, help them 
understand the cost involved with that, that this is not 
raining from the sky, this is a substantial cost to Government 
and other entities involved with that. I think that the process 
that FEMA has undertaken with the whole community will help us 
get there.
    I think we should approach it in a positive way so that 
citizens understand how they can contribute to the overall 
success after a disaster and response effort, empower them to 
help take care of their friends and neighbors who may not be 
able to take care of themselves.
    I think we should continue to re-evaluate where we are as a 
society with regard to preparation. I had the occasion 
yesterday to meet with representatives from the Taiwanese 
National Fire Association, an extremely prepared nation, but 
one whose apartments do not lend themselves well to maintaining 
a gallon of water per person per day. So we should take a look 
at those other cultures, other societies, to see how they are 
preparing and help to understand how we can utilize those 
messages in Florida and across the Nation.
    Finally, I think we need to ensure that we change up our 
tack when we talk to citizens about preparedness. You know, we 
hammer them over the head, at least I do, time and time again 
with prepare, prepare, prepare. The CDC recently came out with 
here is how you prepare for a zombie attack. Which got the 
message across but in a slightly humorous way and allowed 
people to think about it in an outside-of-the-box way. So I 
think we should continue to make sure that we evaluate the way 
in which we give messages to the public.
    Mr. Bilirakis. Thank you. Anyone else? You are recognized, 
Ms. Carbone.
    Ms. Carbone. Thank you very much.
    The message of preparedness is something the Red Cross does 
every single day, and it is so very important, you cannot be 
too scared tactic. We have done the same YouTube video of what 
you have in your house that you can get together in your 
emergency kit and it is a continuing message that honestly the 
public needs to hear in stereo sound, which is one of the 
reasons I am so grateful that you have this hearing today, 
because it has to come from all different sectors. Certainly 
the Red Cross can be a good partner in that. It is also 
important who we are reaching. One of the things we do as the 
Red Cross is continually message to our youth. The zombie 
campaign is something that was really clever and cute as well. 
But getting our youth involved, maybe even in a school setting, 
so that we are talking to them about preparedness and giving 
them messages that they can bring home, homework for their 
parents, as it were, that they can do together as a family. It 
does not have to be super expensive, you can use a lot of 
things you have in the house. Maybe there is a list that you 
can go through and add one extra thing in your grocery cart 
every week for a few weeks or something like that.
    Mr. Bilirakis. Great suggestion.
    Ms. Carbone. The key is really just to be consistently on 
that message and to give it every chance that we can about 
being prepared in the community. What we recognize is the more 
prepared our community is, the more resilient our community is 
going to be. It is no single entity's responsibility, it is all 
of us together coming forth, being as prepared as we can.
    Mr. Bilirakis. Very good. Anything further?
    Mr. Russell. Yes, sir.
    Mr. Bilirakis. You are recognized.
    Mr. Russell. In Alabama, we have a program called ``Be 
Ready Camp for Kids.'' It is at the U.S. Space and Rocket 
Center in Huntsville every year. We train about between 300 and 
500 kids every year, they are fifth-graders. We bring them in 
there and they go through the CERT training, they learn first 
aid, they learn everything about how to respond, even a little 
bit of disaster psychology. They end with an exercise, they 
actually have pyrotechnics out there and the kids, you know, 
they have moulaged victims. In our community, we provide about 
100, 120 volunteers who go out and shadow the kids as they are 
going through this exercise. The thing is they are fifth-
graders. I remember when I was a kid we had ``Duck and Cover'' 
and everybody that lived back in that time knows what I am 
talking about. It was in the schools, it was taught, it was 
part of the curriculum and we were prepared. Thank God, we 
never had to do any of that, but we were prepared to do that. 
It is not part of the society today, preparedness is not part 
of our culture and we need to bring that back.
    Mr. Bilirakis. Absolutely. Yes, sir.
    Mr. Smith. Thank you. I think one of the things, as you 
mentioned in your opening remarks, about the changes in what we 
have seen, Congressman Clarke, in the Newsweek article. We see 
that it seems as though Mother Nature is angry and that will 
get the attention of the public. One of the things that Craig 
started here in Florida and that we have incorporated is 
changing the mindset of do not refer to people as victims, 
refer to them as survivors. A survivor gives you the mental 
stimulus that you will get through whatever it is that happened 
to you, and that you are a survivor and you can make it. So 
that gives you that psychological edge to get through that.
    The other thing is, you know, on the local level, I work on 
my local elected officials. Any time that they can get into the 
newspaper or they get in front of the media, any time they are 
talking about something, even when they are talking about 
economic development. You know, we talk about--the Small 
Business Administration will talk about the number of small 
businesses that will never open up again if they are not 
prepared and are closed during a disaster. So we have got to 
work on that type of thing when we do bring the businesses into 
the community, and yes, we have got to have the big stores or 
the big suppliers. But I need mom and pop because I need mom 
and pop to be working and back to work so that they can 
generate revenue to keep our local economy going. So that is 
one of the things we push on, is to work with our business 
incubators locally to try to get them to be involved with what 
is going on too.
    Mr. Bilirakis. Thank you very much.
    I will now ask the Ranking Member if he has any questions. 
You are recognized for the same amount of time that I used.
    Mr. Clarke of Michigan. Well, thank you, Mr. Chairman. 
Thanks for the equal treatment. You know we Democrats do not 
usually get that in the House of Representatives.
    [Laughter.]
    Mr. Clarke of Michigan. But here on this subcommittee, I 
do, so thank you again.
    My questions are really for anybody. The Emergency 
Management Performance Grants, have many of your communities 
had a tough time meeting that 50 percent match? Is that an 
issue?
    Mr. Smith. In Florida, sir, we have, as we mentioned the 
Emergency Management Preparedness Assistance Trust Fund. We are 
able to be able to utilize that as a global match most of the 
time. However, the locals do have problems with that. We have 
seen a reduction in the local general fund allocation across 
the State. However, in the EMPA, that is because it is non-
Federal revenue, we are able to be able to meet those matches, 
so luckily we have not had that specific issue although there 
are counties that have had maybe return some EMPA money to the 
State for reallocation because of budget cuts and they were not 
able to meet--they were not allowed to spend that, as a 
reduction process within their own community.
    Mr. Clarke of Michigan. Your trust fund is through a fee on 
insurance policies?
    Mr. Smith. Yes, sir, on your homeowner's insurance, there 
is a $10.00 fee and then for business insurance policies, a 
$4.00 fee. However, we are struggling with that quite a bit 
with the Department of Revenue because the allocation has not 
changed since 1994. We have grown just a little bit more in 
Florida since 1994, so I imagine there are a few more insurance 
policies that have been written.
    Mr. Clarke of Michigan. Do you know just roughly how much 
is raised in that area?
    Mr. Smith. Probably about $15 million a year.
    Mr. Clarke of Michigan. Do any of you have any thoughts if 
we should have a Federal dedicated public source? Do not worry 
about the policy.
    Ms. Willis. Okay, great. I would agree with that. I think 
realistically the match is somewhat of a hardship, especially 
in these economic times. For the most part, I know with the 
City of Tampa, if the grant match is too large, we are not 
allowed to even go after the grant. Now that could be 
supplemented by partnerships with the private sector and in-
kind funding. However, the realism of it is, just to be honest, 
is that match is too great, and that is just the way it is.
    Ms. Dragani. If I could offer a dissenting opinion. Ohio 
shares many of the same challenges that Michigan has right now. 
Yes, we have had probably a third of our 88 emergency 
management, county emergency management agencies, have a 
difficult time meeting the match. We have been able to 
reallocate that to other counties that can.
    The challenge, and I surveyed our county emergency managers 
a couple of years ago when it became evident that doing it with 
the local budget was going to be a problem, and asked them 
about whether it would be helpful to them if we picked up more 
of their match in a short-term fashion, to allow them to 
continue to receive the allocation. What my emergency 
management directors told me in Ohio was that to do that would 
long-term--it would have a long stream impact--they would lose 
their local funding because the local government tendency would 
be we do not have to fund that 50 percent any more. So there 
was real concern that if we reduce the 50/50 match, they will 
lose that attendant responsibility on the local level, and 
their budgets will decrease, it will be very difficult to get 
that 50/50 match back.
    So I guess I would offer that somewhat dissenting concern.
    Mr. Smith. No, no. We work the same way, when we take a 
reduction on the general fund, there is a formula, but if it 
meets a certain formula, we have to get a waiver from the State 
for them to be able to do that. That was written into the 
administrative rules years ago just because of that. Yes, I 
have last 2 years had to get a waiver. However, the ability--
that is a concern we have, but I do use that. I go, ``Hey, 
wait, wait, wait, I get this Federal money and I have to have 
this dollar-for-dollar match.'' So in the budget negotiations 
with the county manager, it does come in, it is very helpful to 
have that requirement.
    But I think your question was to find a specific funding 
source?
    Mr. Clarke of Michigan. That was one of my questions, yeah. 
I was looking at if we should look at a Federal dedicated 
funding source for EMPG. You know, especially in light of the 
fact that our needs may be dramatically more in the next couple 
of years. I see your point about having some type of 
maintenance or effort by the locals, but I wanted to get your 
advice on if we on the Federal side should look at a different 
way of funding EMPG and actually broadening the scope of that, 
either how it functions or in actual dollars.
    Mr. Bilirakis. Mr. Russell.
    Mr. Russell. I think the EMPG should be separated from the 
Homeland Security Grants. That is the first step.
    Mr. Clarke of Michigan. I hate to interrupt you, but NEMA 
has also mentioned that as a recommendation. So I am just 
curious, what is the concern there?
    Mr. Russell. Every year, the administration--or at least 
for the past few years, the changing administrations have 
always recommended a cut in EMPG. Congress has managed to 
actually enhance EMPG, which has helped us a lot. The 50 
percent match is the demonstration of the partnership. It is 
how the locals earn their part of the money. It is a spirit of 
partnership. Remember, it has been around for 50 years and it 
started out as a 50/50 match--State 25, local 25, Feds 50. That 
was a program approach and it has lasted for 50 years. I really 
do not think that a change in it would be beneficial right now.
    However, to mix it in with all the other homeland security 
grants, there is a danger that eventually it will lose its 
identity. When it loses its identity, it is going to change 
what it is doing now.
    Mr. Bilirakis. Mr. Smith, you wanted to add something?
    Mr. Smith. Yes, sir. The danger of having--and we fight 
this constantly sir, because we have the trust fund. The danger 
of having that--well, first off, it is extremely challenging. 
We were very fortunate that the Florida Insurance Council was 
not opposed to the idea. So that helped us a great deal.
    Mr. Clarke of Michigan. Yes, it did.
    Mr. Smith. They are a great partner of emergency 
management. The other thing is that when you do get that 
dedicated funding source, you become a target and you are 
evaluated constantly for that. There are others that when they 
come in--and that is the way our great republic works, is 
elected officials change and elected officials have different 
views on different things. We just recently in Florida had to 
deal with our trust fund being rolled completely into the 
general fund and being allocated a different way. The 
legislature saw the plight and decided not to go that way. 
However, that is some of the challenges we face with a 
dedicated funding source.
    I would highly encourage you, as NEMA, IAM, FEPA and I can 
guarantee you almost every other State EM association would say 
EMPA has to remain separate and I believe your committee was 
very involved in making sure that that occurs. Thank you.
    Ms. Dragani. To quickly add NEMA's perspective, and it 
really follows on to what Mr. Smith and Mr. Russell said. EMPG 
again is a 50/50 match. It allows us at all levels of 
government to fund people. Without the funding to be able to 
pay the salaries of the emergency managers at the State and 
local level, we do not have emergency management programs at 
the State and local level. That program also in turn is primary 
in administering things like the Urban Area Security Initiative 
grants, the Homeland Security grants, many of the other 
programs that come through other funding sources. So the 
emergency--if we do not have EMPG, I would suggest we do not 
have an emergency management system in the Nation, or with 
significantly--significantly--decreased capabilities Nation-
wide. It is really critical I think to the community that that 
program remain separate and it be allowed to do what it does 
currently.
    Mr. Clarke of Michigan. This is my last one. Many of you 
mentioned about the role of the private sector----
    Mr. Bilirakis. We will do another round.
    Mr. Clarke of Michigan. Oh, okay. The role of the private 
sector, whether it be for-profit or non-profit. My background, 
I used to work at the local county level in the bowels of the 
bureaucracy in acquisitions and purchasing. So that is why I 
always consider being a bureaucrat something that is not 
negative.
    I signed purchase orders for 6 years and also too, I 
understand how elected officials sometimes do not understand 
the importance of having clear procedures that are out there.
    Do you have any thoughts collectively on how FEMA can 
encourage the type of innovation that the private sector could 
provide FEMA as contractors or other partners? Ms. Dragani, do 
you see a role of the private sector in being able to offer 
innovation in how we respond to these disasters; and if so, 
second, how can FEMA best encourage it if you do not think they 
are doing that right now?
    Mr. Koon. Yes, sir, I believe they are encouraging it and I 
think we saw that start after Hurricane Katrina when both DHS 
and FEMA formed the private sector office. In my previous role 
at Wal-Mart, I had numerous and frequent engagements with both 
of those private sector offices. I hosted numerous Federal 
officials at Wal-Mart, at both our home offices as well as at 
our distribution centers and stores, so that they could 
benchmark how we were doing things.
    I think the best way to spur that innovation is to 
encourage FEMA to think like the private sector does, to think 
about streamlining their processes as much as possible, 
eliminating waste, and trying to return to normalcy quickly 
after an event. One of our goals as emergency managers is to 
put ourselves out of business as quickly as possible. We do not 
want to be the ones out there delivering food and water, we do 
not want to be the ones sheltering and housing people. We want 
the community to get back to operation as quickly as possible.
    The way that communities operate on a day-to-day basis, 
every single day, relies heavily upon the private sector. So in 
order to help replicate that, we want to think like they do and 
ensure that we are not adding steps into the process that 
should not be there, that we are streamlining as much as 
possible. Wherever possible, not trying to replicate or 
duplicate something that is already being done out there.
    So I think probably one of the best ways that FEMA can 
innovate is simply working with the private sector, working 
with businesses to give them that information to get them up 
on-line as quickly as possible, to prepare them ahead of time 
and help them understand the importance of preparedness, 
utilize the communications channels that they already have with 
their employees and with their customers to spread that message 
of preparedness. Then in the response phase, working with them 
to get the information so they can come back up on-line as 
quickly as possible, get people back to work, restore the tax 
base in that community, and then basically get things back to 
as normal as they can as quickly as possible.
    Mr. Smith. On that point, we have Florida statutes and as 
you know, there are Federal procurement guidelines that really 
prevent--and it also goes back to what Bryan said about 
spending a dollar to chase a dime. You know, FEMA is somewhat 
bound--their hands are tied because of Federal procurement 
rules, plus, you know, they have processes where they will 
say--debris collection is a perfect point. They want you to 
have a contract in place prior to the event. However, in my 
local state of emergency, I suspend my normal process for 
following all those rules. So let us just say I could not get a 
better price when I am at that 7 days before my state of 
emergency, suspending my rule. There is also the questions of--
and hopefully they are working through these at FEMA about 
well, why did you buy that? I am going to use Craig's comment 
and it is one he used quite a bit after the 2004 storms when he 
testified before Congress. ``It seemed like the right thing to 
do at the time.'' But that does not work for those people that 
come in to work closeouts or to review our FEMA--for FEMA's 
review of our expenditures. So there is that question and that 
is one of the things we need to work with them on. I know that 
coming from local government, I know their hands are tied on 
some of the things that they have to do. The Stafford Act 
requires them to do a lot of different things. So that is a 
challenge that we have. I would love to see some innovation and 
be able to work through some things, but my hands are tied on 
the local level. You know, I cannot go to a preferred vendor 
until I go out--depending on the price of it--go out and get a 
request for bids or request for quotes. I cannot get any 
construction company or any architect until I go out and do 
that, regardless.
    Mr. Clarke of Michigan. Is that because of your State and 
local rules?
    Mr. Smith. Right. Then FEMA says did you follow your 
State?--and different things like that. So there are some 
challenges.
    Mr. Clarke of Michigan. So how about if we gave you 
flexibility from your own State and local rules, procurement 
rules, in certain situations?
    Mr. Smith. I imagine that would be helpful. I think we 
would have to work with the AG's office on how we would be able 
to do that.
    Mr. Clarke of Michigan. You know, the other concern we 
have, in an emergency situation, vendors will jack up the price 
and that type of thing, so we have to safeguard. But what you 
are saying is if you had the flexibility to work quickly, 
contract quickly, you would be able to get a better job done?
    Mr. Smith. Well, yes, but going back, you have got to be 
careful about not just what satisfies us right now, but where 
we are at 5 years when we go through the audit. So that is some 
of the things we will have to look at.
    Ms. Willis. Not to interrupt, but I think there is a huge 
benefit in keeping the process formalized in terms of entering 
contracts. We are able to negotiate the costs ahead of time, 
which avoids litigation on the back end. So that benefits us to 
have those purchasing contracts for feeding, for anything that 
might be needed--for personal care, showers, whatever, all 
those things are negotiated ahead of time and that benefits not 
only the municipality but the county and I imagine the State as 
well.
    Mr. Clarke of Michigan. One question. Which level of 
government contracts, is it the local----
    Ms. Willis. Each one.
    Mr. Clarke of Michigan [continuing]. Or the State?
    Ms. Willis. Each one. City of Tampa has its own contracts 
and Hillsborough County has its contracts, the State has its 
contracts. If you imagine during Katrina what would have 
happened if all of the parishes shared the same vendors. That 
would have been an issue, right? They would have been 
struggling, I need them for this, we need them for that. They 
only have 25 front-end loaders; who gets them? So it benefits 
all of us to maintain separate contracts, because when a 
disaster happens, we do not want to argue over limited 
resources. Post-disaster, we do not want to come back and have 
all of these issues with improper spending or price gouging.
    Mr. Clarke of Michigan. Thank you.
    Mr. Bilirakis. Thank you. You will be recognized again for 
a second round.
    Mr. Clarke of Michigan. I believe Mr. Koon has something.
    Mr. Bilirakis. Oh, yeah, you would like to make a comment 
on that.
    Mr. Koon. Just two brief ones. I believe that the fear of 
price gouging after an event probably far outweighs the actual 
occurrence of it. I think you will find that the vast majority 
of businesses that are involved in that situation want to do 
the right thing and will not use it to take advantage of the 
situation.
    The second piece of it, there is an inherent cost of doing 
business with Government as a Government contractor, becoming 
involved in these types of situations. If you walked up and 
down the street right outside this building, you would find 
that the majority of businesses have no interest whatsoever in 
dealing with the Government.
    [Laughter.]
    Mr. Koon. Frankly, because it is too much of a headache and 
would cost them a fortune to do so. So we truly want to pursue 
a whole community effort in this and work on restoring these 
communities as quickly as possible. You have got to meet them 
on their terms, not try to get them to come to Government's 
terms when it comes to procuring their goods and services.
    Mr. Bilirakis. Thank you. Anyone else?
    [No response.]
    Mr. Bilirakis. Okay, I have a couple of questions.
    This question is for Ms. Carbone. Last month the Red Cross 
announced the Ready Rating Tool--I know you brought it up a 
little bit--to assist schools and businesses in their efforts 
to enhance their preparedness for natural disasters and 
terrorist attacks.
    What has the response been like and then also have the 
schools cooperated? Do we have any schools in the Tampa Bay 
area that, or businesses, that participate, in the Tampa Bay 
area? If you know, maybe the Detroit area as well.
    Ms. Carbone. The Ready Rating Program, Mr. Chairman, came 
out of a successful program that our St. Louis Chapter is 
working and so it has a long history of success.
    Basically, for those who are not familiar with it, it is an 
on-line tool now that a business or a school system can go on 
and rate your readiness to prepare for emergencies and respond 
to emergencies. It is a tool for businesses and also for 
schools. It has been very well received and what we have really 
tried to do over the past about year or year-and-a-half at the 
Red Cross is making it an easy tool to use, so that it is 
very--it is on-line now and it is a simple thing to do and it 
gives you specific suggestions. If you want to remain part of 
the Ready Rating Program, it may tell you, let us say for 
instance for your business, that you are at a certain level of 
readiness, but if you have four or five more employees that are 
trained in CPR or something like that, that you could meet that 
next level.
    It is a bit of a challenge to get it into our school 
systems here in Florida. Obviously they are very, very focused 
right now on meeting EPCAP requirements and those types of 
things. Although we have a similar program, which does meet 
curriculum, there is just a lot of pressure right now on our 
school systems. So what we are really trying to do in our 
school systems is work with them to bring the message to our 
youth and be able to do it that way. We do not have a 
particular school system in place. We do have a number of 
businesses that have expressed an interest in Ready Rating. 
There are local leaders at Coca-Cola and others in Florida that 
we have worked with and that are looking at it. They made the 
first step, they approached the American Red Cross to train 
some of their employees on CPR, that type of thing.
    But looking at it holistically as a business really is just 
taking that next step, taking that next step of preparedness. 
It is a great program, we are really hoping to get some muscle 
and meat behind it this year and really bring everyone's 
attention to it.
    I appreciate, Mr. Chairman, that you became aware of it and 
I think it is a great tool for us to really use to start people 
thinking about preparedness. Even more important, what is that 
next step concretely that I can take as a business to get my 
business prepared, as Mr. Koon mentioned, being able to come 
back and if you are more prepared for the emergency up front, 
you will be able to come back quicker. Then maybe also beyond 
that, it is about allowing your employees volunteer time so 
that they can get the information that they need and be out 
there in some of our volunteer communities and things like the 
American Red Cross.
    So it has met a lot of success around the country and we 
are hoping to really ramp it up further and be able to take 
those next steps with it in our communities.
    Mr. Bilirakis. Thank you. If we can be helpful, please let 
us know. I am sure Congressman Clarke would be helpful as well.
    Ms. Carbone. Thank you.
    Mr. Bilirakis. Administrator Fugate--this is for the entire 
panel to respond--has provided more authority to the 10 FEMA 
regions in an effort to decentralize the organization and make 
it more responsive. That is the key, that is the bottom line. 
Has this decentralization been effective, first? What changes, 
if any, would you recommend to maybe further strengthen FEMA's 
regions?
    Who would like to respond first?
    Ms. Dragani. I can start.
    Mr. Bilirakis. You are recognized.
    Ms. Dragani. Region V out of Chicago supports both Ohio as 
well as Michigan, Indiana, Illinois, Wisconsin, and Minnesota. 
Certainly some of the devolution, if you will, that FEMA has 
done from the National to the regions has been very productive. 
The disability coordinator, we did not have one previous to 
this. We have legal counsel in the region, which is important, 
there are legal counsel for each State. I think that it is a 
work in process, I do not think they are done yet. But 
certainly from a National Emergency Management Association 
perspective, we applaud their efforts to create--to push as 
much of the authority down to the regional administrator and 
his or her staff as possible. They are making strides to do 
that.
    Mr. Bilirakis. Okay. Tell me why?
    Ms. Dragani. Because the people in Chicago and Illinois 
have a much better understanding of the issues that face our 
region than somebody who has never lived in the Midwest. This 
really came up with the snow a couple of years ago and there 
was a new snow policy. Many of the people at FEMA were not from 
snow States, so they did not get it, they did not understand 
it, they did not think it was an issue. Then we had 
snowmageddon in Washington, DC and all of a sudden, snow became 
an issue that people could embrace.
    Mr. Bilirakis. Right.
    Ms. Dragani. So I think just having people in the region 
that actually understand the issues that are facing Michigan 
and Ohio and Indiana is really beneficial as we start to talk 
about the issues that impact us and you begin to develop plans, 
exercises, and training on a regional basis.
    Mr. Bilirakis. Makes sense to me.
    Mr. Koon.
    Mr. Koon. Congressman, I concur with Ms. Dragani. I would 
also add that the frequency of the interaction we have with the 
people at FEMA Region IV, which is our FEMA region, allows them 
to fully understand what our issues are. We can also engage 
them in our training and exercise program so that when the time 
comes, they know everybody on our team.
    Mr. Bilirakis. Anyone else? Yes, sir.
    Mr. Russell. I think for the most part, what they have done 
so far has been transferring to the local level. However, I do 
know that these changes are necessary because we do not always 
have the devastating type of disasters in Alabama, sometimes we 
have a borderline when we have a touchdown, and the approval 
for the declaration can take up to a month, you know, rather 
than a few days. I think that more authority at the regional 
level will help expedite that, especially if it is not declared 
and there is an appeal process. That can take too long, because 
it goes to Washington and some black hole up there handles it.
    Mr. Bilirakis. Yes, sir.
    Mr. Smith. I will echo what Bryan said about the 
relationships or the contact, building those relationships. 
That is one of the most important things in emergency 
management, is having the relationships with the players so 
that we are not, as the saying goes, exchanging business cards 
during the disaster.
    What I have personally experienced for an appeal on an HMGP 
project, we went right up to the Region IV director and it was 
approved, came right back down. We were looking at--for our 
emergency operations center, we were looking at modifying our 
contract, they sent an individual down from Atlanta, went over 
it with us, with the local office, and approved it right there 
on the spot. So that was huge, to be able to have that so I 
could move forward quickly with our project at the local level. 
So I was very appreciative of that.
    Mr. Bilirakis. Anyone else?
    [No response.]
    Mr. Bilirakis. Okay, Mr. Smith, I have a question for you. 
I know you briefly touched upon this, but we have discussed 
this issue in the past and I have discussed this with my locals 
as well. I have been contacted by emergency management 
officials from around the country, as a matter of fact, who are 
concerned about FEMA's Functional Needs Support Services 
Guidance and compliance with the Americans with Disabilities 
Act for emergency sheltering, an issue you raised, of course, 
in your testimony. All of us share the goal of ensuring all 
populations are considered and accommodated during disaster 
response--no question.
    How have you worked to address the various functional needs 
of your constituents? As you plan your emergency shelter 
operations, what challenges have you faced in addressing this 
issue? You talked about the long-term shelter as opposed to the 
short-term 72-hour shelter. I know Mr. Russell probably wants 
to comment on this too. What assistance have you received from 
FEMA and from the Department of Justice? I have spoken with the 
Department of Justice on this issue. When do you anticipate you 
will convene the hurricane sheltering risk summit that you 
talked about? I hope you will inform us of the results of the 
summit too, because I would like to know.
    Mr. Smith. Yes, sir, actually we will probably invite one 
of your staff members.
    Mr. Bilirakis. Please. Maybe I could attend as well.
    Mr. Smith. Sure, that would be great.
    What we have done in Lake County and what people are doing 
across the State is they are looking at what they currently do 
and how they can easily make some accommodations. Things like 
if they provide a TV at their shelter, make sure that the TV 
can use closed captioning. If they do not provide TVs, if they 
can provide an interpreter or an American sign language 
interpreter, work through that. However, that is extremely 
challenging to do because typically the people that want to 
provide that service, want to leave the area also for an 
evacuation.
    We are working to try to use the American Red Cross 
translation. They have a big billboard trifold card that they 
can point to and work through those different things. That is 
not just for people that are unable to talk, but it is also for 
language barriers, things of that nature.
    In Florida, we have already had pet-friendly shelters. 
However, we recognize service animals and we have been able to 
try to make accommodations for those service animals.
    So the challenges that we have are: (1) That it really kind 
of caught us by surprise, this document that came out. I 
recognize that Florida DEM had a representative, I like Chip 
Wilson, does a great job. Chip is the disability coordinator. 
We did not see an emergency manager on that process. Florida 
has a dynamic and very robust sheltering system. We are--we 
shelter all the time, we practice it. American Red Cross 
partners are there with us constantly. As I explained in my 
opening remarks, we shelter three-quarters of the State or can 
shelter a third of the State at one time, just depending on 
what the trajectory of the storm is.
    So in discussions--just last month was the Governor's 
Hurricane Conference and FEMA staff came down and DOJ staff 
came down and the representatives from the organization that 
crafted--took administrative responsibility for putting the 
document together--came in to provide training. One of the 
challenges that occurred in that training was that they tried 
to stop us from using the term ``Special Needs.'' That is a 
problem in the State of Florida because Florida Statute 252, 
which is the emergency management statute, specifically says 
you will have a Special Needs program. I am responsible for 
having a Special Needs registry in my county. Also, my review 
of the Post-Katrina Act showed that Special Needs is a term 
that was used within their Act. So we had some frustration with 
that.
    It was a great conference, we had a lot of dialogue with 
FEMA representatives and it really came to a point where we 
recognized that their understanding of risk or hurricane 
sheltering is non-existent. What they are talking about doing 
for a post--how it is going to work for a post-shelter, we are 
in agreement. We believe that we can work through very easily 
on a post-sheltering, probably 72 hours after a hurricane 
event, we can work on getting those things accomplished.
    However, you are talking about sheltering, starting 
sheltering maybe 2 days or a day before and then sheltering is 
a mentality of grouping and herding and putting all the people 
together as best they could.
    Mr. Bilirakis. It is to save lives.
    Mr. Smith. Yes, sir, it is to save lives, not to actually--
because our standards are that we follow with American Red 
Cross, you talk 20 square feet per person and if the wind is 
really blowing, you go down to 10 square feet. So there needs 
to be work with the Americans with Disabilities Act advocates 
to explain those issues to them and to work with them on that.
    I completely agree that there needs to be provisions and 
people need to have that access. They should not be denied it 
at all. However, we need to work to make sure that we can be 
able to provide that legitimately. An example I use is there is 
an individual that comes in and we need to make the 
accommodation to provide them a cot at the shelter. We do not 
provide cots in Lake County and the majority of counties do not 
provide cots for hurricane sheltering. It is a place to hide 
for a certain period of time, 12 to 18 hours, from the wind. 
All right? So then I have a family of four sitting there and 
the mother is pregnant and she sees an individual is getting a 
cot because they qualify for the ADA accommodation. So whose 
rights am I violating, you know? That is some of the 
discussions we are trying to have with DOJ.
    In Florida, we have seen that the Department of Justice has 
had completely inconsistent rulings on settlements with 
different--City of Fort Meyers, roughly 100,000 people. Their 
settlement with DOJ was they only had to have one shelter that 
met the FNSS criteria. Fairfax County, Virginia, the most 
populous county in Virginia, they only had to have one. So we 
cannot figure that out. They are in negotiations with Broward 
County, there is a requirement for air conditioning. They told 
Broward County that all of their shelters had to have air 
conditioning, but just on the other side of the State is the 
City of Fort Meyers, they only had to have one that did.
    An example of the cost of that, Florida put generators in 
shelters across the State of Florida, put 56 of them in 
shelters, that were large enough to run the air conditioning, 
because our shelters are at schools. There is a law that says 
they have to build the schools to a certain protection level. 
Schools use central energy plants for cooling, so you have to 
have a big generator. For 56 sites, it cost over $77 million. 
So the cost there is significant to be able to provide that. We 
cannot just go buy a little air conditioner window unit or 
something like that to stick in there, because again, I do not 
know who I need to be able to provide that service to. They 
said I need to be able to provide it for anyone that would show 
up to our shelter. I do not know who is going to show up to our 
shelter.
    So there is the frustration in just being able to work 
through these issues. I know we can resolve them. I know we can 
work with the experts on the ADA disability side of this and to 
be able to work and come to a common goal. That is why I said 
that we want to work on having the summit. More than likely, 
sir, it will probably be the November time frame because, as 
you know, August, September and October are our three busiest 
months for hurricanes. So we will have to bide our time to be 
able to work through that, but we are working with the Florida 
Division of Emergency Management and the Florida Department of 
Health. We have created two committees, one is a policy 
committee to work through and develop policies. Right now, we 
are looking at working on developing policies for post 
sheltering, because that is the most realistic.
    Mr. Bilirakis. Post sheltering is----
    Mr. Smith. Post-hurricane; yes, sir.
    Mr. Bilirakis [continuing]. Katrina-type sheltering.
    Mr. Smith. Yes, sir, after the storm. It is not like you 
saw in the Super Dome because that was a refuge of last resort. 
But this would be for such as like Alabama or like we had with 
Groundhog Day. Then we are trying to do a gap analysis of what 
resources are available. There are groups working on gap 
analysis, such as how much more money would generators cost?--
and different things like that.
    Mr. Bilirakis. Thank you. Anyone else want to contribute to 
this? Yes, Ms. Carbone.
    Ms. Carbone. Mr. Chairman, the American Red Cross is 
working very diligently with our community partners to do 
everything we can. What I would really like to say about this 
is that all of our partners need to come to the table and that 
includes the private sector, because they can help us meet 
these needs. You cannot do it at every single shelter every 
single time, especially when you are talking about hurricane 
shelters. What you need to do is you need to know how to get 
that resource to that shelter in a certain amount of time. So 
we are committed to working with our community partners. I 
think there is a lot of attention and a lot of good work being 
done on this around the State of Florida to really try our 
hardest frankly to make sure that we can serve every citizen in 
the State of Florida as best we can to meet those needs.
    Mr. Smith. I am sorry, I need to re-address something. One 
of the things that is in my testimony is an article by Ms. Lynn 
Ross from out in Washington State and one of the things that is 
important to note in that is that she pointed out to me in our 
discussion, earthquakes. I do not deal with those, but she 
pointed out to me that she can identify all the buildings in 
the world that she wants to meet ADA, but that may be the 
buildings that are inhabitable after an earthquake. So the time 
period to be able to provide that is extremely important.
    Mr. Bilirakis. We have got to resolve this, most 
definitely.
    Mr. Russell.
    Mr. Russell. I had the opportunity to serve on the 
Comprehensive Planning Guide Development Group with FEMA and 
one of the CPGs they are coming out with has to do with 
functional needs and it is a hairy subject, but the key is at 
the planning stage to get everybody to the table. That is at 
the community level.
    Mr. Bilirakis. Thank you. Anyone else on this side?
    [No response.]
    Mr. Bilirakis. Okay. I am going to recognize Congressman--
Ranking Member Clarke for any further questions. I know he has 
got to get to the airport, probably has to leave in a few 
minutes. Would you like to add a couple of things?
    Mr. Clarke of Michigan. This has been a great session. I do 
not have any further questions but I really appreciate your 
input, especially on the EMPG and also the Federal procurement 
process and contracting. Chairman, thank you for raising these 
issues. I know that you plan on having a subsequent hearing 
with Administrator Fugate and actually convey to him what this 
panel's insight is all about. Hopefully I can work with you on 
getting our message out.
    Mr. Bilirakis. Thank you very much.
    Mr. Clarke of Michigan. I appreciate it.
    Mr. Bilirakis. If you will bear with me, I do have a few 
more questions. We can go over 12:00. I do not know if anyone 
has to catch any flights. Are we okay? Very good.
    As part of FEMA's integrated public alert and warning 
system--and I know you all brought this up--all cell phones 
must be capable of receiving emergency alerts through the 
Personal Localized Alert Network, known as PLAN, by April 2012; 
New York and Washington, DC, as early as the end of this year. 
That is what I am told.
    Have you been able to provide input to FEMA or the FCC on 
the type of system that will best meet your needs? What 
guidance, if any, have you received from FEMA and the FCC on 
PLAN and the best way to use it to warn citizens of a hazard in 
your area? I know Pasco County is working on this issue as 
well.
    Who would like to begin on this one?
    Mr. Koon. Congressman, I have actually had conversations 
with Pasco County's emergency management about this system as 
well. We are very excited about the possibility of it. As I 
mentioned before, the State does have--many counties, many 
municipalities, schools, hospitals, et cetera, have emergency 
notification systems, but none of them are going to be able to 
reach those citizens who are visiting the State, you know the 
million-plus tourists who could be around, they are not going 
to be in that system. It will also not localize it. It is going 
to be based on--a fixed system will be based on their home 
address and so will not help them if they are on the 
interstate, for example.
    Mr. Bilirakis. Right.
    Mr. Koon. So we are very excited about this system as part 
of the overall notification system within the State, to be able 
to alert citizens to an emergent issue, tornado warning, flash 
flood warning, et cetera. Thus far, we have not had significant 
conversations with FEMA about this system, but we are pressing 
so that we can implement as quickly as possible following the 
April 2012 implementation date.
    Mr. Bilirakis. Anyone else? Yes, Mr. Smith.
    Mr. Smith. Mr. Chairman, we completely agree this needs to 
occur. In Florida, we have 103 percent saturation rate of cell 
phones, I carry three of them myself.
    [Laughter.]
    Mr. Smith. I will tell you this needs to be in partnership 
with the NOAA weather radio system, because I will tell you on 
Groundhog Day, the people that died, the reason they died--we 
lost 21 people in my county. The reason they died is what woke 
them up was their mobile phone or the home that they were in 
being destroyed by the tornado. So they did not have NOAA 
weather radios and we push them significantly.
    But there are issues like in some parts of our State where 
the NOAA weather radio coverage is not as good as cell phone 
coverage. So we know that if they are getting that cell phone, 
people are going to pay more attention to their cell phone, we 
believe. Because the NOAA weather radio is one of those things 
that if it keeps going off a couple of times, they are going to 
turn it off so they can get some sleep. But they will not turn 
off their cell phone. So that is why we are very excited about 
this process.
    I will tell you that any county in the State of Florida is 
willing to be a test bed to be able to utilize that system.
    Mr. Bilirakis. Very good. Right now if you have the land-
based, you have the reverse 9-1-1.
    Mr. Smith. Yes.
    Mr. Bilirakis. This would not work for visitors and those 
that do not have land lines.
    Mr. Smith. In Lake County, it does not work for those that 
do not have--that are visitors.
    Mr. Bilirakis. How would it work with a cell phone, would 
it be a text message?
    Mr. Smith. That is my understanding; yes, sir. We are 
looking for the--most of the information I have is from the 
press release that they had and in discussions with our State 
representative and the gentlemen in Pasco County, is that it 
would be a text message and it would be a different type of 
tone. However, it is not all that exciting just yet because 
there has to be an enabled phone. So we will have to go through 
a generation or two of cell phones for everybody to be able to 
get that. But, you know, at my house, I am getting one every 2 
years because my kid wants something newer. So I think we are 
going to be able to get there rather quickly because of the way 
the plans are and different things like that. So this really is 
the way to work, to be able to do this. I think because of the 
way our society is, and there may be a way that we push out the 
information and be able to go back to what you were asking 
about, about getting our citizens more engaged. If they know 
they are going to be able to get that--you know, we do have to 
be careful of the big brother philosophy that he can reach out 
and touch me. But having that issue or that knowledge is 
tremendous.
    Mr. Bilirakis. We must take our hearing impaired and our 
visually impaired folks into consideration as well.
    Ms. Willis.
    Ms. Willis. Yes, sir. One of the issues that we are facing 
in Tampa is we have a system called Work Tampa. We have moved 
away from one that was actually upgraded to having a 
notification that provides text messages, that will call their 
home phone system and that will provide e-mail. We recognize 
that people are carrying smartphones, the majority of people in 
the United States certainly in highly populated areas are not 
registering for land-line service.
    One thing that I find exciting about the Federal level 
pushing this notification process and system out is that it is 
somewhat taking the onus off of the citizens. We are having a 
major issue with getting residents to actually register for the 
system, getting subscribers. We have had the system in place 
for about a year now, we have a population of over 300,000 
people, we have 5,000 people registered for the system. So it 
is on us to actually promote the system, tell them why they 
should use it. You know, here in Florida, we have something 
called hurricane fatigue, people get a little bit tired.
    On top of all of this, we have a lot of visitors that come 
to our area. We would like them to receive alert texts, alert 
messages. So if the Federal Government is pushing out this 
program, it's so beneficial because no matter where they are, 
they can receive an alert text or an alert message. They do not 
have to go into Tampa to register for the system. But chances 
are, they will not even know about it unless we are promoting 
it so effectively in the towns and everywhere else, that they 
actually can use the system.
    So, you know, from my point of view as an emergency manager 
in Tampa, having the Federal Government push out a notification 
system is absolutely awesome.
    Mr. Bilirakis. Very good. Can someone maybe elaborate on 
what is in place for the hearing impaired or visually impaired 
as far as a warning is concerned? Could someone address that?
    Mr. Smith. I can tell you with the NOAA weather radios, 
there is a device that they can get where there is a flashing 
light and then to wake people up at night, there is a bed 
shaker. It is a device that they can attach to their bed.
    The use for the sight--if it is a text, I believe that they 
have phones that are capable of being able to convert that 
text. Like my new Bluetooth converts my texts to audio so that 
I am getting email, so I am not texting and driving--because 
that is illegal--or not yet, but it should be.
    So there are--as was mentioned, getting the private sector 
involved, this is an innovative way to get them involved with 
the service that is going to need to be provided. Because if it 
is a text, we are still going to want the people that are 
driving to get it and we do not want them to wreck while they 
are trying to read the text about the wreck that is up ahead of 
them. So there are a lot of things that we are going to have to 
deal with, to include all the different specific populations.
    Mr. Bilirakis. Thank you.
    My next question is for Mr. Smith, Mr. Russell, and Ms. 
Willis. The International Association of Emergency Managers has 
supported a number of initiatives to strengthen FEMA's disaster 
response capabilities, including ensuring that local emergency 
managers have meaningful participation in FEMA's policymaking 
process. Do you believe FEMA has fostered a culture of 
cooperation with local emergency managers with respect to 
policy development? As a follow-on, as I am sure you are aware, 
the Gulf Coast of Florida was significantly impacted by the 
Deepwater Horizon oil spill last year. During the response, 
local officials in this area were frustrated by the unified 
command's communication efforts. I heard it everywhere. That 
is, they were concerned that while the unified command was 
proficient in providing information, problems arose when local 
officials attempted to pass information on needs or conditions 
on the ground back up the chain.
    In your experience in working with FEMA in response to 
disasters, does the information chain sufficiently work in both 
directions? Because it must. Are your concerns heard and 
considered promptly and effectively? If they are not, I need to 
know about it. I would imagine the FEMA liaison position 
discussed by Mr. Russell will go a long way in helping to 
correct these issues. Are liaisons in place throughout the 
different States? I know that is a lot, but if you can--maybe 
all of you want to comment on that.
    We will go with Mr. Smith, Mr. Russell, Ms. Willis, and 
anybody else who wants to comment.
    Mr. Smith. The answer in general to the question is yes. 
One exception that I did bring up earlier is the FNSS document. 
I am not sure--that is one of the biggest concerns we have at 
the local level, is why did that not go through the normal 
vetting process, why were we not consulted? All of a sudden, 
here is this document. That is what caused that frustration is 
because they had gotten so good at asking us our opinion. 
However, do we provide--you know, their challenge is do we 
provide it as much as we should? I would hazard to say no, we 
do not, because we are dealing with other things, and then we 
complain about it, ``Hey, how did this get through?'' So in 
their defense, you know, there are some things that the locals 
need to do better on providing that feedback.
    But the answer in general to your question is yes, I do 
believe that. Their e-mail has been very good, about being able 
to provide that, they are real good about being able to accept 
it electronically and put things on their FTP site and there 
are different committees that they are looking at for locals to 
be engaged with.
    On the Deepwater Horizon issue, you know, that was not 
FEMA.
    Mr. Bilirakis. No, I realize that.
    Mr. Smith. That was DHS.
    Mr. Bilirakis. Yes.
    Mr. Smith. That was in all issues because of OPA 90, 
because of the fact that OPA 90 was designed really and truly 
from the Exxon Valdez and from the incident that occurred here 
in Tampa Bay where the tanker hit the skyline bridge. So that 
is what OPA 90 was designed for. It was not designed for a 
volcano of oil spewing from the bottom of the ocean. So really 
and truly systems were overwhelmed. The way the Coast Guard is 
designed, Florida is split up into two different Coast Guard 
commands, so there are challenges with that and that goes back 
to the point about the sovereignty of local and State 
government.
    There was not an ability for the locals to be able to 
control the assets. Eventually we got that, we were able to get 
that, but it took some time and that was a huge frustration, 
not being able to do that. So I believe that DHS has heard us 
on that, I believe the Coast Guard has heard us on that. 
Definitely, you know, I spent a week-and-a-half in Tallahassee 
working with the DEM staff, all the DEP staff or Department of 
Environmental Protection, that were involved with that. They 
are working to try to work that with our Federal partners to be 
able to get that better. I know that the Coast Guard has 
reached out to us at the local level better. We have 
established that relationship a little bit better.
    You know, one of the challenges is not so much for like 
this area here in the Tampa Bay area, because as Ms. Willis 
pointed out in her testimony, they are used to dealing with a 
lot of this stuff. They are used to an active port. But when 
you have our smaller counties, particularly up in the 
panhandle, and that is what was impacted, was our smaller 
counties, they do not have active ports, they were not having 
that relationship with the Coast Guard. I do believe the Coast 
Guard has heard that, they are engaging with the smaller 
communities that have just a little bay that people will come 
in and out of, that does not have the actual commerce. So there 
is improvement on the horizon for that--not to make a pun. But 
there are ways that we can do that and I believe we are 
engaging.
    Mr. Bilirakis. Thank you very much.
    Mr. Russell.
    Mr. Russell. Yes, sir. As to FEMA involving the local 
emergency managers, as I said before, I do have the opportunity 
of serving on the Comprehensive Preparedness Guide Development 
Team. That is probably 50 percent local. We have a few State 
representatives and the rest are FEMA and the contractor group. 
But we put together some new documents, working together, and 
they are actively putting the concerns that we have into these 
documents. So I am satisfied that is happening.
    I am disappointed that the peer review program for vetting 
of the Homeland Security Grants, including EMPG, has 
disappeared I believe within the last couple of years, and that 
is something I think really benefitted the country, because 
there was a peer review process. I think if we had more peer 
review-type processes in the way policies are made, I think we 
will have a better partnership all along.
    Mr. Bilirakis. Makes sense to me. I know you agree with 
that, Ms. Willis.
    Ms. Willis. Yeah, I do agree. One area where I would like 
to see more interaction--let me give you the overview of how it 
works in Florida and for every State, and this is something 
that you probably have heard time and time again. It is FEMA to 
the State to the county to the city. So I work with the City of 
Tampa and as a result, I have very little interaction with 
FEMA. Now we have over 400,000 people in our population that we 
deliver--over 300,000 people, but the point of the matter is 
that I have very little interaction with FEMA. So whatever we 
are doing, you know, they may or may not be aware of it.
    Our interaction is just that they are telling us, setting 
guidance and telling us what we need to do. So as far as 
pulling up a chair to the table and having everyone involved in 
the policymaking and discussions, that has not happened.
    Now on the flip side, with the Deepwater Horizon, I did 
appreciate them reaching out to our Mayor and our inter-
governmental affairs and getting us on the conference call and 
allowing us to participate and have some local input into what 
was going on in the State of Florida specifically, since we are 
dealing with Tampa Bay and the Gulf area.
    So, you know, in summary, we need more interaction with 
FEMA at the local level, because if something happens in Tampa 
with the port, with the Republican National Convention, with 
the Super Bowl, it would be good to have a liaison that I 
actually am familiar with and I actually know their name.
    Mr. Bilirakis. There is not a liaison in this area that we 
know of?
    Ms. Willis. There may be, I do not know that.
    Mr. Bilirakis. Okay, very good. Yes, Mr. Russell.
    Mr. Russell. It was the National Advisory Council that was 
comprised of private sector, local, State, and other groups to 
help with the policymaking in the past. I think that has kind 
of faded away. We do have a regional DAC in place, but it has 
pretty much become inactive. Maybe more emphasis on reviving, 
you know, the advisory councils in all the regions and then a 
National council, may be a step towards achieving that 
partnership.
    Mr. Bilirakis. Very good, thank you.
    Ms. Carbone, did you want to add something?
    Ms. Carbone. No.
    Mr. Bilirakis. Okay. Anyone over here?
    Mr. Koon, what went wrong with the response plan as far as 
the Deepwater spill?
    Mr. Koon. Congressman, I was not with DEM at the time, but 
I do believe there were some issues in the beginning in simply 
understanding who was in charge of the situation. It took 
several weeks for that to rectify itself. Luckily, it was a 
slow-moving event so they had a little bit of opportunity in 
the State of Florida to get that in place before the oil hit 
the beach.
    One of the things we are concerned about is the Cuba 
offshore oil drilling. We are potentially within 90 days now of 
them actually beginning to drill. My latest estimation was that 
they are about 30 days away from moving the rig from Singapore 
and then about 60 days once it is in place--or 60 days to move 
it in place off Cuba. Its position in the Gulf stream should a 
similar incident occur there could put that on Florida beaches 
within 1 to 3 days. So we would not have the same luxury of 
time that we had with the Deepwater Horizon spill. We are 
working very closely with the Coast Guard to ensure that we do 
have a better game plan going forward, but the concern is that 
we may not be there in time for this rig to be in place. So we 
are working very closely, again, with the Coast Guard at the 
State to ensure that the same situation does not repeat itself.
    Mr. Bilirakis. Thank you. Anyone else who would like to 
comment? Please, Ms. Dragani.
    Ms. Dragani. I will comment on the liaison, positioning of 
the liaison. The thing when Mr. Russell was talking about 
having a liaison on the ground, it was in a response capacity. 
We do not typically have FEMA liaisons in the State on a day-
to-day basis.
    Mr. Bilirakis. But they are designated.
    Ms. Dragani. They are available through those regional FEMA 
offices. So just a clarification.
    Mr. Bilirakis. Anyone else? Yes.
    Mr. Smith. The Florida liaison is based out of the 
Thomasville, Georgia office of FEMA.
    Mr. Bilirakis. Thomasville office.
    Mr. Smith. I have got him in my Blackberry, so it is not an 
issue with us. But Ms. Willis, I agree with what she said as a 
municipality, I just happened to meet him when I went up to 
Tallahassee for a meeting. But that does exist for us to be 
able to do that.
    Mr. Bilirakis. Very good. Thank you.
    Are there any further concerns that you would like to 
address? Because I do not have any more questions and we still 
have a few minutes. Mr. Koon, you are recognized.
    Mr. Koon. Congressman, I will be brief. It follows on with 
the Red Cross' Ready Rating Program. One of the programs that I 
have concern about of FEMA's is the Private Sector Preparedness 
Program, the PS Prep Program for short. Although I have not 
paid close attention to it in the last couple of months since I 
joined the State, I feel that that program is somewhat 
languishing. That is the program that would certify businesses 
as being prepared for emergencies, for disasters. I feel that 
they have got a structure in place but they have yet to create 
the incentive for a business to take part in that program. 
There are really two reasons that a business would participate 
in it. One is that it was regulatory or required by law. The 
other is that it provided some return on investment. At this 
point, it is a voluntary program, but it does not provide any 
return on investment.
    The return on investment could come in one of two ways. It 
could either be a financial return on investment in that you 
increased your sales or you reduced your costs because you had 
the certification. No such provision is in place for that at 
the moment. The other reason that a business would participate 
in this program is because it generated some kind of goodwill, 
either the goodwill of their employees, the goodwill of their 
customers, the goodwill of the community as a whole through 
increased media exposure, et cetera.
    But right now, the program has no such way in which to 
generate that goodwill. As a result, there is no real incentive 
for a business to participate in the PS Prep Program. Unless 
FEMA comes up with a way to generate such goodwill or comes up 
with a way to help generate such financial incentives, I 
believe that program will continue to languish and nothing will 
come of it.
    Alternatively though, the Ready Rating Program I think is a 
good alternative. It is easy to use and it is associated with 
the American Red Cross, so by participating in that program, 
there is a goodwill associated and so businesses are more 
likely to participate in the program. It is easy to use and it 
comes with American Red Cross' stamp of approval.
    Mr. Bilirakis. Thank you. Anyone else? Anything further? 
Yes, sir.
    Mr. Smith. One thing that we are going to need more details 
on is the changes of frequencies and narrow banding by the 
Federal Communications Commission, the inter-operability. Here 
in Florida, we have our smaller counties, our constrained 
counties, are on a VHS system and have had to go to the narrow 
banding and they are losing their footprint. There are some 
challenges with that. So that is something that I would 
encourage you to review and look at and see what other types of 
things are out there, because as we see the Federal budget 
constricting, working on the ability to provide for those areas 
that are not able to really--their budgets are constricting 
also and communications equipment is not something that is 
easily bought, very expensive.
    Mr. Bilirakis. I agree. That should be a priority. Good 
point. Yes, sir.
    Mr. Russell. Homeland Security has a consortium of training 
centers and EMI is not funded anywhere the level of those 
training centers. Those training centers are able to take their 
resident courses and put them on the road. EMI cannot do that, 
they are under-funded. I think that would go a long ways toward 
preparedness in the local communities if we could deliver those 
resident courses out in the field, like the Homeland Security 
courses are offered. So it is not just a matter of funding, it 
is a matter of supporting that program.
    Mr. Bilirakis. Very good. Ms. Willis.
    Ms. Willis. I just would like to say it would beneficial to 
get FEMA to tell us what is going right across the country, at 
the National level, so that we are not operating blindly.
    The other thing is I want to applaud FEMA for initiating 
the private sector partnership. I think that is one area where 
there has been a big gap and I think that we will be able to 
fill it with some more private sector partnerships. I am 
looking forward to that. I would like to see how FEMA puts 
boots on the ground, how FEMA is going to make sure that 
program is fully put into process.
    That is just what I would say, more public-private 
partnerships.
    Mr. Bilirakis. Thank you. Ms. Carbone.
    Ms. Carbone. Well, I think we have all talked about the 
important work of all of our agencies and what we are doing 
here. If I could just personally thank you for bringing this to 
everyone's attention, because in the State of Florida, each 
citizen needs to bear personal responsibility for being 
prepared. That is the message we are trying to give in our 
communities. We give it as often as we can and as loud or soft 
as we can, depending on the circumstances, depending on our 
audience. But really to take that message to our communities 
and to partner together and say we are all working together the 
best that we can, but you still bear responsibility for 
yourself, for your family, and your community. When you make a 
difference and you do that, then that is going to mean a big 
difference for our community coming back together.
    So, thank you, Mr. Chairman, for bringing this really 
important message to us.
    Mr. Bilirakis. Thank you very much. I like Mr. Russell's 
suggestion. It starts in our schools and with our children. We 
have to create this culture of preparedness.
    Thank you very much and I appreciate the audience being 
here, the constituents, but also representatives of local 
agencies as well.
    I thank the witnesses for their valuable testimony and, of 
course, Congressman Clarke, for his questions. The Members of 
the subcommittee may have some additional questions and I am 
sure there are Members that could not attend today that will 
have questions for the witnesses and we will ask the witnesses 
to respond in writing.
    The hearing record will be open for 10 days. The 
subcommittee stands adjourned. Thanks so much.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
